Audit Report




OIG-11-039
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2010 and 2009
November 19, 2010




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report on Special-Purpose
             Financial Statements


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2010 and 2009
THIS PAGE INTENTIONALLY LEFT BLANK
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 19, 2010


            MEMORANDUM FOR FAYE McCREARY, DIRECTOR
                           FINANCIAL AND BUDGET REPORTS DIRECTORATE
                           FINANCIAL MANAGEMENT SERVICE

                                     LOUISE DiBENEDETTO, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     AUDREY DUCHESNE
                                     POLICY ANALYST
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury’s Special-Purpose
                                     Financial Statements for Fiscal Years 2010 and 2009

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2010 and 2009.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the
            Department’s special-purpose financial statements as of September 30, 2010 and
            2009 and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended.

            In its audit, KPMG LLP found:

                    •   that the fiscal year 2010 special-purpose financial statements were fairly
                        presented, in all material respects, in conformity with U.S. generally
                        accepted accounting principles and the presentation pursuant to the
                        requirements of Treasury Financial Manual Volume I, Part 2 – Chapter
                        4700 (Chapter 4700) and specific Department related instructions
                        received from the Financial Management Service (FMS),

                    •   that except for (1) the omission of the required information related to
                        unamortized discount and premium information, and (2) misstatements of
Page 2

          the SDR Certificates Outstanding with the FRB, Interest Bearing Liability
          to the IMF for SDR Allocations and Gold Certificates account balances in
          the special-purpose financial statements notes, the fiscal year 2009
          special-purpose financial statements were fairly presented, in all material
          respects, in conformity with U.S. generally accepted accounting
          principles and the presentation pursuant to the requirements of Chapter
          4700,

      •   no matters involving internal control over the financial reporting for the
          special-purpose financial statements that are considered material
          weaknesses, and

      •   no instances of reportable noncompliance with Chapter 4700 and specific
          Department related instructions received from FMS.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express an opinion on the special-purpose financial statements, or make any
conclusions with regard to the effectiveness of internal control over financial
reporting or compliance with Chapter 4700 and specific Department related
instructions received from FMS. KPMG LLP is responsible for the attached auditors’
report dated November 19, 2010 and the conclusions expressed therein. Our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
             SECTION I

  INDEPENDENT AUDITORS’ REPORT ON
SPECIAL PURPOSE FINANCIAL STATEMENTS
THIS PAGE INTENTIONALLY LEFT BLANK
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




            Independent Auditors’ Report on Special-Purpose Financial Statements

Inspector General
U.S. Department of the Treasury:

We have audited:
      •   the accompanying Closing Package Financial Statement Reports – Balance Sheet of the
          U.S. Department of the Treasury (Department) as of September 30, 2010 and 2009;

        •     the related Closing Package Financial Statement Reports – Statement of Net Cost and
              Statement of Changes in Net Position, and the accompanying Financial Report (FR)
              Notes Reports (except for FR Notes Report No. 16 – Section F, and the information
              included in the FR Notes Reports entitled “Threshold”) for the years then ended;

        •     the accompanying additional Note No. 30, Summary of Significant Accounting Policies
              and Other Disclosures (Note No. 30); and

        •     the accompanying Trading Partner Summary Note Report – Balance Sheet as of
              September 30, 2010 and 2009; the related Trading Partner Summary Note Reports –
              Statement of Net Cost, and Statement of Changes in Net Position for the years then
              ended.

Hereinafter, these are collectively referred to as the special-purpose financial statements.

These special-purpose financial statements are the responsibility of the Department’s management.
Our responsibility is to express an opinion on these special-purpose financial statements based on our
audits.

We did not audit the amounts included in the special-purpose financial statements related to the
Internal Revenue Service (IRS), a component entity of the Department, which reflect total assets of
$43.2 billion and $36.8 billion, net costs of operations of $13.4 billion and $12.5 billion, before
applicable eliminating entries, and custodial revenues of $2.3 trillion each, as of and for the years
ended September 30, 2010 and 2009, respectively. The financial statements of the IRS as of and for
the years ended September 30, 2010 and 2009, were audited by another auditor whose report dated
November 5, 2010, has been provided to us, and our opinion, insofar as it relates to the amounts
included for the IRS in the special-purpose financial statements, is based solely on the report of the
other auditor.

In addition, we did not audit the amounts included in the special-purpose financial statements related
to the Office of Financial Stability (OFS), a component entity of the Department, which reflect total
assets of $244.2 billion and $337.4 billion, and net (income) and net costs of operations of ($23.1)
billion and $41.6 billion, before applicable eliminating entries, as of and for the years ended
September 30, 2010 and 2009. The financial statements of the OFS as of and for the years ended
September 30, 2010 and 2009, were audited by another auditor whose report dated November 5,
2010, has been provided to us, and our opinion, insofar as it relates to the amounts included for the
OFS in the special-purpose financial statements, is based solely on the report of the other auditor.



                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
We, and the other auditor, conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office
of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Those standards and OMB Bulletin No. 07-04, require that we plan and
perform the audits to obtain reasonable assurance about whether the special-purpose financial
statements are free of material misstatement. An audit includes consideration of internal control over
financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Department’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the special-purpose
financial statements and assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall special-purpose financial statement presentation. We
believe that our audits, and the reports of the other auditor, related to the amounts included for the
IRS and OFS, provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of
complying with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s Treasury
Financial Manual (TFM) as described in Note No. 30, and specific Department related instructions
received from the Financial Management Service (FMS). The special-purpose financial statements
are prepared solely for the purpose of providing financial information to the Department and the U.S.
Government Accountability Office (GAO) to use in preparing and auditing the Financial Report of
the U.S. Government. The special-purpose financial statements are not intended to be a complete
presentation of the Department’s consolidated balance sheets as of September 30, 2010 and 2009,
and the related consolidated statements of net cost, and changes in net position, and combined
statements of budgetary resources and statements of custodial activity (hereinafter referred to as the
“general-purpose financial statements”) for the years then ended.

In accordance with TFM Chapter 4700, the Department prepared FR Notes Report Nos. 1 through
29B. The Department included Note No. 30 to disclose other data not contained in the
special-purpose financial statements, but which is necessary to make the special-purpose financial
statements more informative.

The fiscal year 2009 special- purpose financial statements did not include information required to be
reported by TFM Chapter 4700 in FR Notes Report No.10B, Treasury Securities Held by the
Government Trust, Revolving and Special Funds (FR Notes Report No.10B) related to unamortized
discount and premium information. In addition, amounts in FR Notes Report No. 2, Cash and Other
Monetary Assets (FR Notes Report No. 2) Section A line item 4, SDR Certificates Outstanding with
the FRB, line item 5, Interest Bearing Liability to the IMF for SDR Allocations, and line item 6, Gold
Certificates were misstated resulting in a total overstatement of assets of $72.2 billion as of
September 30, 2009 and an understatement of liabilities in the same amount in FR Notes Report
No. 2.

In our opinion, based on our audit and the reports of the other auditors, except for the omission of
unamortized discount and premium information required to be presented in FR Notes Report No.10B
and misstated asset and liability amounts in FR Notes Report No. 2, as discussed in the preceding
paragraph, the fiscal year 2009 special-purpose financial statements present fairly, in all material
respects, the financial position of the Department as of September 30, 2009, and its net cost and
changes in net position for the years then ended in conformity with U.S. generally accepted
accounting principles and the presentation pursuant to the requirements of TFM Chapter 4700, as

                                                   2
described in Note No. 30. In our opinion, based on our audit and the reports of the other auditor, the
fiscal year 2010 special-purpose financial statements, present fairly, in all material respects, the
financial position of the Department as of September 30, 2010, and its net costs and changes in net
position for the years then ended in conformity with U.S. generally accepted accounting principles
and the presentation pursuant to the requirements of TFM Chapter 4700, as described in Note No. 30
and specific Department related instructions received from FMS.

As discussed in Note No. 30AD, the Department implemented Statement of Federal Financial
Accounting Standards No. 33, Pensions, Other Retirement Benefits, and Other Postemployment
Benefits: Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount
Rates and Valuation Dates, effective October 1, 2009.

As discussed in Note No. 30AF, the Department changed its fiscal year 2009 FR Notes Report
No. 28 to correctly reflect the revenue for the fiscal year 2009 increase in liquidation preference of
the senior preferred stock, and the valuation loss on the total liquidation preference as of September
30, 2009.

As discussed in FR Notes Report Nos. 1, 20, 21, 28A, and 28B, the Department is a participant in
significant legislation and transactions whose purpose is to assist in stabilizing the financial markets.

Additional Note No. 30A Part 2, 30V, and 30AE discuss the following matters:

        •   The special-purpose financial statements do not include the assets, liabilities, or results of
            operations of commercial entities in which the Department has a significant equity
            interest as it has determined that none of these meet the criteria for inclusion as a federal
            entity and are therefore not included in the special-purpose financial statements.

        •   The valuation of certain investments, loans, commitments, and asset guarantees is based
            on estimates. These estimates are inherently subject to substantial uncertainty arising
            from the likelihood of future changes in general economic, regulatory, and market
            conditions. In addition, there are significant uncertainties related to the potential effect
            of proposed transactions, such as the restructuring of American International Group, Inc.,
            on the amounts that the Department will realize from its investments. As such, there will
            be differences between the net estimated value of these investments, loans, and asset
            guarantees at September 30, 2010, and the amounts that the Department will ultimately
            realize from these assets. Such differences may be material and will also affect the
            ultimate cost of these programs to the Department.

The Department also prepared Other Data Report Nos. 1 through 16, except for Other Data Report
Nos. 4 to 8, 11, and 14, which were not applicable to the Department. The information included in
the Other Data Report Nos. 2, 9, 10, and 13 Section A, is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is supplementary
information required by U.S. generally accepted accounting principles and the TFM Chapter 4700.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not
audit this supplementary information, and accordingly, we express no opinion on it.

The information entitled “Threshold” in FR Notes Reports; the information included in Other Data
Report Nos. 1, 3, 12, 13 Section B, 15 and 16; and the information in the Closing Package Line
Reclassification Summary Report – Balance Sheet, Statement of Net Cost, Statement of Changes in
Net Position, and Custodial Activity are presented for purposes of additional analysis and are not a
                                                 3
required part of the special-purpose financial statements. This information has not been subjected to
the auditing procedures applied in the audits of the special-purpose financial statements and,
accordingly, we express no opinion on it.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting System to
input certain data as described in Note No. 30. Except as discussed in this report, we express no
opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also
issued a combined Independent Auditors’ Report dated November 15, 2010, on our, and the other
auditor’s, consideration of the Department’s internal controls over financial reporting, and the results
of our, and the other auditor’s, tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, and other matters that are required to be reported under Government
Auditing Standards. That report is an integral part of the audits of the general-purpose financial
statements, performed in accordance with Government Auditing Standards and OMB Bulletin
No. 07-04, and should be read in conjunction with this report in considering the results of our audits
of the special-purpose financial statements. Our, and the other auditor’s, audit of the fiscal year 2010
general-purpose financial statements disclosed the following material weaknesses, significant
deficiencies, and compliance and other matter:

Material Weakness:

        •   Financial Systems and Reporting at the Internal Revenue Service (IRS)
            (Repeat Condition)

Significant Deficiencies:

        •   Financial Management Practices at the Departmental Level
            (Repeat Condition)
        •   Financial Accounting and Reporting at the Office of Financial Stability (OFS)
            (Repeat Condition)
        •   Information System Controls at the Financial Management Service (FMS)
            (Repeat Condition)

Noncompliance with certain provisions of laws, regulations, contracts, and grant agreements:

        •   An instance of noncompliance with Internal Revenue Code Section 6325
            (Repeat Condition)

In addition, the Department’s financial management systems did not substantially comply with the
Federal Financial Management Improvement Act of 1996 requirements related to compliance with
Federal financial management system requirements, and applicable Federal accounting standards.
Our, and the other auditor’s audit disclosed no instances in which the Department’s financial
management systems did not substantially comply with the U.S. Standard General Ledger at the
transaction level.




                                                   4
Other Matter:

In other matter, the Department informed us of an instance of a potential Anti-deficiency Act
violation related to certain transactions and activities of the Treasury Inspector General for Tax
Administration (TIGTA). This matter is currently under review.

                                     ______________________

Management is responsible for establishing and maintaining effective internal control. In planning
and performing our audit of the special-purpose financial statements, we considered internal control
over financial reporting by obtaining an understanding of the Department’s internal control and
performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the special-purpose financial statements, but not for the purpose of
expressing an opinion on the effectiveness of internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Department’s internal control over financial
reporting.

Our consideration of internal control over financial reporting for special-purpose financial statements
was for the limited purpose described in the preceding paragraph and was not designed to identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies, or
material weaknesses and therefore, there can be no assurance that all deficiencies, significant
deficiencies, or material weaknesses have been identified.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.

                                     ______________________

Management is responsible for complying with laws, regulations (including TFM Chapter 4700),
specific Department related instructions received from FMS, contracts, and grant agreements
applicable to the Department. As part of obtaining reasonable assurance about whether the
Department’s special-purpose financial statements are free of material misstatement, we, and the
other auditor, performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect
on the determination of financial statement amounts. However, providing an opinion on compliance
with those provisions or on compliance with TFM Chapter 4700 requirements was not an objective
of our audit of the special-purpose financial statements and, accordingly, we do not express such an
opinion.

The results of our tests of compliance with TFM Chapter 4700, and specific Department related
instructions received from FMS, disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards and OMB Bulletin No. 07-04.
                               ______________________________


                                                   5
This report is intended solely for the information and use of the Department, the Department’s Office
of Inspector General, OMB, and GAO, in connection with the preparation and audit of the Financial
Report of the U.S. Government, and is not intended to be and should not be used by anyone other
than these specified parties.




November 19, 2010




                                                 6
             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2010 AND 2009
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                       U.S Department of the Treasury                                         11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2010                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                              399,250                             365,815                            365,815
Accounts and Taxes Receivable                                                37,008                              30,432                             30,432
Loans Receivable and mortgage                                               186,520                             184,587                            422,479
backed securities
TARP Direct Loans and Equity                                                144,692                             239,657                                      0
Investments
Beneficial Interest in Trust                                                 20,805                              23,472                                   0
Inventory and Related Property                                                  697                                 598                                 598
Property, Plant and Equipment                                                 2,031                               2,036                               2,036
Debt and Equity Securities                                                   12,639                              13,565                              15,330
Investment in Government sponsored                                          109,216                              64,679                              64,679
enterprises (GSEs)
Derivative Assets                                                                 0                                   0                                  0
Other Assets                                                                  5,593                               5,584                             29,056
Total Non-Federal Assets                                                    918,451                             930,425                            930,425

Federal
Fund Balance with Treasury                                                  437,026                             504,582                            504,582
Federal Investments                                                             815                                   0                                  0
Accounts Receivable                                                             361                                 298                                298
Interest Receivable                                                             413                                 677                                677
Loans Receivable                                                            586,551                             417,895                            417,895
Transfers Receivable                                                              0                                   0                                  0
Benefit Program Contributions                                                     0                                   0                                  0
Receivable




                                                                                              -1-
                                                                       U.S Department of the Treasury                                         11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2010                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
Advances to Others and Prepayments                                                3                                  5                                    5
Other Assets (without reciprocals)                                       13,655,637                         11,992,719                           11,992,719
Total Federal Assets                                                     14,680,806                         12,916,176                           12,916,176
Total Assets                                                             15,599,257                         13,846,601                           13,846,601

Liabilities
Non-Federal
Accounts Payable                                                             (5,359)                            (4,678)                              (4,678)
Federal Debt Securities Held by the                                      (9,035,929)                        (7,559,305)                          (7,559,305)
Public
Federal Employee and Veteran                                                   (601)                              (576)                               (576)
Benefits Payable
Environmental and Disposal                                                         0                                  0                                      0
Liabilities
Benefits Due and Payable                                                          0                                   0                                   0
Loan Guarantee Liabilities                                                        0                                   0                                   0
Liabilities to Government Sponsored                                        (359,900)                            (91,937)                            (91,937)
Enterprises
Insurance and Guarantee Program                                                  (25)                               (22)                                (22)
Liabilities
Derivative Liabilities                                                            0                                  0                                    0
Other Liabilities                                                           (83,569)                           (83,334)                             (83,334)
Total Non-Federal Liabilities                                            (9,485,383)                        (7,739,852)                          (7,739,852)

Federal
Accounts Payable                                                               (108)                               (98)                                 (98)
Federal Debt                                                             (4,549,495)                        (4,365,592)                          (4,365,592)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                      11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2010                            Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:   ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                  Previously Reported
Interest Payable                                                            (48,665)                            (49,545)                         (49,545)
Loans Payable                                                                     0                                   0                                0
Transfers Payable                                                                 0                                   0                                0
Benefit Program Contributions                                                  (226)                               (215)                            (215)
Payable
Advances from Others and Deferred                                                (34)                               (40)                             (40)
Credits
Liability to the General Fund for                                        (1,414,252)                         (1,263,128)                                  0
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                           2                                 (75)                      (1,263,203)
Total Federal Liabilities                                                (6,012,778)                         (5,678,693)                      (5,678,693)
Total Liabilities                                                       (15,498,161)                        (13,418,545)                     (13,418,545)


Net Position
Net Position-Non-Earmarked Funds                                            (59,470)                           (386,203)                        (386,203)
Net Position-Earmarked Funds                                                (41,626)                            (41,853)                         (41,853)
Total Net Position                                                         (101,096)                           (428,056)                        (428,056)
Total Liabilities and Net Position                                      (15,599,257)                        (13,846,601)                     (13,846,601)




                                                                                              -3-
                                                                       U.S Department of the Treasury                                         11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2010                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                      330,178                             227,278                            227,278
Interest on Debt Held by the Public                                         214,796                             189,148                            189,148
Gain/Loss from changes in actuarial                                             820                                   0                                  0
assumptions
Total Non-Federal Gross Cost                                                545,794                             416,426                            416,426

Federal Gross Cost
Benefit Program Costs                                                         2,119                               1,960                              1,960
Imputed Costs                                                                 1,008                                 794                                794
Buy/Sell Costs                                                                1,642                               1,635                              1,635
Federal Securities Interest Expense                                         198,597                             191,997                            191,997
Borrowing and Other Interest                                                  8,192                               6,534                              6,534
Expense
Borrowing Losses                                                                  0                                   0                                  0
Other Expenses (without reciprocals)                                              0                                   1                                  1
Total Federal Gross Cost                                                    211,558                             202,921                            202,921
Department Total Gross Cost                                                 757,352                             619,347                            619,347

Earned Revenue
Non-Federal Earned Revenue                                                  (73,951)                            (77,066)                            (77,066)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                0                                   0                                   0
Buy/Sell Revenue                                                               (219)                             (1,371)                             (1,371)
Federal Securities Interest Revenue                                               0                                   0                                   0
(exchange)




                                                                                              -4-
                                                                       U.S Department of the Treasury                                         11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2010                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
Borrowing and Other Interest                                                (24,181)                            (16,630)                            (16,630)
Revenue (Exchange)
Borrowings Gains                                                               (160)                             (2,497)                             (2,497)
Other Revenue (without reciprocals)                                               0                               1,149                               1,149
Total Federal Earned Revenue                                                (24,560)                            (19,349)                            (19,349)

Department Total Earned Revenue                                             (98,511)                            (96,415)                            (96,415)

Net Cost                                                                    658,841                             522,932                            522,932




                                                                                              -5-
                                                                       U.S Department of the Treasury                                          11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2010                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                      Previously Reported
Beginning Net Position                                                     (428,056)                            (309,711)                           (309,711)
Non-Federal Prior-Period
Adjustments
Non-Federal Prior Period                   I                                       0                                   0                                      0
Adjustments (not restated)
Changes in Accounting Principles                                                   0                                   0                                      0
Corrections of Errors                                                              0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year
Federal Prior-Period Adjustments
Change in Accounting Principles                                                    0                                   0                                      0
Corrections of Errors                                                              0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year
Adjusted Beginning Net Position                                            (428,056)                            (309,711)                           (309,711)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                            (1,617,454)                        (1,696,928)                           (1,696,928)
Witholdings
Corporation Income Taxes                                                   (181,751)                            (130,282)                           (130,282)
Unemployment Taxes                                                           (6,450)                              (6,656)                             (6,656)
Excise Taxes                                                                (69,520)                             (64,978)                            (64,978)
Estate and Gift Taxes                                                       (18,826)                             (23,429)                            (23,429)
Custom Duties                                                                     0                                    0                                   0
Other Taxes and Receipts                                                    (78,915)                             (42,279)                            (42,279)
Miscellaneous Earned Revenue                                                      0                              (23,472)                            (23,472)




                                                                                              -6-
                                                                       U.S Department of the Treasury                                          11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2010                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                        2009-SEPTEMBER                     Previously Reported
Total Non-Federal Nonexchange                                            (1,972,916)                        (1,988,024)                           (1,988,024)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                 0                                  0                                      0
(nonexchange)
Borrowing and other interest revenue                                                0                                  0                                      0
(nonexchange)
Benefit Program Revenue                                                             0                                  0                                      0
(nonexchange)
Other taxes and receipts                                                         (12)                                  0                                      0
Total Federal Nonexchange Revenue                                                (12)                                  0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                        (447,760)                            (851,318)                           (851,318)
(rescissions and other adjustments)
Appropriation of unavailable special                                                0                                  0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               14                                 26                                  26
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                   (92)                                (11)                                (11)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                     0                                  5                                      5
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                               0                                (10)                                (10)




                                                                                               -7-
                                                                       U.S Department of the Treasury                                         11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2010                              Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                        2009-SEPTEMBER                    Previously Reported
sources
Expenditure Transfers-out of                                                       74                              (61)                                 (61)
financing sources
Nonexpenditure Transfers-In of                                                      0                                0                                       0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                0                                       0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                0                                       0
the General Fund
Accrual for Amounts to be Collected                                                 0                                0                                       0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                            23,627                         2,010,881                             2,010,881
Total Budgetary Financing Sources                                          (424,137)                        1,159,512                             1,159,512

Other Financing Sources:
Transfers-in Without Reimbursement                                                  1                                5                                   5
Transfers-out Without                                                              41                               31                                  31
Reimbursement
Imputed Financing Source                                                     (1,008)                              (793)                               (793)
Non-Entity Collections Transferred                                        1,972,885                                  0                                   0
to the General Fund
Accrual for Non-entity Amounts to                                            93,265                                  0                                       0
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                       0                           187,992                            187,992
sources




                                                                                               -8-
                                                                       U.S Department of the Treasury                                         11-16-2010 12:29:41
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2010                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:     ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
Total Other Financing Sources                                             2,065,184                             187,235                            187,235


Net Cost                                                                    658,841                             522,932                            522,932

Ending Net Position Balance                                                (101,096)                            (428,056)                          (428,056)




                                                                                              -9-
                                                                                                                                                                                          11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        1,19,26, and 29

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Federal Reserve Earnings                                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Treasury securities Credit                      813,550                    769,160                     769,160                          0
                including those
                held by the Federal
                Reserve Bank
                (FRB)
 2              FRB earnings on     Credit                       75,845                     34,318                      34,318                          0
                Treasury securities
                that exceed the
                statutory amount.

       Section: B             Section Name: Related Parties ¿ External to the Reporting Entity for      No Data Flag: YES          Line Attributes: Dollars
                                            the Financial Report                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                     Fiscal Year: 2010                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:      1,19,26, and 29

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to
                   the agencies audited financial statements being issued.
                                                                                                                     N/A

2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).
                                                                                                                     N/A
3                  Describe any change in accounting if a collecting entity adopts accounting standards that
                   embody a fuller application of accrual accounting concepts that differs from that prescribed      N/A
                   by the SFFAS no. 7, par.64.
4                  List all of the agency's components for which balances and activities are not combined into
                   the agency's financial statements and, therefore, are not represented in the GFRS data.           N/A
5                  List all of the agency's components for which balances and activities are combined into the
                   agency's financial statements, and, therefore, are represented in the GFRS data.                  Bureau of Engraving & Printing, Bureau of the Public Debt, Community Development
                                                                                                                     Financial Institutions, D.C. Pension Fund, Departmental Offices, Exchange Stablization
                                                                                                                     Fund, Federal Financing Bank, Financial Crimes Enforcement Network, Financial
                                                                                                                     Management Service, Government Sponsored Enterprises, Internal Revenue Service,
                                                                                                                     U.S. Mint, Office of International Affairs, Office of Comptroller of Currency, Office of
                                                                                                                     Financial Stability, Office of Inspector General, Office of Thrift Supervision, Special
                                                                                                                     Inspector General TARP, Treasury Forfeiture Fund, Treasury IG for Tax Administration,
                                                                                                                     Alcohol and Tobacco Tax and Trade Bureau
6                  Describe any additional significant accounting policies specific to your agency not included in
                   GFRS GF006 ¿ FR Notes GFRS.                                                                       N/A
7                  Provide any other relevant information pertaining to the Federal Reserve Earnings.
                                                                                                                     N/A
8                  Describe the nature of the related party relationship and transactions pertaining to the          The primary "related parties" with whom the Department conducts business are other
                   amount in the ¿Other Notes Info¿ tab, ¿Related party receivables¿ line.                           federal agencies, mainly through the normal lending activities of the BPD and the
                                                                                                                     Federal Financing Bank. These activities are disclosed in these financial statements.
                                                                                                                     The Department utilizes the services of the Federal Reserve to execute a variety of
                                                                                                                     transactions on behalf of the BPD and the Exchange Stabilization Fund. The Federal
                                                                                                                     Reserve is serving as the Department's fiscal agent in executing these transactions and
                                                                                                                     receives fees for its services. The Department also consults with the Federal Reserve
                                                                                                                     on matters affecting the economy, such as the structuring of bailout financing for
                                                                                                                     American International Group and other companies affected by the current economic
                                                                                                                     situation. However, these actions do not involve transactions between the Department
                                                                                                                     and the Federal Reserve.

                                                                                                                     Finally, the Secretary of the Treasury serves on the FHFA Oversight Board, and
                                                                                                                     consults with the Director of FHFA in matters involving Fannie Mae and Freddie Mac.
                                                                                                                     This provides the Department a voice in the FHFA's actions as the conservator for
                                                                                                                     Fannie Mae and Freddie Mac, and thus some influence over major decisions involving
                                                                                                                     Fannie Mae and Freddie Mac. The Department has no transactions with FHFA;
                                                                                                                     transactions and balances arising from transactions with Fannie Mae and Freddie Mac
                                                                                                                     are accounted for and disclosed in these financial statements.



                                                                                                              -2-
                                                                                                                                                                                             11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                    Agency Notes:       1,19,26, and 29

 Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
9                Describe the nature of the related party relationship and transactions pertaining to the
                 amount in the ¿Other Notes Info¿ tab, ¿Related party payables¿ line.                            See response for question 8.
10               Describe the ¿Other Notes Info¿ tab, ¿Related party operating revenue¿ transactions along
                 with the related party relationship and include transactions with zero or nominal balances,     See response for question 8.
                 guarantees, and other terms. Also, describe changes in related party terms.
11               Describe the ¿Other Notes Info¿ tab, ¿Related party net cost of operations¿ transactions
                 along with the related party relationship and include transactions with zero or nominal         See response for question 8.
                 balances, guarantees, and other terms. Also, describe changes in related party terms.
12               Describe related party economic dependency (that is, major customers, suppliers,
                 franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships   See response for question 8.
                 and transactions included in the ¿Other Notes Info¿ tab, ¿Related party economic
                 dependency transactions¿ section
13               Provide details on the investments in related parties.
                                                                                                                 See response for question 8.
14               Provide details on related party leases.
                                                                                                                 N/A
15               Describe control relationships with entities under common ownership, management control,
                 and conservatorship if the operating results or financial position could be significantly       N/A
                 impacted as a result of the relationship. Include control relationships with and without
                 transactions.
16               Provide any other useful information on related parties.                                        Government Sponsored Enterprises (GSEs)

                                                                                                                 The Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan
                                                                                                                 Mortgage Corporation (Freddie Mac) are stockholder-owned GSEs. Congress
                                                                                                                 established these GSEs to increase the supply of mortgage loans and to reduce the
                                                                                                                 accompanying costs. Starting in early fiscal year 2008, increasingly difficult conditions
                                                                                                                 in the housing market challenged the soundness and profitability of GSEs, thereby
                                                                                                                 undermining the entire housing market. Several actions have been taken by the
                                                                                                                 Department that are intended to provide financial stability to the GSEs.

                                                                                                                 Troubled Asset Relief Program (TARP)

                                                                                                                 The Emergency Economic Stabilization Act of 2008 (EESA) established the Troubled
                                                                                                                 Asset Relief Program (TARP) on October 3, 2008 to be administered by the
                                                                                                                 Department and established the Office of Financial Stability within the Department¿s
                                                                                                                 Office of Domestic Finance. The Act gave the Treasury Secretary broad and flexible
                                                                                                                 authority to purchase and insure mortgages and other troubled assets, as well as to
                                                                                                                 inject capital into banks and other commercial companies by taking equity positions in
                                                                                                                 those entities, if needed, to stabilize the financial markets. The actions taken by TARP
                                                                                                                 are intended to promote market stability and protect the U.S. economy.

                                                                                                                 American International Group (AIG)

                                                                                                                 In FY 2009 the Department ultimately invested $41,600 million in Series E perpetual,


                                                                                                         -3-
                                                                                                                                                                                           11/19/2010 14:16:04

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                  GF006 - FR Notes Report

   Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                   Agency Notes:       1,19,26, and 29

 Status: Complete                     The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                      Answer
                                                                                                               non-cumulative 10% preferred shares of AIG through the AIG Investment Program.
                                                                                                               The Department also received warrants for the purchase of approximately 2.7 million
                                                                                                               shares of AIG common stock. And, to further assist the stability and restructuring of
                                                                                                               AIG, the Department agreed to make an additional $29,800 million available to AIG
                                                                                                               under the Department's credit facility. In return, the Department received $29,800
                                                                                                               million of AIG series F perpetual, non-cumulative 10% preferred stock (300,000
                                                                                                               shares). The initial liquidation preference of the Series F preferred shares was zero and
                                                                                                               increases pro rata by the amount of each draw down by AIG. As of September 30, 2010
                                                                                                               and 2009, AIG had drawn a cumulative $7,544 million and $3,206 million through the
                                                                                                               credit facility, leaving an outstanding commitment to AIG of $22,256 million and
                                                                                                               $26,594, respectively.

                                                                                                               Under the initial terms of the credit facility agreement with AIG and the Federal Reserve
                                                                                                               Bank of New York (FRBNY), a 77.9% equity interest in AIG (in the form of Series C
                                                                                                               Convertible Participating Serial Preferred Stock convertible into approximately 77.9% of
                                                                                                               the issued and outstanding shares of common stock) was issued to a trust established
                                                                                                               by the FRBNY. Subsequent to the initial agreement, a reverse stock split of AIG's
                                                                                                               common stock increased this to 79.8%. The U.S. Government is the sole beneficiary of
                                                                                                               that trust, so that when the stock is ultimately liquidated the proceeds will be deposited
                                                                                                               into the General Fund of the U.S. Government. The U.S. Government will be the
                                                                                                               ultimate recipient of any dividends on the stock and any proceeds from the liquidation of
                                                                                                               the stock. The accounting and reporting for any activities related to the government¿s
                                                                                                               beneficial interest in the stock held by the trust is done by the Department. The trustees
                                                                                                               of the trust are independent of both the Department and the FRBNY, and are not
                                                                                                               involved in day-to-day management of AIG.




                                                                                                   -4-
                                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                 Fiscal Year: 2010                  Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                    Agency Notes:        6, 7 and 14

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                   Type
Cash and Other Monetary Assets                                              D        A                   399,250                365,815
                                                                                Variance:                      0                      0            Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd           Line Item Changes
 1           Operating Cash- not                            103,615                           0                                                         0
             restricted
 2           Operating Cash-                                199,962                    269,052                     269,052                              0
             restricted
 3           Other cash - not                                  291                          343                          343                            0
             restricted
 4           Other cash - restricted                            534                        226                         226                              0
 5           International monetary                          70,348                     71,414                      71,414                              0
             assets
 6           Gold                                            11,062                     11,062                      11,062                              0
 7           Foreign currency                                13,438                     13,718                      13,718                              0
             Total                                          399,250                    365,815                     365,815                              0
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - Operating Cash- not restricted (2010 -        Please provide explanations for any amounts that have              The variance is the result of including both the restricted and non-restricted
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between         cash on line 2 in the closing package. FMS processed a top-sided journal
                                                                 the current fiscal year and prior fiscal year. (Unaudited)         in FY09 to move $104 billion off of the restricted line to unrestricted. The
                                                                                                                                    balance on the restricted line should represent the Supplementary Finance
                                                                                                                                    Program restricted cash, which it does in FY10.

 Line Item Notes - Operating Cash- restricted (2010 -            Please provide explanations for any amounts that have              The variance is the result of including both the restricted and non-restricted
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between         cash on line 2 in the closing package. FMS processed a top-sided journal
                                                                 the current fiscal year and prior fiscal year. (Unaudited)         in FY09 to move $104 billion off of the restricted line to unrestricted. The
                                                                                                                                    balance on the restricted line should represent the Supplementary Finance
                                                                                                                                    Program restricted cash, which it does in FY10.

 Line Item Notes - Other cash - not restricted (2010 -           Please provide explanations for any amounts that have              This balance is not significant to the Department. Most of this balance
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between         relates to FMC and fluctuation of this amount is not significant.
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - restricted (2010 -               Please provide explanations for any amounts that have              This balance is not significant to the Department. Most of this balance
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between         relates to FMC and fluctuation of this amount is not significant.
                                                                 the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                        -5-
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                                   Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                       Agency Notes:        6, 7 and 14

  Status: Complete                            The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                                 Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1              IMF Letter of Credit Debit                       45,245                      53,056                         53,056                          0
                - available balance
 2              Reserve Position in Debit                        12,938                      13,469                         13,469                          0
                the IMF
 3              SDR Holdings-        Debit                       57,439                      57,961                         57,961                          0
                Exchange
                Stabilization Fund
 4              SDR Certificates     Debit                       -5,200                      -5,200                          5,200                  -10,400
                outstanding with
                the FRB
 5              Interest bearing     Credit                      54,958                     -55,953                        -55,953                          0
                liability to the IMF
                for SDR Allocations
 6              Gold certificates    Credit                      11,037                     -11,037                        -11,037                          0
Threshold
 Line Description                                                 Question                                                              Answer
 Other Notes Info - Gold certificates (2010 - SEPTEMBER)          Please provide explanations for any amounts that have
                                                                  changed by 10% or more and or greater than 500,000                    Sign change
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (Unaudited)
       Section: B              Section Name: Gold                                                                                      Line Attributes: Units


Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1              Number of fine troy    N/A             261,498,900.0000           261,498,900.0000             261,498,900.0000                        .0000
                ounces of gold
 2              Statutory price of 1   N/A                     42.2222                      42.2222                        42.2222                     .0000
                fine troy ounce of
                gold
 3              Market value of 1      N/A                   1,307.0000                    995.7500                    995.7500                        .0000
                fine troy ounce of
                gold




                                                                                                           -6-
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 02           Cash and Other Monetary Assets                                                                                    Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       6, 7 and 14

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."
                                                                                                                       This is mainly comprised of reported by the FMS as Other listed in Note 6 of the
                                                                                                                       Department's PAR. It is mainly cash expected to be included in Operating Cash in the
                                                                                                                       near future. It fluctuates daily.

2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and       It is mainly non-entity tax related deposits in the U.S. Territories held by the Internal
                   any statutory authority (law, regulation, or agreement).                                            Revenue Service that cannot be used in its operations. It also includes seized cash
                                                                                                                       reported by the Treasury Forfeiture Fund.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    Internal Revenue Service - held for taxpayers. Treasury Forfeitre Fund - individuals or
                   held.                                                                                               entities who own the seized cash.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     The Office of International Affairs maintains funds at the Federal Reserve Bank in New
                   designated bank?                                                                                    York that are restricted for use by the IMF. The articles of agreement with the IMF
                                                                                                                       provide for return of these funds should the U.S. withdraw from the IMF. Other
                                                                                                                       restricted assets are held at Treasury designated financial institutions.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   Invested cash is displayed on the balance sheet as investments rather than cash.
                   Bureau of the Public Debt (BPD)security, agency security, and/or non-Federal security?              Accordingly, it is not displayed on the balance sheet as cash. Investments in BPD
                                                                                                                       securities are eliminated from the Department's balance sheet.
6                  Describe the nature of the amount in the line item "Foreign currency."                              Foreign cash is held by the Exchange Stabilization Fund. All operations of the ESF
                                                                                                                       require the explicit authority of the Secretary of the Treasury. FMS Operating Cash
                                                                                                                       also holds foreign currency in a custodial capacity for the use of the entire U.S.
                                                                                                                       Government.
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the
                   amount in the line item "Foreign Currency."                                                         N/A
8                  Disclose the method of exchange rate used on the financial statement date (Treasury
                   exchange rate or prevailing market rate).                                                           Treasury exchange rate
9                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.                                        N/A




                                                                                                                -7-
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                  Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                     Agency Notes:        1 and 15

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                    Type
Accounts and Taxes Receivable                                                D        A                    37,008                 30,432
                                                                                 Variance:                      0                      0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER               2009 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Accounts receivable,                                 62                         57                          57                             0
             gross
 2           Related interest                                  1,943                      1,297                       1,297                             0
             receivable - accounts
             receivable
 3           Penalties, fines, and                                 2                         14                          14                             0
             administrative fees
             receivable
 4           Less: allowance for                                  -4                         -3                          -3                             0
             loss on accounts
             receivable
 5           Less: allowance for                                   0                         -8                          -8                             0
             loss on interest
             receivable
 6           Less: allowance for                                  -2                         -6                          -6                             0
             loss on penalties,
             fines, and admin. fees
             rec.
 7           Taxes receivable,                               138,107                    128,108                     128,108                             0
             gross
 8           Less: allowance for                            -103,100                    -99,027                     -99,027                             0
             loss on taxes
             receivable
             Total                                            37,008                     30,432                      30,432                             0
Threshold

 Line Description                                                 Question                                                          Answer
 Line Item Notes - Related interest receivable - accounts         Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 receivable (2010 - SEPTEMBER)                                    changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                         -8-
                                                                                                                                                                                                         11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                         Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                            Agency Notes:        1 and 15

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                             Line Attributes: Dollars
                                           Labor and Homeland Security)                                                                Rounding Method: Millions                              Decimal: Zero
Line Status Line Description         NB       2010 - SEPTEMBER                2009 - SEPTEMBER                   Previously Rptd         Line Item Changes
 1              Interest on         Debit                            13                             8                           8                              0
                uncollectible
                accounts (SFFAS
                No. 1, par. 55)




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the method(s) used to calculate the allowances on accounts receivable.                       Allowances are calculated differently by each Treasury bureau depending on the nature
                                                                                                                           of the balances.
 2                   Describe the method(s) used to calculate the allowance on taxes receivable.                           IRS - uses a sophisticated model to estimate both taxes receivable and the allowance.
                                                                                                                           TTB - uses aging, analysis of individual accounts, analysis of offers in compromise etc.
 3                   Explain any material difference between the balance of accounts receivable and the
                     amounts reported on the Treasury Report on Receivables.                                               No known material differences.
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        Federal taxes receivable, net, and the corresponding liability, due to the Department are
                     the significant accounting policies pertainnig to this note.                                          not accrued until related tax returns are filed or assessments are made by the IRS and
                                                                                                                           agreed to by either the taxpayer or the court. Additionally, the prepayments are netted
                                                                                                                           against liabilities. Accruals are made to reflect penalties and interest on taxes
                                                                                                                           receivable through the balance sheet date.

                                                                                                                           Taxes receivable consist of unpaid assessments (taxes and associated penalties and
                                                                                                                           interest) due from taxpayers. The existence of a receivable is supported by a taxpayer
                                                                                                                           agreement, such as filing of a tax return without sufficient payment, or a court ruling in
                                                                                                                           favor of the IRS. The allowance reflects an estimate of the portion of total taxes
                                                                                                                           receivable deemed to be uncollectible.

                                                                                                                           Compliance assessments are unpaid assessments which neither the taxpayer nor a
                                                                                                                           court has affirmed the taxpayer owes to the Federal Government. Examples include
                                                                                                                           assessments resulting from an IRS audit or examination in which the taxpayer does not
                                                                                                                           agree with the results. Write-offs consist of unpaid assessments for which the IRS does
                                                                                                                           not expect further collections due to factors such as taxpayers¿ bankruptcy, insolvency,
                                                                                                                           or death. Compliance assessments and write-offs are not reported on the balance
                                                                                                                           sheet. Statutory provisions require the accounts to be maintained until the statute for
                                                                                                                           collection expires.




                                                                                                             -9-
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2010                    Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        1, 12, and 13

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                    Type
Loans Receivable and mortgage backed securities                              D        A                   186,520                184,587
                                                                                 Variance:                      0                      0          Rounding Method: Millions                Decimal: Zero
Line Status Line Description            CY: Face Value of Loans        CY: Long-Term Cost of            CY Net Loans           PY: Face Value of Loans        PY: Long-Term Cost of              PY Net Loans
                                               Oustanding                         Loans                                               Oustanding                         Loans
 13          GSE Mortgage Backed
             Securities Purchase
             Program - Treasury
 14          Community                                           56                          15                         41                           61                              20                           41
             Development Financial
             Institution
 15          HFA Initiative                                   15,307                      1,186                      14,121                              0                            0                            0
 16
 17
 18          GSE Mortgage Backed                             164,340                     -7,894                     172,234                     173,326                         -11,093                       184,419
             Securities Purchase
             Program - Treasury
 19          All other loans                                    123                          -1                        124                          125                              -2                          127
             receivable
             Total                                           179,826                     -6,694                     186,520                     173,512                         -11,075                       184,587
Threshold

 Line Description                                                 Question                                                           Answer
 Line Item Notes - Community Development Financial                Please provide explanations for any amounts that have              The variance is not material to the Department's financial statements.
 Institution (CY: Long-Term Cost of Loans)                        changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - HFA Initiative (CY: Long-Term Cost of          Please provide explanations for any amounts that have              New program announced in October 2009.
 Loans)                                                           changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - HFA Initiative (CY: Face Value of Loans        Please provide explanations for any amounts that have              New program announced in October 2009.
 Oustanding)                                                      changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                        - 10 -
                                                                                                                                                                                             11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                       Fiscal Year: 2010                      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                   Agency Notes:          1, 12, and 13

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Subsidy Expense/(Income)                                                             Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Changes
13             GSE Mortgage          Debit
               Backed Securities
               Purchase Program
               - Treasury
14             Loans to Non-Feds     Debit                          -4                          0                         20                          -20
               - Including Foreign
15             HFA Initiative        Debit                       1,723                          0                                                       0
16             Investment - Credit   Debit                           0                          0                     17,574                  -17,574
               Reform TARP
17             Credit Program        Debit                           0                          0                     26,032                  -26,032
               Receivable, Direct
               Loans, TARP
18             GSE Mortgage          Debit                       -632                     -12,892                    -12,892                            0
               Backed Securities
19             All other loans       Debit
               receivable
20             Total                 N/A                         1,087                    -12,892                     30,734                  -43,626
       Section: B             Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.          No Data Flag: YES           Line Attributes: Dollars
                                            91)                                                                                Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Changes
 1             Balances for          Debit
               property held Pre-
               1992
 2             Balances for          Debit
               property held Post-
               1991




                                                                                                       - 11 -
                                                                                                                                                                                              11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 04A        Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2010                   Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:       1, 12, and 13

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide a broad description of foreclosed property.                                              N/A
2                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   New TARP Note 20 in the closing package accounts for the reclass in prior year
                 the significant accounting policies pertaining to this note.                                     numbers.

                                                                                                                  The FCRA requires that the ultimate costs of a credit program be calculated, and the
                                                                                                                  budgetary resources obtained, before the direct loan obligations are incurred. The cost
                                                                                                                  of loan guarantee programs is the net present value of the estimated future cash flows
                                                                                                                  from payments (for claims and interest rate subsidies). The primary purpose of the
                                                                                                                  FCRA, which became effective on October 1, 1991, is to more accurately measure the
                                                                                                                  cost of federal credit programs and to place the cost of such credit programs on a basis
                                                                                                                  equivalent with other federal spending.

                                                                                                                  SFFAS No. 2, which generally mirrors the requirements of the FCRA, established
                                                                                                                  guidance for estimating the cost of direct and guaranteed loan programs, asset
                                                                                                                  guarantees, as well as for recording direct loans and liabilities for loan guarantees for
                                                                                                                  financial reporting purposes. SFFAS No. 2 states that the actual and expected costs of
                                                                                                                  federal credit programs should be fully recognized in both budgetary and financial
                                                                                                                  reporting. To accomplish this, agencies first predict or estimate the future performance
                                                                                                                  of direct and guaranteed loans when preparing their annual budgets. The data used for
                                                                                                                  these budgetary estimates are reestimated after the fiscal year-end to reflect changes
                                                                                                                  in actual loan performance and actual interest rates in effect when the loans were
                                                                                                                  issued. The data used for these estimates were reestimated at the fiscal year-end to
                                                                                                                  reflect adjustments for market risks, asset performance and other key variables and
                                                                                                                  economic factors. The reestimated data are then used to report the cost of the loans
                                                                                                                  disbursed under the direct or guaranteed loan program as a ¿Program Cost¿ in the
                                                                                                                  agencies¿ Statement of Net Cost.

                                                                                                                  The FCRA establishes budgetary and financing control for each credit program through
                                                                                                                  the use of the program, financing and subsidy receipt accounts for direct loans
                                                                                                                  obligated after September 30, 1991. These accounts are classified as either budgetary
                                                                                                                  or non-budgetary in the Combined Statements of Budgetary Resources. The budgetary
                                                                                                                  accounts include the program accounts and receipt accounts. The non-budgetary
                                                                                                                  accounts consist of the credit reform financing accounts.

                                                                                                                  The program account is a budget account that receives and obligates appropriations to
                                                                                                                  cover the subsidy cost of a direct loan or guarantee and disburses the subsidy cost to
                                                                                                                  the financing account. The program account also receives appropriations for
                                                                                                                  administrative expenses. The financing account is a non-budgetary account that
                                                                                                                  records all of the cash flows resulting from Credit Reform direct loans, loan guarantees,
                                                                                                                  or asset guarantees. It disburses loans, collects repayments and fees, makes claim
                                                                                                                  payments, holds balances, borrows from BPD, earns or pays interest, and receives the
                                                                                                                  subsidy cost payment from the program account.

                                                                                                                  The General Fund receipt account is a budget account used for the receipt of amounts
                                                                                                                  paid from the financing account when there is a negative subsidy or negative


                                                                                                        - 12 -
                                                                                                                                                                                            11/19/2010 14:16:04

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 04A        Direct Loans Receivable and Mortgage Backed Securities                                                       Fiscal Year: 2010                   Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                   Agency Notes:       1, 12, and 13

 Status: Complete                    The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              modification from the original estimate or a downward reestimate. They are available for
                                                                                                              appropriations only in the sense that all General Fund receipts are available for
                                                                                                              appropriations. Any assets in this account are non-entity assets and are offset by Intra-
                                                                                                              governmental liabilities. At the end of the fiscal year, the fund balance transferred to the
                                                                                                              U.S. Treasury through the General Fund receipt account is no longer included in the
                                                                                                              Department¿s fund balance reporting.




                                                                                               - 13 -
                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                               Agency Notes:      No Data

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2010 - SEPTEMBER            2009 - SEPTEMBER                Previously Rptd        Line Item Changes
 9           Air Transportation
             Stabilization Board
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 14 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 04B          Loan Guarantees                                                                                                  Fiscal Year: 2010          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:    No Data

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                    No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                  Decimal: Zero
Line Status Line Description         NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D     PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                             Loans Outstanding D             by the Government D                                         Outstanding D        the Government D
 9             Air Transportation    N/A
               Stabilization Board
13                                   N/A
14                                   N/A
15                                   N/A
16                                   N/A
17                                   N/A
18          All other loans          N/A
            guarantee liabilities
19          Total:                   N/A
Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                             Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 15 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                             Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        1 and 16

  Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2010 - SEPTEMBER         2009 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          697                  598
                                                                            Variance:                         0                    0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2010 - SEPTEMBER            2009 - SEPTEMBER               Previously Rptd            Line Item Changes
 1          Gross Inventory -                              638                          698                           698                            0
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized                                    591                          710                           710                            0
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used                        -522                        -770                         -770                              0
 6          Total allowance for                            -10                         -40                          -40                              0
            inventories and related
            property
            Total                                           697                         598                           598                            0




                                                                                                   - 16 -
                                                                                                                                                                                           11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                                Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        1 and 16

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating material
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit                           17                         17                          17                          0
                and supplies held
                for use
 6              Operating materials     Debit                           25                         24                          24                          0
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit                           69                         62                          62                          0
11              Other related           Debit                          596                        509                         509                          0
                property
12              Total allowance for     Credit                          10                         14                          14                          0
                inventories and
                related property
13              Total inventories        N/A                           697                        598                         598                          0
                and related
                property, net




                                                                                                           - 17 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                             Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        1 and 16

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES            Line Attributes: Dollars
                                             by Trading Patrner                                                                 Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                                                     Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Seized property      Debit                         558                        637                         637                          0
 2              Forfeited property   Debit                          63                         52                          52                          0
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 18 -
                                                                                                                                                                                                             11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                                       Fiscal Year: 2010                    Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                            Agency Notes:        1 and 16

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                                                     Line Attributes: Units


Line Status Line Description          NB       2010 - SEPTEMBER                2009 - SEPTEMBER                   Previously Rptd          Line Item Changes
 1              Seized property       N/A                   28,836.0000                   28,788.0000                  28,788.0000                           .0000
 2              Forfeited property    N/A                   11,814.0000                   12,939.0000                  12,939.0000                           .0000
 3              Goods held under      N/A
                price support and
                stabilization
                programs



Tab: Text Data
 Line                Question                                                                                               Answer
 1                   Method used to calculate allowance for each category of inventory.                                     All inventory that is not for sale has an allowance of 100% of the original value.
 2                   Significant accounting principles and methods of applying those principles.                            Inventory and related property includes inventory, operating materials and supplies and
                                                                                                                            forfeited property held by Treasury. Treasury's operating materials and supplies are
                                                                                                                            maintained for the production of bureau products. Treasury maintains inventory
                                                                                                                            accounts or balances for use in manufacturing currency and coins. The cost of these
                                                                                                                            items is included in inventory costs and is recorded as cost of goods sold upon delivery
                                                                                                                            to customers. Inventory for check processing activities is also maintained.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly        The Treasury values inventories at either standard cost, or lower of cost or latest
                      the significant accounting policies pertaining to this note.                                          acquisition cost, except for finished goods inventories, which are valued at weighted-
                                                                                                                            average unit cost. These inventories were categorized based on the Department's
                                                                                                                            major activities and the services the Department provides to the Federal Government
                                                                                                                            and the public. All operating materials and supplies are recorded as an expense when
                                                                                                                            consumed in operations.

                                                                                                                            Forfeited property is recorded at estimated fair market value as deferred revenue, and
                                                                                                                            may be adjusted to reflect the current fair market value at the end of the fiscal year.
                                                                                                                            Property forfeited in satisfaction of a taxpayer¿s assessed liability is recorded when title
                                                                                                                            to the property passes to the U.S. Government and a corresponding credit is made to
                                                                                                                            the related taxes receivable. Direct and indirect holding costs are not capitalized for
                                                                                                                            individual forfeited assets.

                                                                                                                            Mortgages and claims on forfeited assets are recognized as a valuation allowance and
                                                                                                                            a reduction of deferred revenue from forfeited assets when the asset is forfeited. The
                                                                                                                            allowance includes mortgages and claims on forfeited property held for sale and a
                                                                                                                            minimal amount of claims on forfeited property previously sold. Revenue from the
                                                                                                                            forfeiture of property is deferred until the property is sold or transferred to a state, local,
                                                                                                                            or federal agency. Revenue is not recognized if the forfeited property is ultimately
                                                                                                                            destroyed or cannot be legally sold.




                                                                                                             - 19 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                           Fiscal Year: 2010                   Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                               Agency Notes:        1, 6, and 17

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                     2,031                2,036
                                                                            Variance:                      0                    0            Rounding Method: Millions           Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                    PY PP&E             PY Accum. Depr.                  PY Net PP&E
 1          PP&E - balance                               5,745                       3,709                       2,036                    6,059                          3,982                    2,077
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     434                                                       434                     417                                                     417
            acquisitions from the
            public
 4          Capitalized                                      69                                                        69                      45                                                      45
            acquisitions from
            Government agencies
 5          Deletions from the                             -262                       -234                            -28                    -776                        -718                         -58
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     480                       -480                                                    445                     -445
            on
            Total                                          5,986                      3,955                       2,031                      5,745                       3,709                    2,036




                                                                                                   - 20 -
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                  Fiscal Year: 2010                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:        1, 6, and 17

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Gross cost for PP&E for each category                                                   Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB       2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1              Buildings,              Debit                         701                         676                         676                           0
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                       3,100                       3,048                        3,048                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit                          15                          38                          38                           0
                progress
 4              Land and Land           Debit                          13                          12                          12                           0
                Rights
 5              Internal use            Debit                       1,612                       1,464                        1,464                          0
                software
 6              Assets under            Debit                           4                          25                          25                           0
                capital lease
 7              Leasehold               Debit                         541                         482                         482                           0
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                         5,986                       5,745                        5,745                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                            Answer
 Other Notes Info - Construction in progress (2010 -                Please provide explanations for any amounts that have
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                  The variance is not material to the Department's financial statements.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Assets under capital lease (2010 -              Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 21 -
                                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                     Fiscal Year: 2010                   Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                         Agency Notes:        1, 6, and 17

  Status: Complete                               The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: A               Section Name: Gross cost for PP&E for each category                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                                    Question                                                             Answer
 Other Notes Info - Leasehold improvements (2010 -                   Please provide explanations for any amounts that have                The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                          changed by 10% or more and or greater than 500,000
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (Unaudited)




       Section: B               Section Name: Accumulated Depreciation/Amortization                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd       Line Item Changes
 1              Buildings,              Credit                         336                         308                          308                           0
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                       2,295                       2,268                         2,268                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                       1,003                         807                          807                           0
                software
 4              Assets under            Credit                           2                          23                            23                          0
                capital lease
 5              Leasehold               Credit                         319                         303                          303                           0
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                        -3,955                      -3,709                        -3,709                          0
                depreciation/amorti
                zation




                                                                                                              - 22 -
                                                                                                                                                                                            11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                Fiscal Year: 2010                   Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        1, 6, and 17

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                                     Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              General Services      Debit                           66                         44                         44                          0
                Administration
 2              Department of         Debit
                Defense
 3              Department of the     Debit                            2
                Interior
 4              Department of         Debit
                Justice
 5              National              Debit
                Aeronautics and
                Space
                Administration
 6              All other             Debit                            1                          1                          1                          0
                departments
 7              Total capitalized      N/A                            69                         45                         45                          0
                assets from
                Federal agencies
       Section: D              Section Name: Gain/Loss on Sale/Disposition                                                         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              Gain/loss on          Credit                          21                         43                         43                          0
                sale/disposition of
                property, plant and
                equipment




                                                                                                         - 23 -
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 06          Property, Plant, and Equipment                                                                                   Fiscal Year: 2010                   Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       1, 6, and 17

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide the physical quantity information by category for multiuse heritage assets that are
                   included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).                       Treasury Complex (Main Treasury Building and Annex) and Mint 3 buildings.

2                  Provide any other relevant information pertaining to this note and any material changes from     Property, plant, and equipment (PP&E) is composed of capital assets used in providing
                   the prior years' depreciation methods and capitalization thresholds. In addition, describe       goods or services. It also includes assets acquired through capital leases, which are
                   briefly the significant accounting policies pertaining to this note.                             initially recorded at the amount recognized as a liability for the capital lease at its
                                                                                                                    inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and
                                                                                                                    installation, less accumulated depreciation. Major alterations and renovations including
                                                                                                                    leasehold and land improvements are capitalized, while maintenance and repair costs
                                                                                                                    are charged to expenses as incurred.

                                                                                                                    Internal use software encompasses software design, development, and testing of
                                                                                                                    projects adding significant new functionality and long-term benefits. Costs for
                                                                                                                    developing internal use software are accumulated in work in development until a project
                                                                                                                    is placed into service, and testing and final acceptance are successfully completed.
                                                                                                                    Once completed, the costs are transferred to depreciable property.

                                                                                                                    Costs for construction projects are recorded as construction-in-progress until
                                                                                                                    completed, and are valued at actual (direct) cost, plus applied overhead and other
                                                                                                                    indirect costs.

                                                                                                                    The Department leases land and buildings from the General Services Administration
                                                                                                                    (GSA) to conduct most of its operations. GSA charges a standard level users fee which
                                                                                                                    approximates commercial rental rates for similar properties. Therefore, GSA-owned
                                                                                                                    properties are not included in the Department's PP&E.
                                                                                                                    The Department's bureaus are diverse both in size and in operating environment.
                                                                                                                    Accordingly, the Department's capitalization policy provides minimum capitalization
                                                                                                                    thresholds which range from $25,000 to $50,000. The Department also uses a
                                                                                                                    capitalization threshold range for bulk purchases: $250,000 to $500,000 for non
                                                                                                                    manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus
                                                                                                                    determine the individual items that comprise bulk purchases based on Departmental
                                                                                                                    guidance. In addition, the Department¿s bureaus may expense bulk purchases if they
                                                                                                                    conclude that total period costs would not be materially distorted and the cost of
                                                                                                                    capitalization is not economically feasible.

                                                                                                                    Depreciation is expensed on a straight-line basis over the estimated useful life of the
                                                                                                                    asset with the exception of leasehold improvements and capital leases. Leasehold
                                                                                                                    improvements are depreciated over the term of the lease or the useful life of the
                                                                                                                    improvement, whichever is shorter. Capital leases are depreciated over the estimated
                                                                                                                    life of the asset or term of the lease, depending on the conditions met for capitalization.
                                                                                                                    Service life ranges (2-50 years) are high due to the Department¿s diversity of PP&E.
                                                                                                                    Construction in progress and internal use software in development are not depreciated.




                                                                                                           - 24 -
                                                                                                                                                                                      11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                  Agency Notes:        1 and 11

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    12,639                  13,565
                                                                               Variance:                      0                       0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER           2009 - SEPTEMBER               Previously Rptd           Line Item Changes
 1              Fixed/Debt Securities                      12,617                      12,435                      12,435                              0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                                  3                      1,104                       1,104                              0
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                              16                          23                            23                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                                3                          3                             3                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 25 -
                                                                                                                                                                                             11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                 Agency Notes:      1 and 11

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2010 - SEPTEMBER            2009 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other                                                                                                  1,765                     -1,765
             Total                                          12,639                     13,565                      15,330                      -1,765
Threshold

 Line Description                                               Question                                                          Answer
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             The $1,100 million of Other Investments in GSEs Securities held by the ESF
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between        at September 30, 2009 matured in November 2009.
 fixed/debt securities (2010 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 1 and 320-10-50-9): Common Stocks (2010 -                      changed by 10% or more and or greater than 500,000 between
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      - 26 -
                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2010                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:         1 and 11

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities                                   Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                       Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment       PY Basis (Costs) D                PY Unamortized     PY Net Investment
                                                                             Premium/Discount D                                                                 Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                           5                           -2                        3                     1,106                        -2                    1,104
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A                          21                           -5                       16                          28                      -5                       23
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A                           6                           -3                        3                           3                       0                          3
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A                          32                        -10                         22                     1,137                        -7                    1,130
                Maturity Securities




                                                                                                        - 27 -
                                                                                                                                                                                         11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:       1 and 11

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities                                 Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                        Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value       PY Basis (Costs) D        PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                                 D
 1              Fixed/Debt              N/A                      12,293                        324                     12,617                    12,080                       356                    12,436
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A                      12,293                        324                     12,617                    12,080                       356                    12,436
                for-Sale Securities




                                                                                                        - 28 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    1 and 11

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Trading           N/A
                Securities




                                                                                                        - 29 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                    Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    1 and 11

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D              Section Name: Other Information                                                                      Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd         Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit                          324                        356                         356
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 30 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    1 and 11

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D               Section Name: Other Information                                                                    Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 31 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                       Fiscal Year: 2010                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       1 and 11

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     CDF - Line 5 represents convertible subordinated debt securities and secondary capital
                   9.                                                                                                investments in federal credit unions. Line 8 represents other equity securities with
                                                                                                                     limited partnership.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       CDF- Line 5 represents convertible subordinated debt securities and secondary capital
                   and 9 in Sections A through C.                                                                    investments in federal credit unions. Line 8 represents other equity securities with
                                                                                                                     limited partnership interests. All of CDFI securities are "Held-to-Maturity".
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-                N/A
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-
                   maturity securities (FASB ASC 320-10-50-10).                                                      N/A
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    The ESF holds most of the Department¿s other investments. "Other Foreign Currency
                   the significant accounting policies pertaining to this note.                                      Denominated Assets" and "Investment Securities" are considered "available for sale"
                                                                                                                     securities and recorded at fair value as permitted by OMB Circular No. A-136
                                                                                                                     beginning in fiscal year 2009. These holdings are normally invested in interest bearing
                                                                                                                     securities issued or held through foreign governments or monetary authorities.




                                                                                                           - 32 -
                                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08           Other Assets                                                                                                           Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:        10

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                        5,593                   5,584
                                                                                    Variance:                         0                       0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2010 - SEPTEMBER               2009 - SEPTEMBER                   Previously Rptd           Line Item Changes
 1             Advances and                                        8                              6                             6                               0
               prepayments
 2             FDIC Receivable from
               Resolution Activity
 3             NCUA Loans
 4             Regulatory Assets                                                                                          23,472                       -23,472
 5             Other assets                                    5,585                          5,578                        5,578                              0
               Total                                           5,593                          5,584                       29,056                        -23,472
Threshold

 Line Description                                                  Question                                                                 Answer
 Line Item Notes - Advances and prepayments (2010 -                Please provide explanations for any amounts that have                    This balance is not significant to the Department. Most of this balance
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               relates to the Internal Revenue Service and fluctuation of this amount is not
                                                                   the current fiscal year and prior fiscal year. (Unaudited)               significant.
Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.              Advances to the public consist of cash outlays for criminal investigations (IRS),
                                                                                                                             employee travel, relocation expenses.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled        $5.580 Billion relates to Treasury participation in Multilateral Development Banks
                     "Other Assets" on the "Line Item Notes" tab.                                                            (MDB). See PAR Note 10.
 3                   Provide any relevant information pertaining to this note. At a minimum, describe briefly the
                     significant accounting policies pertaining to this note.                                                N/A




                                                                                                              - 33 -
                                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                                    Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                          Agency Notes:        22

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                    Type
Accounts Payable                                                             C        L                        5,359                   4,678
                                                                                 Variance:                         0                       0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description           2010 - SEPTEMBER              2009 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1          Accounts Payable                                 5,359                         4,678                       4,678                                0
            Total                                            5,359                         4,678                       4,678                                0
Threshold

 Line Description                                               Question                                                                 Answer
 Line Item Notes - Accounts Payable (2010 - SEPTEMBER)          Please provide explanations for any amounts that have                   Increase in other liabilities primarily due to the beginning of the HAMP
                                                                changed by 10% or more and or greater than 500,000 between              program (209/00136) which started in March 09, increased TARP Admin
                                                                the current fiscal year and prior fiscal year. (Unaudited)              support cost, and higher IRS refunds payable.
Tab: Text Data
 Line              Question                                                                                               Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.                                           N/A




                                                                                                           - 34 -
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

      Note: 10A         Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2010                  Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                       Agency Notes:        19

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                             NB    Account    2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                     Type
Federal Debt Securities Held by the Public                                    C        L                 9,035,929               7,559,305
                                                                                  Variance:                      0                       0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER                2009 - SEPTEMBER               Previously Rptd           Line Item Changes
 1            Marketable Securities                         1,783,674                  1,986,174                     1,986,174                            0
             - Treasury bills
 2            Marketable Securities                         5,252,585                  3,772,964                     3,772,964                            0
             - Treasury notes
 3            Marketable Securities                          846,054                     677,491                      677,491                             0
             - Treasury bonds
 4            Marketable Securities                          593,615                     551,308                      551,308                             0
             - Treasury inflation
             protected securities
 5            Non-marketable                                 546,880                     563,924                      563,924                             0
             securities
 6            Unamortized premium                             13,998                      10,182                       10,182                             0
             on Treasury securities
 7            Unamortized discount                           -47,868                     -44,087                      -44,087                             0
             on Treasury securities
 8           Accrued interest                                 46,991                      41,349                       41,349                             0
             payable on debt
             issued by Treasury
  9          Securities at par
 10           Unamortized premium
             on securities
 11           Unamortized discount
             on securities
 12           Accrued interest
             payable on agency
             securities
             Total                                          9,035,929                  7,559,305                     7,559,305                            0
Threshold

 Line Description                                                  Question                                                           Answer
 Line Item Notes - Marketable Securities - Treasury bills          Please provide explanations for any amounts that have              The decreased since September 2009 as a result of the federal
 (2010 - SEPTEMBER)                                                changed by 10% or more and or greater than 500,000 between         government's response to the financial market crisis and the economic
                                                                   the current fiscal year and prior fiscal year. (Unaudited)         downturn.
 Line Item Notes - Marketable Securities - Treasury notes          Please provide explanations for any amounts that have              This $1,480 billion variance is due to the increase in federal debt held by the
 (2010 - SEPTEMBER)                                                changed by 10% or more and or greater than 500,000 between         public and the increase in interest payable and unamortized premiums and
                                                                   the current fiscal year and prior fiscal year. (Unaudited)         discounts to the public.


                                                                                                         - 35 -
                                                                                                                                                                                      11/19/2010 14:16:04

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 10A          Federal Debt Securities Held by the Public                                                               Fiscal Year: 2010                Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                              Agency Notes:      19

 Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                               Question                                                      Answer
Line Item Notes - Marketable Securities - Treasury bonds       Please provide explanations for any amounts that have        The total gross federal debt outstanding has dramatically increased since
(2010 - SEPTEMBER)                                             changed by 10% or more and or greater than 500,000 between   September 2009 as a result of the federal government's response to the
                                                               the current fiscal year and prior fiscal year. (Unaudited)   financial market crisis and the economic downturn.
Line Item Notes - Accrued interest payable on debt issued by   Please provide explanations for any amounts that have        The total gross federal debt outstanding has dramatically increased since
Treasury (2010 - SEPTEMBER)                                    changed by 10% or more and or greater than 500,000 between   September 2009 as a result of the federal government's response to the
                                                               the current fiscal year and prior fiscal year. (Unaudited)   financial market crisis and the economic downturn.




                                                                                                     - 36 -
                                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 10A           Federal Debt Securities Held by the Public                                                                          Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                          Agency Notes:        19

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Federal Debt Held By the Public: Other Related                                              Line Attributes: Dollars
                                             Information                                                                               Rounding Method: Millions                            Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER              2009 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1             Debt subject to        Credit                  13,510,840                  11,853,142                   11,853,142                             0
               statutory limit
 2             Statutory debt limit   Credit                  14,294,000                  12,104,000                   12,104,000                             0




       Section: B              Section Name: Federal Debt Held By The Public: Average Interest                                            Line Attributes: Percent
                                             Rate
Line Status Line Description           NB        2010 - SEPTEMBER              2009 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1          Marketable                 N/A                         .2000                        .3000                       .3000                        .0000
            securities -
            Treasury bills
 2          Marketable                 N/A                        2.6000                       3.0000                     3.0000                         .0000
            securities - Tresury
            notes
 3          Marketable                 N/A                        6.1000                       6.5000                     6.5000                         .0000
            securities -
            Treasury bonds
 4          Marketable                 N/A                        2.2000                       2.1000                     2.1000                         .0000
            securities -
            Treasury inflation
            protected securities
 5          Non-marketable             N/A                        2.8000                       3.7000                     3.7000                         .0000
            securities
Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        Debt and associated interest are reported on the accrual basis of accounting. Interest
                     the significant accounting policies pertaining to this note.                                          costs are recorded as expenses when incurred, instead of when paid. Certain Treasury
                                                                                                                           securities are issued at a discount or premium. These discounts and premiums are
                                                                                                                           amortized over the term of the security using an interest method for all long- term
                                                                                                                           securities and the straight-line method for short-term securities. The Department also
                                                                                                                           issues Treasury Inflation-Protected Securities (TIPS). The principal for TIPS is adjusted
                                                                                                                           daily over the life of the security based on the Consumer Price Index for all Urban
                                                                                                                           Consumers.



                                                                                                             - 37 -
                                                                                                                                                                                         11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                              Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:         30 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Investments in Federal Debt securities                                              Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                          Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium        CY Net Investment               PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                            investment D                         C
19             Department of         N/A                       20,436                                                                          20,436                      19,816
               Treasury,
               Exchange
               Stabilization Fund
23                                   N/A
24                                   N/A
25                                   N/A
26             All other programs    N/A                         7,825                            1                     176                     8,000                       6,861                         2
               and funds
27             Total                 N/A                       28,261                            -1                     176                    28,436                      26,677                        -2

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
19             Department of         N/A                                                     19,816
               Treasury,
               Exchange
               Stabilization Fund
23                                   N/A
24                                   N/A
25                                   N/A
26             All other programs    N/A                           109                        6,968
               and funds
27             Total                 N/A                           109                       26,784
       Section: B             Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                                Line Attributes: Dollars
                                            Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                          Decimal: Zero
                                            Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium         CY Net Investment               PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                             investment D                         C
 1             Fiduciary             N/A                            97                            1                                                  96                         15
               Investments
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A



                                                                                                         - 38 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                          Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                              Agency Notes:         30 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                            Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                Rounding Method: Millions                          Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium     CY Net Investment               PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                         investment D                         C
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                            97                           -1                                              96                         15

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1             Fiduciary            N/A                                                         15
               Investments
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                                                         15




                                                                                                        - 39 -
                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2010            Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                 Agency Notes:    30 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                    Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 40 -
                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2010            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    30 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C            Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                           Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                    Decimal: Zero
Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
16             Total                 N/A
       Section: D            Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                           Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined                Decimal: User-Defined
                                           completed only by Treasury)
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D          PY Par Value of the PY Unamortized Discount
                                                   investment D                       Discount C                       D                                      investment D                         C
 1        I    Social Security       N/A
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2        I    Office of Personnel   N/A
               Management, Civil
               Service Retirement
               and Disability
 3        I    Office of Personnel   N/A
               Management,
               Employees¿ Health
               Benefits
 4        I    Department of         N/A


                                                                                                           - 41 -
                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2010            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                Agency Notes:    30 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D            Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                           Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined               Decimal: User-Defined
                                           completed only by Treasury)
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D         PY Par Value of the PY Unamortized Discount
                                                   investment D                       Discount C                       D                                     investment D                         C
               Health and Human
               Services, Federal
               Hospital Insurance
 5        I    Department of         N/A
               Defense, Military
               Retirement Fund
 6        I    Department of         N/A
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7        I    Social Security       N/A
               Administration,
               Federal Disability
               Insurance
 8        I    Department of         N/A
               Labor,
               Unemployment
 9        I    Federal Deposit       N/A
               Insurance
               Corporation Funds
10        I    Office of Personnel   N/A
               Management,
               Employees¿ Life
               Insurance
11        I    Department of         N/A
               Energy, Nuclear
               Waste Disposal
12        I    Department of         N/A
               Health and Human
               Services, Federal
               Supplementary
               Medical Insurance
13        I    Housing and Urban     N/A
               Development,
               Federal Housing
               Administration
14        I    Department of         N/A
               Veterans Affairs,


                                                                                                           - 42 -
                                                                                                                                                                                11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2010            Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                Agency Notes:    30 and BPD Schedule

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: D           Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                         Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined               Decimal: User-Defined
                                         completed only by Treasury)
Line Status Line Description       NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D         PY Par Value of the PY Unamortized Discount
                                                 investment D                       Discount C                       D                                     investment D                         C
             National Service
             Life Insurance
             Fund
15      I    Department of         N/A
             Transportation,
             Highway Trust
             Fund
16      I    Department of         N/A
             Transportation,
             Airport and Airway
             Trust Fund
17      I    Pension Benefit       N/A
             Guaranty
             Corporation Fund
18      I    Department of         N/A
             State, Foreign
             Services
             Retirement and
             Disability Fund
19      I    Department of the     N/A
             Treasury,
             Exchange
             Stabilization Fund
20      I    Railroad              N/A
             Retirement Board
21      I    Office of Personnel   N/A
             Management,
             Postal Service
             Retiree Health
             Benefits Fund
22      I    Housing and Urban     N/A
             Development,
             Ginnie Mae
23      I                          N/A
24      I                          N/A
25      I    All other programs    N/A
             and funds
26      I    Total                 N/A



                                                                                                         - 43 -
                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2010            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                Agency Notes:    30 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D         Section Name: Tresury Secrities Held be Governmnet Trust Funds,                No Data Flag: YES     Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                            Rounding Method: User-Defined               Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized           PY Net Investment D
                                                premium D
 1        I    Social Security       N/A
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2        I    Office of Personnel   N/A
               Management, Civil
               Service Retirement
               and Disability
 3        I    Office of Personnel   N/A
               Management,
               Employees¿ Health
               Benefits
 4        I    Department of         N/A
               Health and Human
               Services, Federal
               Hospital Insurance
 5        I    Department of         N/A
               Defense, Military
               Retirement Fund
 6        I    Department of         N/A
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7        I    Social Security       N/A
               Administration,
               Federal Disability
               Insurance
 8        I    Department of         N/A
               Labor,
               Unemployment
 9        I    Federal Deposit       N/A
               Insurance
               Corporation Funds
10        I    Office of Personnel   N/A
               Management,
               Employees¿ Life
               Insurance



                                                                                                           - 44 -
                                                                                                                                                                               11/19/2010 14:16:04

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 10B       Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2010            Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                               Agency Notes:    30 and BPD Schedule

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: D          Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined               Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized           PY Net Investment D
                                                premium D
11      I    Department of        N/A
             Energy, Nuclear
             Waste Disposal
12      I    Department of        N/A
             Health and Human
             Services, Federal
             Supplementary
             Medical Insurance
13      I    Housing and Urban    N/A
             Development,
             Federal Housing
             Administration
14      I    Department of        N/A
             Veterans Affairs,
             National Service
             Life Insurance
             Fund
15      I    Department of        N/A
             Transportation,
             Highway Trust
             Fund
16      I    Department of        N/A
             Transportation,
             Airport and Airway
             Trust Fund
17      I    Pension Benefit      N/A
             Guaranty
             Corporation Fund
18      I    Department of        N/A
             State, Foreign
             Services
             Retirement and
             Disability Fund
19      I    Department of the    N/A
             Treasury,
             Exchange
             Stabilization Fund
20      I    Railroad             N/A
             Retirement Board



                                                                                                        - 45 -
                                                                                                                                                                                          11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                 Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:       30 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: D         Section Name: Tresury Secrities Held be Governmnet Trust Funds,                No Data Flag: YES         Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                                Rounding Method: User-Defined                   Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized           PY Net Investment D
                                                premium D
21        I    Office of Personnel   N/A
               Management,
               Postal Service
               Retiree Health
               Benefits Fund
22        I    Housing and Urban     N/A
               Development,
               Ginnie Mae
23        I                          N/A
24        I                          N/A
25        I    All other programs    N/A
               and funds
26        I    Total                 N/A
       Section: E            Section Name: Programs and Funds (to be completed only by                                             Line Attributes: Dollars
                                           Treasury)                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER              2009 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Social Security       Debit                   2,399,111                    2,296,316                                           2,296,316
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2             Office of Personnel   Debit                     770,126                      742,322                                             742,322
               Management, Civil
               Service Retirement
               and Disability
 3             Office of Personnel   Debit                      16,242                       15,367                                               15,367
               Management,
               Employees¿ Health
               Benefits
 4             Department of         Debit                     279,475                      309,702                                             309,702
               Health and Human
               Services, Federal
               Hospital Insurance
 5             Department of         Debit                     282,006                      240,807                                             240,807
               Defense, Military
               Retirement Fund
 6             Department of         Debit                     142,289                      126,821                                             126,821


                                                                                                           - 46 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                               Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                   Agency Notes:       30 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: E            Section Name: Programs and Funds (to be completed only by                                           Line Attributes: Dollars
                                           Treasury)                                                                           Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER              2009 - SEPTEMBER                Previously Rptd    Line Item Changes
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7             Social Security       Debit                     187,222                      207,932                                           207,932
               Administration,
               Federal Disability
               Insurance
 8             Department of         Debit                      18,703                       19,628                                             19,628
               Labor,
               Unemployment
 9             Federal Deposit       Debit                      37,441                       16,076                                             16,076
               Insurance
               Corporation Funds
10             Office of Personnel   Debit                      37,605                       36,146                                             36,146
               Management,
               Employees¿ Life
               Insurance
11             Department of         Debit                      47,578                       44,643                                             44,643
               Energy, Nuclear
               Waste Disposal
12             Department of         Debit                      70,982                       61,764                                             61,764
               Health and Human
               Services, Federal
               Supplementary
13             Housing and Urban     Debit
               Development,
               Federal Housing
               Administration
14             Department of         Debit
               Veterans Affairs,
               National Service
               Life Insurance
               Fund
15             Department of         Debit                      24,455                       11,484                                             11,484
               Transportation,
               Highway Trust
               Fund
16             Department of         Debit
               Transportation,



                                                                                                         - 47 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                               Fiscal Year: 2010               Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                   Agency Notes:       30 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line


      Section: E           Section Name: Programs and Funds (to be completed only by                                           Line Attributes: Dollars
                                         Treasury)                                                                           Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB       2010 - SEPTEMBER              2009 - SEPTEMBER                Previously Rptd    Line Item Changes
             Airport and Airway
             Trust Fund
17           Pension Benefit       Debit                      19,888                       17,459                                             17,459
             Guaranty
             Corporation Fund
18           Department of         Debit                      15,862                       15,334                                             15,334
             State, Foreign
             Services
             Retirement and
             Disability Fund
19           Department of the     Debit                      20,436                       18,615                                             18,615
             Treasury,
             Exchange
             Stabilization Fund
20           Railroad              Debit
             Retirement Board
21           Office of Personnel   Debit                      42,115                       35,115                                             35,115
             Management,
             Postal Service
             Retiree Health
22           Housing and Urban     Debit                       4,194                       10,664                                             10,664
             Development,
             Ginnie Mae
23                                 Debit
24                                 Debit
25                                 Debit
26           All other programs    Debit                     112,353                      119,359                                           119,359
             and funds
27           Subtotal              N/A                     4,528,083                    4,345,554                                         4,345,554
             Intragovernmental
             Debt Holdings
28           Total Net             Debit                      38,404                       33,886                                             33,886
             Unamortized
             Premiums/Discount
             s for
             Intragovernmental
29           Total                 N/A                     4,566,487                    4,379,440                                         4,379,440
             Intragovernmental
             Debt Holdings



                                                                                                       - 48 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 10B           Treasury securities held by the Government trust, revolving, and special funds                         Fiscal Year: 2010                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                             Agency Notes:      30 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.       I = Inactive Line


     Section: E              Section Name: Programs and Funds (to be completed only by                                     Line Attributes: Dollars
                                           Treasury)                                                                     Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                                Question                                                   Answer
 Other Notes Info - Department of Health and Human               Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Services, Federal Hospital Insurance (2010 - SEPTEMBER)         changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Defense, Military              Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Retirement Fund (2010 - SEPTEMBER)                              changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Defense, Medicare-Eligible     Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Retiree Health Care Fund (2010 - SEPTEMBER)                     changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Social Security Administration, Federal      Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Disability Insurance (2010 - SEPTEMBER)                         changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Federal Deposit Insurance Corporation        Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Funds (2010 - SEPTEMBER)                                        changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Health and Human               Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Services, Federal Supplementary (2010 - SEPTEMBER)              changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Transportation, Highway        Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Trust Fund (2010 - SEPTEMBER)                                   changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Pension Benefit Guaranty Corporation         Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Fund (2010 - SEPTEMBER)                                         changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Office of Personnel Management, Postal       Please provide explanations for any amounts that have      The variance is not material to the Department's financial statements.
 Service Retiree Health (2010 - SEPTEMBER)                       changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).




                                                                                                         - 49 -
                                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 10B           Treasury securities held by the Government trust, revolving, and special funds                                    Fiscal Year: 2010                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                                        Agency Notes:      30 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


     Section: E             Section Name: Programs and Funds (to be completed only by                                                Line Attributes: Dollars
                                          Treasury)                                                                                Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                               Question                                                              Answer
 Other Notes Info - Housing and Urban Development, Ginnie       Please provide explanations for any amounts that have                 The variance is not material to the Department's financial statements.
 Mae (2010 - SEPTEMBER)                                         changed by 10% or more and or greater than $500,000
                                                                between the current fiscal year and prior fiscal year
                                                                (unaudited).
 Other Notes Info - Total Net Unamortized                       Please provide explanations for any amounts that have                 The variance is not material to the Department's financial statements.
 Premiums/Discounts for Intragovernmental (2010 -               changed by 10% or more and or greater than $500,000
 SEPTEMBER)                                                     between the current fiscal year and prior fiscal year
                                                                (unaudited).
Tab: Text Data
 Line              Question                                                                                             Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.                                         No SOSAP




                                                                                                           - 50 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                                  Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        1 and 22

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                   Type
Federal Employee and Veteran Benefits Payable                               C        L                           601                 576
                                                                                Variance:                          0                   0            Rounding Method: Millions              Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER            2009 - SEPTEMBER                Previously Rptd           Line Item Changes
 1            Pension and accrued
              benefits
 2            Post-retirement health
              and accrued benefits
 3            Veteran's
              compensation and
              burial benefits
 4            Life Insurance and
              accrued benefits
 5            FECA Benefits                                    552                          533                           533                            0
 6            Liability for other                               49                           43                            43                            0
              retirement and
              postemployment
              benefits
              Total                                             601                         576                           576                            0
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - Liability for other retirement and            Please provide explanations for any amounts thathave changed        The variance is not material to the Department's financial statements.
 postemployment benefits (2010 - SEPTEMBER)                      by 10% or more and or greater than 500,000 between the
                                                                 current fiscal year and prior fiscal year (unaudited).




                                                                                                        - 51 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    1 and 22

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions                  Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Assumption              Credit
                Change Liability
 5              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 6              Interest on pension     Credit
                liability during the
                period
 7              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 8              Actuarial               Credit
                (gains)/losses (from
                experience)
 9              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
10              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
11              Less Benefits Paid      Debit
12              Pension and              N/A
                Accrued Benefits


                                                                                                           - 52 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    1 and 22

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A                  Section Name: Pension and Accrued Benefits Liability-To be            No Data Flag: YES         Line Attributes: Dollars
                                                 completed for the amount entered for pension and                                Rounding Method: Millions                  Decimal: Zero
                                                 accrued benefits in the "Line Item Notes" tab
Line Status Line Description              NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
                Liability-end of
                period




       Section: B                  Section Name: Pension Liability Long-Term Significant Assumptions     No Data Flag: YES         Line Attributes: Percent
                                                 Used in 2010 and 2009 Valuation
Line Status Line Description              NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest          N/A
 2              Rate of inflation         N/A
 3              Projected salary          N/A
                increases




       Section: C                  Section Name: Postretirement Health and Accrued Benefits              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description              NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 53 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    1 and 22

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 9              Total                    N/A
                postretirement
                health benefits
                expense
10              Less claims paid        Debit
11              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the 2010 and 2009
                                               Valuation
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                health care cost
                trend
 3              Single equivalent        N/A
                rate of health care
                cost trend




                                                                                                           - 54 -
                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    1 and 22

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: G             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined             Decimal: User-Defined
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)




                                                                                                        - 55 -
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                                     Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       1 and 22

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a           N/A
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe              N/A
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in
                   determining pension liability and                                                                  N/A
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining
                   pension liability and the                                                                          N/A
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in
                   determining the postretirement                                                                     N/A
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the
                   postretirement health                                                                              N/A
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for ¿Line Item Notes¿ tab numbers 4, 5,
                   and 6.                                                                                             N/A
11                 Provide the source(s) for the components of pension expense entered in Section A.
                                                                                                                      N/A
12                 Provide the source(s) for the interest rate entered in Section B.
                                                                                                                      N/A
13                 Provide the source(s) for the components of postretirement expense entered in Section C.
                                                                                                                      N/A
14                 Provide the source(s) for the interest rate entered in Section D.
                                                                                                                      N/A
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     The Federal Employees' Compensation Act (FECA) provides income and medical cost
                   the significant                                                                                    protection to covered federal civilian employees injured on the job, and employees who
                   accounting policies pertaining to this note.                                                       have incurred a work-related injury or occupational disease. The FECA program is
                                                                                                                      administered by the U.S. Department of Labor (DOL), which pays valid claims and
                                                                                                                      subsequently seeks reimbursements from the Treasury for these paid claims.
                                                                                                                      Generally, the Department reimburses DOL within two to three years once funds are
                                                                                                                      appropriated. These future workers' compensation estimates are generated by applying
                                                                                                                      actuarial procedures developed to estimate the liability for FECA benefits. The actuarial
                                                                                                                      liability estimates for FECA benefits include the expected liability for death, disability,
                                                                                                                      medical, and miscellaneous costs for approved compensation cases.




                                                                                                             - 56 -
                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB     Account    2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                 Type

                                                                              Variance:                                                       Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER           2009 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 57 -
                                                                                                                                                                                      11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2010          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2010 - SEPTEMBER               2009 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 58 -
                                                                                                                                                                                          11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2010 - SEPTEMBER              2009 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 59 -
                                                                                                                                                                                                           11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                            Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                            Agency Notes:       1 and 22

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                       Type
Insurance and Guarantee Program Liabilities                                     C        L                             25                     22
                                                                                    Variance:                           0                      0           Rounding Method: Millions                 Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER              2009 - SEPTEMBER                   Previously Rptd            Line Item Changes
 6              Other Insurance                                    25                            22                            22                               0
                Programs
 7
 8
              Total                                                25                             22                           22                               0
Threshold

 Line Description                                                  Question                                                                  Answer
 Line Item Notes - Other Insurance Programs (2010 -                Please provide explanations for any amounts that have
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between                The variance is not material to the Department's financial statements.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line                 Question                                                                                               Answer
 1                    Provide a description for the type of insurance or guarantee programs identified in the "Line          The actuarial liability relates to an insurance program at the Office of the Comptroller of
                      Item Notes" tab.                                                                                       the Currency.

 2                    Provide the name, description, and the related amounts of the insurance or guarantee                   The actuarial liability relates to an insurance program at the Office of the Comptroller of
                      programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.          the Currency.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly         The Office of the Comptroller of the Currency sponsors a defined life insurance benefit
                      the significant                                                                                        plan for current and retired employees.
                      accounting policies pertaining to this note.




                                                                                                              - 60 -
                                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 15              Other Liabilities                                                                                                Fiscal Year: 2010                   Period: SEPTEMBER
   Entity: 2000             Department of the Treasury                                                                                       Agency Notes:        6, 7, 21, 22

  Status: Complete                                The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                                NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                                C        L                    83,569                   83,334
                                                                                     Variance:                      0                        0           Rounding Method: Millions           Decimal: Zero
Line Status Line Description                    2010 - SEPTEMBER           2009 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                   257                          354                           354                            0
 2               Accrued wages and                                  533                          437                           437                            0
                 benefits
 3               Gold certificates                               11,037                      11,037                      11,037                               0
 4               Other debt
 5               Exchange Stabilization                          54,958                      55,953                      55,953                               0
                 Fund
 6               Legal and other
                 contingencies
 7               Grant payments due to                                 0                           0                                                          0
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability                            9,743                      9,049                       9,049                               0
 11              Custodial liabilities
 12              Accrued annual leave                               606                          584                           584                            0
 14              Advances and                                        54
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds                                      724
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18
 19              Ceritificates Issued to                           5,200                      5,200                       5,200                               0
                 FRB - ESF
 20
 21           Other Liabilities                                     457                        720                         720                                0
              Total                                               83,569                     83,334                      83,334                               0


                                                                                                            - 61 -
                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 15           Other Liabilities                                                                                         Fiscal Year: 2010                 Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                Agency Notes:      6, 7, 21, 22

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                              Question                                                       Answer
Line Item Notes - Deferred revenue (2010 - SEPTEMBER)         Please provide explanations for any amounts that have          The variance is not material to the Department's financial statements.
                                                              changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Accrued wages and benefits (2010 -          Please provide explanations for any amounts that have          The variance is not material to the Department's financial statements.
SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2010 - SEPTEMBER)        Please enter a description for any amounts over $50 million.   The variance is not material to the Department's financial statements.




                                                                                                        - 62 -
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 15          Other Liabilities                                                                                                 Fiscal Year: 2010                   Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:       6, 7, 21, 22

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1     Line 3 - Note 7, Line 5 - Note 6, Line 10 - Note 21 and, Line 19 - Note 6 of the
                   through 21 by including a description of the significant related amounts and providing the        Department's Performance and Accountability Report.
                   page number of the agency's financial report where the amount is identified.
2                  Provide a description and related amounts for balances that exceed $50 million on the line
                   titled, "Other liabilities," and provide the page number of the agency's financial report where   $371 million is associated with seized cash/investments
                   the amount is identified.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    Annual and compensatory leave earned by the Department's employees, but not yet
                   the significant                                                                                   used, is reported as an accrued liability. The accrued balance is adjusted annually to
                   accounting policies pertaining to this note.                                                      current pay rates. Any portion of the accrued leave, for which funding is not available,
                                                                                                                     is recorded as an unfunded liability. Sick and other leave are expensed as taken.

                                                                                                                     The Exchange Stabilization Fund (ESF) was established for use by the Secretary of the
                                                                                                                     Treasury to account for the purchase or sale of foreign currencies, to hold Special
                                                                                                                     Drawing Rights (SDRs) holdings, and to provide financing to foreign governments.
                                                                                                                     SDRs transactions of the ESF require the explicit authorization of the Secretary of the
                                                                                                                     Treasury.

                                                                                                                     The International Monetary Fund (IMF) has authority to cancel, in part or in whole,
                                                                                                                     SDRs created under previous allocations. Decisions of the IMF to cancel SDRs are
                                                                                                                     adopted by the IMF's Board of Governors on a basis of proposal by the IMF Managing
                                                                                                                     Director, with concurrence by the IMF Executive Board. The same majority
                                                                                                                     requirements as those for allocations apply to the Executive Board's concurrence and
                                                                                                                     to the Board of Governor's decision on an SDRs cancellation proposal.

                                                                                                                     Allocations of SDRs are recorded as assets and liabilities. The liabilities represent the
                                                                                                                     amount that is payable in the event of liquidation of, or U.S. withdrawal from, the SDRs
                                                                                                                     department of the IMF, or cancellation of the SDRs.

                                                                                                                     SDRs holdings represent transactions resulting from ESF SDRs activities. These
                                                                                                                     activities are primarily the result of IMF allocations. Other transactions reported in this
                                                                                                                     account are recorded as incurred. They include SDRs acquisitions and sales, interest
                                                                                                                     received on SDRs holdings, interest charges on SDRs allocations, and valuation
                                                                                                                     adjustments. The U.S. Government receives remuneration in SDRs from the IMF. This
                                                                                                                     is based on claims on the IMF, represented by the U.S. Reserve Position. The
                                                                                                                     allocations and holdings are revalued monthly based on the SDRs valuation rate
                                                                                                                     calculated by the IMF.

                                                                                                                     The SDRs Act of 1968 authorized the Secretary of the Treasury to issue certificates, not
                                                                                                                     to exceed the value of SDRs holdings, to the Federal Reserve Banks in return for
                                                                                                                     interest-free dollar amounts equal to the face value of certificates issued. The
                                                                                                                     certificates may be issued to finance the acquisition of SDRs from other countries or to
                                                                                                                     provide resources for financing other ESF operations. Certificates issued are to be
                                                                                                                     redeemed by the Treasury at such times and in such amounts as the Secretary may
                                                                                                                     determine. Certificates issued to Federal Reserve Banks are stated at their face value.
                                                                                                                     It is not practical to estimate the fair value of certificates issued to Federal Reserve


                                                                                                            - 63 -
                                                                                                                                                                                           11/19/2010 14:16:04

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 15         Other Liabilities                                                                                              Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                     Agency Notes:       6, 7, 21, 22

 Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
                                                                                                                 Banks, since these certificates contain no specific terms of repayment.




                                                                                                  - 64 -
                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                      Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:          26

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                 Section Name: Collections of Federal Revenue                                                         Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                  Decimal: Zero
Line Status Line Description             NB                      2010                         2009                       2008                 Prior Years
 1              Individual income      Credit                   1,315,876                    635,920                     20,182                       16,782
                and tax
                withholdings
 2              Corporation income     Credit                      55,035                    221,235                          716                           951
                taxes
 3              Unemployment           Credit                       4,697                      1,726                           37                            83
                taxes
 4              Excise taxes           Credit                      52,112                     18,583                           98                           153
 5              Estate and gift        Credit                             4                    7,841                          881                     11,025
                taxes
 6              Railroad retirement    Credit                       3,547                      1,099                            1                             1
                taxes
 7              Federal Reserve        Credit
                earnings
 8              Fines, penalties,      Credit                           244                          1                          0                             0
                interest, and other
                revenue
 9              Custom duties          Credit
10              Subtotal                N/A                    -1,431,515                  -886,405                     -21,915                     -28,995
11              Amounts collected       Debit                           387
                for Non-Federal
                entities
12              Total                   N/A                    -1,431,128                  -886,405                     -21,915                     -28,995
       Section: B                 Section Name: PP Collections of Federal Revenue                                                      Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                  Decimal: Zero
Line Status Line Description             NB                      2009                         2008                       2007                 Prior Years
 1              Individual income      Credit                   1,296,427                    702,557                     22,250                       15,323
                and tax
                withholdings
 2              Corporation income     Credit                     138,144                     69,016                         1,692                    16,630
                taxes
 3              Unemployment           Credit                       4,772                      1,859                           36                            98
                taxes
 4              Excise taxes           Credit                      54,502                     12,512                          102                           132
 5              Estate and gift        Credit                            92                    3,979                          796                     19,810



                                                                                                          - 65 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                   Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                   Agency Notes:          26

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B              Section Name: PP Collections of Federal Revenue                                                      Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           NB                       2009                         2008                       2007               Prior Years
                taxes
 6              Railroad retirement   Credit                       3,559                      1,148                           3                            1
                taxes
 7              Federal Reserve       Credit
                earnings
 8              Fines, penalties,     Credit                           516                          0                         0                            0
                interest, and other
                revenue
 9              Customs duties        Credit
10              Subtotal               N/A                    -1,498,012                  -791,071                     -24,879                   -51,994
11              Amounts collected     Debit                            487                          0                         0                            0
                for non-Federal
                entities
12              Total                  N/A                    -1,497,525                  -791,071                     -24,879                   -51,994
       Section: C              Section Name: Federal Tax Refunds Disbursed                                                          Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           NB                       2010                         2009                       2008               Prior Years
 1              Individual income     Debit                      113,577                    179,159                     48,846                     29,724
                and tax
                withholdings
 2              Corporation income    Debit                        2,630                     15,913                     16,414                     61,229
                taxes
 3              Unemployment          Debit                              1                       56                          13                           23
                taxes
 4              Excise taxes          Debit                            429                      611                         171                          215
 5              Estate and gift       Debit                              0                      209                         439                          277
                taxes
 6              Railroad retirement   Debit                              0                          1                         0                            0
                taxes
 7              Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit
                interest, and other
                revenue
 9              Customs Duties        Debit
10              Total                  N/A                       116,637                    195,949                     65,883                     91,468



                                                                                                         - 66 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                    Fiscal Year: 2010           Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:          26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D             Section Name: PP Fed Tax Refunds Disbursed for the FY                                                Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           NB                      2009                         2008                       2007               Prior Years
 1              Individual income     Debit                       1,075                    293,971                     30,361                     14,222
                and tax
                withholdings
 2              Corporation income    Debit                       6,626                     32,646                     17,370                     38,558
                taxes
 3              Unemployment          Debit                             1                       66                          13                           29
                taxes
 4              Excise taxes          Debit                           535                      541                          81                          626
 5              Estate and gift       Debit                             0                      324                         566                          358
                taxes
 6              Railroad retirement   Debit                             0                          2                         0                            1
                taxes
 7              Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit
                interest, and other
                revenue
 9              Customs duties        Debit
10              Total                 N/A                         8,237                    327,550                     48,391                     53,794
       Section: E             Section Name: Miscellaneous                                              No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined              Decimal: User-Defined
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd      Line Item Changes
 1              Portion due from      Debit
                identified non-
                compliance
                assessments
 2              Portion due from      Debit
                pre-assessment
                work in process




                                                                                                         - 67 -
                                                                                                                                                                                                      11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                         Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:       26

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: F             Section Name: Tax Gap                                                                                     Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                             Decimal: Zero
Line Status Line Description         NB      CY Low end of range             CY High end of range           PY Low end of range      PY High end of range
 1              Tax gap estimate    Debit                                                    345,000                                                  345,000




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Disclose the basis of accounting related to Collections and Disbursements of Federal                 Non-entity revenue reported on the Department's Statement of Custodial Activity
                     Revenue.                                                                                             includes cash collected by the Department, primarily from taxes. It does not include
                                                                                                                          revenue collected by other federal agencies, such as user fees and other receipts,
                                                                                                                          which are remitted for general operating purposes of the U.S. Government or are
                                                                                                                          earmarked for certain trust funds. The Statement of Custodial Activity is presented on
                                                                                                                          the "modified accrual basis". Revenues are recognized as cash is collected. The
                                                                                                                          "accrual adjustment" is the net increase or decrease, during the reporting period, in net
                                                                                                                          revenue related-assets and liabilities, mainly taxes receivable. The Balance Sheets
                                                                                                                          include an estimated amount for taxes receivable and payable to the General Fund of
                                                                                                                          the U.S. Government at September 30, 2010 and September 30, 2009.
 2                   Are all trust fund revenues recorded in accordance with applicable law (SFFAS No. 7, par.            Trust fund revenues are recorded in accordance with applicable law.
                     66). If "no", provide the reasons.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       Non-entity revenue reported on the Department's Statement of Custodial Activity
                     the significant accounting policies pertaining to this note.                                         includes cash collected by the Department, primarily from taxes. It does not include
                                                                                                                          revenue collected by other federal agencies, such as user fees and other receipts,
                                                                                                                          which are remitted for general operating purposes of the U.S. Government or are
                                                                                                                          earmarked for certain trust funds. The Statement of Custodial Activity is presented on
                                                                                                                          the "modified accrual basis". Revenues are recognized as cash is collected. The
                                                                                                                          "accrual adjustment" is the net increase or decrease, during the reporting period, in net
                                                                                                                          revenue related-assets and liabilities, mainly taxes receivable. The Balance Sheets
                                                                                                                          include an estimated amount for taxes receivable and payable to the General Fund of
                                                                                                                          the U.S. Government at September 30, 2010 and September 30, 2009.




                                                                                                            - 68 -
                                                                                                                                                                     11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 69 -
                                                                                                                                                                     11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors- Years Preceding      No Data Flag: YES      Line Attributes: Dollars
                                           2009                                                                        Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors - Years Preceding 2009    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 70 -
                                                                                                                                                                     11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 71 -
                                                                                                                                                                               11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 17          Prior-Period Adjustments                                                                                        Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:    N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: G            Section Name: Closing Package Adjustments                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB                  Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11          Total                   N/A
Tab: Text Data                        No Data Flag: YES
 Line               Question                                                                                            Answer
 1                  Describe the restatements to the prior year that resulted from correcting errors that occurred
                    in the prior year (data reported in Sections A and B).
 2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-
                    year beginning net position (data reported in Sections C and D).
 3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected
                    against the current-year operations (data reported in Sections E and F).
 4                  Describe any adjustments of the previous year (2009) reclassification in this year¿s (2010)
                    Closing Package prior-year (2009) reporting (data reported in Section G), excluding
                    amounts reported as restatements in Section A and B.
 5                  Describe the adjustments to the current-year or prior-year beginning net position that
                    resulted from changes in accounting principles as reported on the Reclassified Statement of
                    Changes in Net Position, line 2.1 and/or line 3.1.
 6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                           - 72 -
                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    Note 31

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Insurance Contingencies (Reasonably Possible Only)        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Changes
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                  N/A
       Section: B              Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES          Line Attributes: Dollars
                                             Dividends Paid)                                                                    Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                  N/A
       Section: C              Section Name: Civil Litigation, Claims and Assessments                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable          PYAccrued/Estimated PY Estimated Range(Low
                                                           amount                          end)                   (High end)      to determine loss)         amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range        PY Claim amunt (unable
                                                          (High end)                to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible


                                                                                                         - 73 -
                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                         Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:     Note 31

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: D              Section Name: Environmental Litigation, Claims, and Assessments         No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable        PY Accrued/Estimated     PY Estimated Range
                                                           amount                      (Low end)                  (High end)            to determine)                   amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range      PY Claim amount (unable
                                                       (High Range)                 to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible
       Section: E              Section Name: Other Contingencies                                       No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




       Section: F              Section Name: Other Contingencies                                       No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 3        I                          Credit
 4        I                          Credit
 5        I                          Credit




                                                                                                         - 74 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                             Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                     Agency Notes:       Note 31

 Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
1                  Describe the risk insurance programs that are in force.                                         The Terrorism Risk Insurance Act (TRIA or the Act) was signed into law on November
                                                                                                                   26, 2002. This law was enacted to address market disruptions resulting from terrorist
                                                                                                                   attacks on September 11, 2001. The Act helps to ensure available and affordable
                                                                                                                   commercial property and casualty insurance for terrorism risk, and simultaneously
                                                                                                                   allows private markets to stabilize. The Terrorism Risk Insurance Program is activated
                                                                                                                   upon the certification of an "act of terrorism" by the Secretary of the Department in
                                                                                                                   concurrence with the Secretary of State and the Attorney General. If a certified act of
                                                                                                                   terrorism occurs, insurers may be eligible to receive reimbursement from the U.S.
                                                                                                                   Government for insured losses above a designated deductible amount. Insured losses
                                                                                                                   above this amount will be shared between insurance companies and the U.S.
                                                                                                                   Government. The Act also gives the Department authority to recoup federal payments
                                                                                                                   made under the Program through policyholder surcharges under certain circumstances
                                                                                                                   and contains provisions designed to manage litigation arising from or relating to a
                                                                                                                   certified act of terrorism.

                                                                                                                   The original TRIA program was to expire on December 31, 2005, but the Program was
                                                                                                                   extended through December 31, 2007 by the Terrorism Risk Insurance Extension Act of
                                                                                                                   2005 (Extension Act). This law included the following significant changes: it reduced
                                                                                                                   the federal role in terrorism risk insurance markets by increasing insurer deductibles
                                                                                                                   and excluding certain types of previously covered insurance. The Extension Act also
                                                                                                                   reduced the U.S. Government's share of insured losses and added a "Program Trigger"
                                                                                                                   provision which precludes federal payments unless insured losses from a certified act of
                                                                                                                   terrorism exceed $ 100 million.

                                                                                                                   On December 26, 2007, the Terrorism Risk Insurance Program Reauthorization Act of
                                                                                                                   2007 (Reauthorization Act) was enacted extending the Program through December 31,
                                                                                                                   2014. The Reauthorization Act, among other Program changes, revised the definition
                                                                                                                   of "Act of Terrorism" to remove the certification requirement that the act be committed
                                                                                                                   by an individual acting on behalf of a foreign person or foreign interest; revised the
                                                                                                                   provisions of the Act with regard to the cap on annual liability for insured losses of $100
                                                                                                                   billion; and established deadlines by which recoupment of federal payments made
                                                                                                                   under the Program would have to be accomplished.

2                  Provide the nature of the isurance contingencies.                                               In September 2008, the Department issued two notices of proposed rulemaking with
                                                                                                                   requests for comment. One proposed rule incorporated and clarified statutory
                                                                                                                   requirements of the Reauthorization Act for capping the annual liability for insured
                                                                                                                   losses at $100 billion. The proposed rule described how the Department will determine
                                                                                                                   the pro rata share of insured losses to be paid by each insurer that incurs losses under
                                                                                                                   the Program when insured losses would otherwise exceed the cap and how the Federal
                                                                                                                   share of compensation will be calculated. The Department issued a final rule on
                                                                                                                   December 14, 2009.

                                                                                                                   The other proposed rule set forth the requirements for recoupment of the Federal share
                                                                                                                   of compensation for insured losses. The rule described how the Department will
                                                                                                                   determine the amounts to be recouped and the requirements for insurers to collect,


                                                                                                    - 75 -
                                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                         Agency Notes:       Note 31

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      report, and remit surcharges to the Department. The Department issued a final rule on
                                                                                                                      December 14, 2009. There were no claims under TRIA as of September 30, 2010 or
                                                                                                                      September 30, 2009.

                                                                                                                      On August 3, 2010, the Department issued a notice of proposed rulemaking with
                                                                                                                      requests for comment. The intent of this rule is to provide a process by which the
                                                                                                                      Department would close out its claims operation for insured losses from a Program
                                                                                                                      Year. The Department expects to issue a final rule incorporating public comments early
                                                                                                                      in fiscal year 2011.

3                  Provide the nature of the litigation contingencies, including the range of loss for probable       The Department is a party in various administrative proceedings, legal actions, and
                   liabilities.                                                                                       claims, including equal opportunity matters which may ultimately result in settlements or
                                                                                                                      decisions adverse to the U.S. Government. These contingent liabilities arise in the
                                                                                                                      normal course of operations and their ultimate disposition is unknown. The Department
                                                                                                                      has disclosed contingent liabilities where the conditions for liability recognition have not
                                                                                                                      been met and the likelihood of unfavorable outcome is more than remote. The
                                                                                                                      Department does not accrue for possible losses related to cases where the potential
                                                                                                                      loss cannot be estimated or the likelihood of an unfavorable outcome is less than
                                                                                                                      probable.

                                                                                                                      In some cases, a portion of any loss that may occur may be paid by the Department's
                                                                                                                      Judgment Fund, which is separate from the operating resources of the Department. For
                                                                                                                      cases related to the Contract Disputes Act of 1978 and awards under federal anti-
                                                                                                                      discrimination and whistle-blower protection acts, the Department must reimburse the
                                                                                                                      Judgment Fund from future appropriations.

                                                                                                                      The Department has one contingent liability in fiscal year 2010 related to legal action
                                                                                                                      taken in the case American Council of the Blind and Others where losses are
                                                                                                                      determined to be probable and amount of loss cannot be estimated. In the opinion of
                                                                                                                      the Department's management and legal counsel, based on information currently
                                                                                                                      available, the expected outcome of other legal actions, individually or in the aggregate,
                                                                                                                      will not have a materially adverse effect on the Department's financial statements,
                                                                                                                      except for the pending legal actions described below which may have a materially
                                                                                                                      adverse impact on the financial statements depending on the outcomes of the cases.

                                                                                                                      American Council of the Blind and Others, et. al. v. Paulson: Plaintiffs have filed suit
                                                                                                                      against the Department under Section 504 of the Rehabilitation Act seeking the
                                                                                                                      redesign of U.S. currency. In 2007, a U.S. District Court judge ruled that the current
                                                                                                                      U.S. currency design violates this Act; this ruling was subsequently appealed. In 2008,
                                                                                                                      the United States Court of Appeals for the District of Columbia Circuit affirmed the
                                                                                                                      District Court's ruling. No monetary damages were awarded by the Court but the
                                                                                                                      Department was ordered to provide meaningful access to United States currency for
                                                                                                                      blind and other visually impaired persons. This may require changes to U.S. currency
                                                                                                                      (excluding the one-dollar note.) The Court ordered such changes to be completed in
                                                                                                                      connection with each denomination of currency, not later than the date when a redesign


                                                                                                             - 76 -
                                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                               Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       Note 31

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
                                                                                                                     is next approved by the Secretary of the Treasury. Because the cost of implementing
                                                                                                                     these changes will be incorporated into future currency redesign costs, and cannot be
                                                                                                                     estimated at this time, no redesign costs have been accrued in the accompanying
                                                                                                                     financial statements as of September 30, 2010 and September 30, 2009.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably
                   possible contingencies.                                                                           See 3 above
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.        Amidax Trading Group v. S.W.I.F.T.: Plaintiffs allege that the Department's Terrorist
                   Also, provide a statement on whether this materiality affects the financial statements.           Finance Tracking Program has involved unlawful disclosure of information by the
                                                                                                                     Society for Worldwide Interbank Financial Telecommunications (S.W.I.F.T.).
                                                                                                                     Defendants include the Department of the Treasury as well as several Treasury
                                                                                                                     officials. The case was dismissed by the District Court on February 13, 2009, and the
                                                                                                                     plaintiff has subsequently appealed that ruling to the Court of Appeals for the Second
                                                                                                                     Circuit. The parties have completed the appellate briefing, and the oral argument
                                                                                                                     occurred on July 14, 2010. The Department is unable to determine the likelihood of an
                                                                                                                     unfavorable outcome or an estimate of potential loss at this time.
                                                                                                                     James X. Bormes v. United States of America: The complaint alleges that the
                                                                                                                     Government willfully violated certain provisions of the Fair and Accurate Credit
                                                                                                                     Transaction Act (FACTA) P.L. 108-159. The transaction confirmation received by the
                                                                                                                     complainant from Pay.gov included the expiration date of the credit card used for that
                                                                                                                     transaction. The complaint does not state the amount of damages sought on behalf of
                                                                                                                     the class beyond asserting that each class member would be entitled to $100 to $1,000
                                                                                                                     in statutory damages. In a letter sent to the Department of Justice, the plaintiff proposed
                                                                                                                     a fund of $30 million for just the Illinois class members.

                                                                                                                     Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans allege
                                                                                                                     that the Department of Interior and the Department of the Treasury have breached trust
                                                                                                                     obligations with respect to the management of the plaintiffs¿ individual Indian monies.
                                                                                                                     On August 7, 2008, the Federal District Court issued an opinion awarding $455 million
                                                                                                                     to the plaintiffs. This decision was overturned on appeal in July 2009. The Appellate
                                                                                                                     Court found that the government owes a cost-effective accounting, in scale with
                                                                                                                     available funds.

                                                                                                                     On December 8, 2009, a settlement was announced between the parties related to the
                                                                                                                     claims raised in this lawsuit, as well as other claims for the mismanagement of assets
                                                                                                                     and land. The settlement is contingent on the passage of new legislation to authorize
                                                                                                                     the settlement terms and court approval. If the court approves the settlement after
                                                                                                                     notice to the class, the government will pay $1.4 billion from the Judgment Fund to
                                                                                                                     settle the claims for an historical accounting and for mismanagement of assets and
                                                                                                                     land. The Government will also make available an additional sum of $2.0 billion from
                                                                                                                     the Judgment Fund to purchase numerous small interests in land from Native
                                                                                                                     Americans, as well as for other purposes. It has not been determined which federal
                                                                                                                     agency will be assigned responsibility for the payment through the Judgment Fund. The
                                                                                                                     Department is unable to determine the likelihood of an unfavorable outcome or an
                                                                                                                     estimate of potential loss at this time. The case was appealed to the U.S. Supreme
                                                                                                                     Court however, the appeal was denied in June 2010. Legislation authorizing settlement


                                                                                                            - 77 -
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                             Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:       Note 31

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
                                                                                                                    is pending in Congress.

                                                                                                                    Tribal Trust Fund Cases: Numerous cases have been filed in U.S. District Courts in
                                                                                                                    which Native American Tribes seek a declaration that the U.S. has not provided the
                                                                                                                    tribes with a full and complete accounting of their trust funds, and seek an order
                                                                                                                    requiring the government to provide such an accounting. In addition, there are a
                                                                                                                    number of other related cases seeking damages in the United States Court of Federal
                                                                                                                    Claims which do not name the Department as a defendant. The Department is unable
                                                                                                                    to determine the likelihood of an unfavorable outcome or an estimate of potential loss at
                                                                                                                    this time.


6                  Describe the other claims that may derive from treaties or international agreements.             The Department does not have any treaties or international agreements to report for
                                                                                                                    fiscal year 2010.


7                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.                                     N/A




                                                                                                           - 78 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                  Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                   Agency Notes:         22, 31, 25

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Capital leases-Asset                                                                   Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                           Decimal: Zero
Line Status Line Description           NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building              Debit
 2              Land                  Debit
 3              Equipment             Debit                                                         4                                                    22
 4              Software license      Debit                                                         2                                                     3
 5              Other                 Debit
 6              Accumulated           Credit                                                        2                                                    23
                depreciation/amorti
                zation
 7              Net assets under       N/A                                                          4                                                     2
                capital leases
Threshold
 Line Description                                                  Question                                                          Answer
 Other Notes Info - Equipment (CY Non-Federal)                     Please provide explanations for any amounts that have
                                                                   changed by 10 percent or more between the                         The variance is not material to the Department's financial statements.
                                                                   current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Software license (CY Non-Federal)              Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
                                                                   changed by 10 percent or more between the
                                                                   current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Accumulated depreciation/amortization          Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 (CY Non-Federal)                                                  changed by 10 percent or more between the
                                                                   current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY            Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 Non-Federal)                                                      changed by 10 percent or more between the
                                                                   current fiscal year and prior fiscal year. (unaudited)




                                                                                                            - 79 -
                                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19             Commitments                                                                                                       Fiscal Year: 2010                   Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                        Agency Notes:          22, 31, 25

  Status: Complete                              The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: B               Section Name: Capital leases - Liability                                                                Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal          PY Non-Federal
 1              Future minimum         Credit                                                        0                                                         1
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A                                                          0                                                        -1
                liability


       Section: C               Section Name: Commitments: Operating leases and undelivered                                             Line Attributes: Dollars
                                              orders                                                                                  Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal         PY Non-Federal
 1              Operating leases       Credit                           279                       263                          247                           323
 2            Undelivered orders Credit                            24,501                     144,804                        29,214                  156,427
Threshold
 Line Description                                                   Question                                                             Answer
 Other Notes Info - Operating leases (CY Non-Federal)               Please provide explanations for any amounts that have
                                                                    changed by 10% or more and or greater than $500,000                  Additional space due to new programs.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (unaudited)
 Other Notes Info - Operating leases (CY Federal)                   Please provide explanations for any amounts that have                The variance is not material to the Department's financial statements.
                                                                    changed by 10% or more and or greater than $500,000
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (unaudited)
 Other Notes Info - Undelivered orders (CY Federal)                 Please provide explanations for any amounts that have                The variance is not material to the Department's financial statements.
                                                                    changed by 10% or more and or greater than $500,000
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (unaudited)




                                                                                                             - 80 -
                                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 19           Commitments                                                                                                          Fiscal Year: 2010                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                          Agency Notes:      22, 31, 25

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: D             Section Name: Other Commitments                                                                           Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB               CY Federal                 CY Non-Federal                      PY Federal          PY Non-Federal
 1              Callable capital  Credit                                                      63,864                                                   62,254
                subscriptions for
                multilateral
                development banks
 9              Senior GSE        Credit                                                                                                              289,400
                Preferred Stock
                Purchase
                Agreement
10                                Credit
11                                  Credit
12                                  Credit
13                                  Credit
14                                  Credit
15          Total                    N/A                                                     -63,864                                                 -351,654
Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the lessee's leasing arrangements including the basis on which contingent rental             The Department's significant leases are operating leases with GSA for office space
                     payments are determined, the existence and terms of renewal or purchase options,                      which can be cancelled upon notice.
                     escalation clauses and restrictions imposed by lease agreement.
 2                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        The Treasury Department has subscribed to capital for certain MDB, portions of which
                     the significant accounting policies pertaining to this note.                                          are callable under certain limited circumstances to meet the obligations of the
                                                                                                                           respective MDB. There has never been, nor is there anticipated, a call on the Treasury
                                                                                                                           Department¿s commitment for these subscriptions.




                                                                                                            - 81 -
                                                                                                                                                                                              11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

      Note: 20             Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                     Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                   Agency Notes:        1&8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2010 - SEPTEMBER     2009 - SEPTEMBER
                                                                                    Type
TARP Direct Loans and Equity Investments                                     D        A                 144,692                  239,657
                                                                                 Variance:                    0                        0          Rounding Method: Millions              Decimal: Zero
Line Status Line Description                 CY Direct Loans and              CY Subsidy Cost CY Net Dir Loans & Equity           PY Direct Loans and              PY Subsidy Cost     PY Net Dir Loans & Equity
                                          Equity Investments                   Allowance                      Invs             Equity Investments                   Allowance                          Invs
 1               Capital Purchase                          49,779                        1,546                   48,233                        133,901                      -7,770                      141,671
                 Program
 2               American International                      47,543                      21,405                    26,138                        43,206                       30,054                     13,152
                 Group, Inc.,
                 Investment Program
 3               Targeted Investment                              0                           -1                           1                     40,000                        -341                      40,341
                 Program
 4               Automotive Industry                         67,238                      14,529                    52,709                        73,762                       31,478                     42,284
                 Financing Program
 5               Consumer and                                   908                          -58                         966                        100                        -344                         444
                 Business Lending
                 Initiative
 6               Public-private                              13,729                        -676                    14,405                                0                        0                           0
                 investment Program
 7               Asset Guarantee                              2,240                            0                    2,240                         1,765                           0                       1,765
                 Program
  8
  9
 10          All other TARP
             programs
             Total                                          181,437                      36,745                   144,692                       292,734                       53,077                     239,657
Threshold

 Line Description                                                Question                                                            Answer




                                                                                                      - 82 -
                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 20           Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                              Fiscal Year: 2010                 Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                            Agency Notes:      1&8

 Status: Complete                       The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                            Question                                                     Answer
Line Item Notes - Capital Purchase Program (CY Direct       Please provide explanations for any amounts that have        The following table provides key data points related to the Capital Purchase
Loans and Equity Investments)                               changed by 10% or more and or greater than 500,000 between   Program (CPP). In addition, 106 and 38 Qualified Financial Institution (QFIs)
                                                            the current fiscal year and prior fiscal year. (Unaudited)   have not declared and paid one or more dividends to the Department under
                                                                                                                         CPP as of September 30, 2010 and 2009, respectively (dollars in millions):
                                                                                                                         2010 /2009
                                                                                                                         Number of Institutions Participating 707/ 685
                                                                                                                         Beginning Balance, Investment in CPP Institutions $ 133,901 /$ 0
                                                                                                                         Purchase Price, current year Investments 278 /204,619
                                                                                                                         Repayments and Sales of Investments (81,462) /(70,718)
                                                                                                                         Write-offs and Losses (2,575)/ 0
                                                                                                                         Transfers to CDCI (363)/ 0
                                                                                                                         Outstanding Balance, Investment in CPP Institutions $ 49,779/ $ 133,901

                                                                                                                         Interest and Dividend Collections $ 3,100/ $ 6,800
                                                                                                                         Net Proceeds from Sales and Repurchases of Assets in Excess of Cost $
                                                                                                                         6,700/ $ 2,900

Line Item Notes - Capital Purchase Program (CY Subsidy      Please provide explanations for any amounts that have        Descriptons of the reestimates with approximate amounts.
Cost Allowance)                                             changed by 10% or more and or greater than 500,000 between
                                                            the current fiscal year and prior fiscal year. (Unaudited)   The net upward reestimate for the CPP of $3,900 million for the fiscal year
                                                                                                                         ending September 30, 2010 is the net result of a decrease in the price of
                                                                                                                         Citigroup common stock that was partially offset by an increase in the
                                                                                                                         estimated value of the other investments within the CPP, due to improved
                                                                                                                         market conditions during the year.

                                                                                                                         The $70,700 million in repurchases during the fiscal year ending September
                                                                                                                         30, 2009 accounted for $9,700 million of the $72,400 million in downward
                                                                                                                         reestimates in the CPP for the fiscal year ending September 30, 2009.
                                                                                                                         Projected repurchases of $30,000 million for fiscal year 2010 accounted for
                                                                                                                         approximately $5,400 million, with the $57,300 million balance in downward
                                                                                                                         reestimates in the CPP for the fiscal year ending September 30, 2009
                                                                                                                         primarily due to improved market conditions from when the original estimate
                                                                                                                         was made in December 2008.




                                                                                                  - 83 -
                                                                                                                                                                                      11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                               Fiscal Year: 2010                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                             Agency Notes:      1&8

 Status: Complete                         The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                              Question                                                     Answer
Line Item Notes - American International Group, Inc.,         Please provide explanations for any amounts that have        Descriptons of the reestimates with approximate amounts.
Investment Program (CY Subsidy Cost Allowance)                changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)   The $12,000 million in downward reestimates for the AIG Investment
                                                                                                                           Program for the fiscal year ending September 30, 2010 are due to an
                                                                                                                           increase in the estimated value of AIG assets and subordinated debt and
                                                                                                                           improvements in market conditions over the fiscal year.

                                                                                                                           The $1,100 million in downward reestimates for the AIG Investment
                                                                                                                           Program in the fiscal year ending September 30, 2009 was primarily due to
                                                                                                                           improvements in market conditions from when the equities were purchased
                                                                                                                           resulting in a reduction in the projected costs of the programs.
Line Item Notes - Automotive Industry Financing Program       Please provide explanations for any amounts that have        Descriptons of the reestimates with approximate amounts.
(CY Subsidy Cost Allowance)                                   changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)   The $19,300 million in downward reestimates for the AIFP direct loan and
                                                                                                                           equity investments for the fiscal year ending September 30, 2010 was due
                                                                                                                           to $1,800 million in payments exceeding projections, a reduction in
                                                                                                                           estimated defaults due to improvements in the domestic automotive
                                                                                                                           industry, and an increase in the bond prices and valuations used to estimate
                                                                                                                           the cost of the remaining AIFP investments.

                                                                                                                           The approximately $10,600 million in downward reestimates for the direct
                                                                                                                           loans-AIFP in the fiscal year ending September 30, 2009 was primarily the
                                                                                                                           result of the post bankruptcy improved financial position of one of the major
                                                                                                                           companies participating in the program. The $2,700 million in downward
                                                                                                                           reestimates for the AIFP equity programs in the fiscal year ending
                                                                                                                           September 30, 2009 were primarily due to improvements in market
                                                                                                                           conditions from when the equities were purchased resulting in a reduction in
                                                                                                                           the
                                                                                                                           projected costs of the programs.
Line Item Notes - Consumer and Business Lending Initiative    Please provide explanations for any amounts that have        The Consumer and Business Lending Initiative (CBLI) is intended to help
(CY Direct Loans and Equity Investments)                      changed by 10% or more and or greater than 500,000 between   unlock the flow of credit to consumers and small businesses. Three
                                                              the current fiscal year and prior fiscal year. (Unaudited)   programs were established to help accomplish this. The Term Asset-
                                                                                                                           Backed Securities Loan Facility was created to help jump start the market
                                                                                                                           for securitized consumer and small business loans. The SBA 7(a) Securities
                                                                                                                           Purchase Program was created to provide additional liquidity to the SBA
                                                                                                                           7(a) market so that banks are able to make more small business loans. The
                                                                                                                           Community Development Capital Initiative was created to provide additional
                                                                                                                           low cost capital to small banks to encourage more lending to small
                                                                                                                           businesses.

                                                                                                                           Two new programs had activity under CBLI in fiscal year 2010, the SBA 7(a)
                                                                                                                           Security Purchase Program and the Community Development Capital
                                                                                                                           Initiative. See the Department Note 8 for further information.


                                                                                                    - 84 -
                                                                                                                                                                                         11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 20           Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                               Fiscal Year: 2010                   Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                             Agency Notes:       1&8

 Status: Complete                        The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                             Question                                                      Answer
Line Item Notes - Public-private investment Program (CY      Please provide explanations for any amounts that have        As of September 30, 2010, the Department had signed definitive limited
Direct Loans and Equity Investments)                         changed by 10% or more and or greater than 500,000 between   partnership and loan agreements with eight investment managers,
                                                             the current fiscal year and prior fiscal year. (Unaudited)   committing to disburse up to $22,100 million. During fiscal year 2010, the
                                                                                                                          Department disbursed $4,900 million as equity investment and $9,200
                                                                                                                          million as loans to PPIFs. As of September 30, 2009, no investment
                                                                                                                          managers had made any investments under PPIP and the Department had
                                                                                                                          not disbursed any funds. During fiscal year 2010, the Department received
                                                                                                                          (excluding amounts repaid in liquidation discussed above) $56.0 million in
                                                                                                                          interest on loans and $151.8 million (net of management fees of $7.2
                                                                                                                          million) of income on the equity investments. In addition, the Department
                                                                                                                          received $72.0 million in loan principal repayments.
Line Item Notes - Asset Guarantee Program (CY Direct         Please provide explanations for any amounts that have        The net present value of the future cash flows for the Asset Guarantee
Loans and Equity Investments)                                changed by 10% or more and or greater than 500,000 between   Program consists of (i) $800 million of Citigroup trust preferred securities,
                                                             the current fiscal year and prior fiscal year. (Unaudited)   plus dividends thereon, that the FDIC agreed to transfer to the Department
                                                                                                                          contingent on Citigroup repaying previously issued FDIC guaranteed debt
                                                                                                                          and (ii) additional Citigroup trust preferred securities valued at $2,240, for a
                                                                                                                          total of $3,055.

                                                                                                                          Description of reestimates with approximate amounts.

                                                                                                                          The AGP had a net $100 million downward reestimate for the fiscal year
                                                                                                                          ended September 30, 2010. The reestimate amounts exclude an estimated
                                                                                                                          cost savings of $1,400 million that resulted from the cancellation of the
                                                                                                                          $5,000 million guarantee because this transaction was reflected in the
                                                                                                                          subsidy modifications during fiscal year 2010. The $1,200 million in
                                                                                                                          downward reestimates for the AGP in the fiscal year ending September 30,
                                                                                                                          2009 was primarily due to improvements in market conditions from when the
                                                                                                                          guarantee was committed in January 2009. The improved market conditions
                                                                                                                          resulted in an increase in the projected AGP asset due to the net present
                                                                                                                          value of the estimated cash inflows from the preferred stock and warrants
                                                                                                                          received by the Department from Citigroup as a premium being greater than
                                                                                                                          the estimated value of future claim payments associated with the $5,000
                                                                                                                          million asset guarantee.




                                                                                                   - 85 -
                                                                                                                                                                                11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                   Fiscal Year: 2010          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:        1&8

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                 Decimal: Zero
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Capital Purchase      Debit                       3,861                    -15,033                                           -15,033
                Program
 2              American              Debit                      -7,668                     30,427                                             30,427
                International
                Group, Inc.,
                Investment
                Program
 3              Targeted              Debit                      -1,879                     -1,927                                             -1,927
                Investment
                Program
 4              Automotive            Debit                     -16,614                     30,477                                             30,477
                Industry Financing
                Program
 5              Consumer and          Debit                         306                      -339                                               -339
                Business Lending
                Initiative
 6              Public-private        Debit                       -704                           0                                                   0
                investment
                Program
 7              Asset Guarantee       Debit                      -1,505                     -2,201                                             -2,201
                Program
 8                                    Debit
 9                                    Debit
10              All other TARP        Debit
                programs
11              Total                  N/A                      -24,203                     41,404                                             41,404




                                                                                                        - 86 -
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 20         Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                        Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                      Agency Notes:      1&8

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Investments in Troubled Asset Relief Program (TARP)
                 the significant accounting policies pertaining to this note.
                                                                                                                  Troubled Asset Relief Program (TARP) equity investments, including investments in
                                                                                                                  preferred and common stock and warrants of public companies, are accounted for
                                                                                                                  pursuant to the provisions of the Federal Credit Reform Act (FCRA) and the associated
                                                                                                                  FASAB accounting standard SFAS No. 2, Accounting for Direct Loans and Loan
                                                                                                                  Guarantees, as amended. As additional consideration for investments made, the
                                                                                                                  Department received common stock warrants, additional preferred shares (referred to
                                                                                                                  as warrant preferred shares) or additional notes. The Department considered market
                                                                                                                  risk in its calculation and determination of the estimated net present value of its direct
                                                                                                                  loans, equity investments and asset guarantee program for budgetary purposes.
                                                                                                                  Similarly, market risk is considered in the valuations for financial reporting purposes
                                                                                                                  (see Note 8 for further discussion). The Department concluded that GAP accounting for
                                                                                                                  such investments using the concepts embedded in SFAS No. 2 was appropriate
                                                                                                                  analogous accounting guidance based on the similarity between the equity investments
                                                                                                                  made by the Department and direct loans. Consequently, TAR P equity investments,
                                                                                                                  including investments in preferred and common stock and warrants of public
                                                                                                                  companies, are accounted for by the Department using credit reform accounting in
                                                                                                                  accordance with SFAS No. 2, and reported in accordance with FCRA in these financial
                                                                                                                  statements. In addition, the inclusion of market risk required by the Emergency
                                                                                                                  Economic Stabilization Act (EESA) in the valuation calculation results in accounting for
                                                                                                                  these investments at estimated fair value, which is consistent with the accounting for
                                                                                                                  other equity investments held by the Department (i.e. investments in GSEs).

                                                                                                                  The Department recognizes dividend revenue associated with equity investments when
                                                                                                                  declared by the entity in which the Department has invested and when received in
                                                                                                                  relation to any repurchases and restructuring. The Department reflects changes in the
                                                                                                                  fair value of direct loans, equity investments, and asset guarantees in the subsidy cost
                                                                                                                  on the Statement of Net Cost annually, as required by FCRA. The estimated values
                                                                                                                  associated with these additional instruments are disclosed in Note 8.




                                                                                                         - 87 -
                                                                                                                                                                                              11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 21            Beneficial Interest in Trust                                                                                 Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                  Agency Notes:      29

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                   Type
Beneficial Interest in Trust                                                D        A                    20,805                 23,472
                                                                                Variance:                      0                      0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER            2009 - SEPTEMBER               Previously Rptd          Line Item Changes
 1            Beneficial Interest in                        20,805                      23,472                                                 23,472
              Trust
              Total                                          20,805                     23,472                                                 23,472
Threshold

 Line Description                                                Question                                                           Answer
 Line Item Notes - Beneficial Interest in Trust (2010 -          Please provide explanations for any amounts that have             As the U.S. Government is the sole beneficiary of the trust, and as it is
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between        anticipated that the U.S. Government will ultimately realize an economic
                                                                 the current fiscal year and prior fiscal year. (Unaudited)        benefit from its beneficial interest in the trust, the Department recorded a
                                                                                                                                   non-entity asset of $23,472 million as of September 30, 2009, and
                                                                                                                                   corresponding custodial revenue for the same amount. The value recorded
                                                                                                                                   was based on the market value of the trust's AIG holdings at September 30,
                                                                                                                                   2009; as the underlying AIG common stock is actively traded on the New
                                                                                                                                   York Stock Exchange, this represents the best independent valuation
                                                                                                                                   available for the government's beneficial interest. As of September 30,
                                                                                                                                   2010, the underlying market value of the trust's AIG holdings had declined
                                                                                                                                   by approximately $2,666 million. The carrying value of the beneficial
                                                                                                                                   interest in the trust was reduced by this amount, and a corresponding
                                                                                                                                   expense recorded on the Statement of Custodial Activity.




                                                                                                       - 88 -
                                                                                                                                                                      11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 21             Beneficial Interest in Trust                                                                        Fiscal Year: 2010       Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                          Agency Notes:     29

  Status: Complete                            The accompanying notes are an integral part of these financial statements.   I = Inactive Line


       Section: A               Section Name: Beneficial Interest in Trust                                                 Line Attributes: Percent


Line Status Line Description            NB      2010 - SEPTEMBER
 1              Percent of equity      N/A                     77.9000
                interest in AIG
                under initial terms
 2              Percent of equity      N/A                     79.8000
                interest in AIG
                subsequent




                                                                                                        - 89 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 21         Beneficial Interest in Trust                                                                                     Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       29

 Status: Complete                       The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Under the initial terms of the credit facility agreement with AIG and the Federal Reserve
                 the significant accounting policies pertaining to this note.                                     Bank of New York (FRBNY), a 77.9 percent equity interest in AIG (in the form of Series
                                                                                                                  C Convertible Participating Serial Preferred Stock convertible into approximately 77.9
                                                                                                                  percent of the issued and outstanding shares of common stock) was issued to a trust
                                                                                                                  established by the FRBNY. Subsequent to the initial agreement, a reverse stock split of
                                                                                                                  AIG's common stock increased this to 79.8 percent. The U.S. Government is the sole
                                                                                                                  beneficiary of that trust, so that when the stock is ultimately liquidated the proceeds will
                                                                                                                  be deposited into the General Fund of the U.S. Government. The U.S. Government will
                                                                                                                  be the ultimate recipient of any dividends on the stock and any proceeds from the
                                                                                                                  liquidation of the stock. The accounting and reporting for any activities related to the
                                                                                                                  government's beneficial interest in the stock held by the trust is done by the
                                                                                                                  Department. The trustees of the trust are independent of both the Department and the
                                                                                                                  FRBNY, and are not involved in day-to-day management of AIG.

                                                                                                                  As the U.S. Government is the sole beneficiary of the trust, and as it is anticipated that
                                                                                                                  the U.S. Government will ultimately realize an economic benefit from its beneficial
                                                                                                                  interest in the trust, the Department recorded a non-entity asset of $23,472 million as
                                                                                                                  of September 30, 2009, and corresponding custodial revenue for the same amount. The
                                                                                                                  value recorded was based on the market value of the trust's AIG holdings at September
                                                                                                                  30, 2009; as the underlying AIG common stock is actively traded on the New York
                                                                                                                  Stock Exchange, this represents the best independent valuation available for the
                                                                                                                  government's beneficial interest. As of September 30, 2010, the underlying market
                                                                                                                  value of the trust's AIG holdings had declined by approximately $2,666 million. The
                                                                                                                  carrying value of the beneficial interest in the trust was reduced by this amount, and a
                                                                                                                  corresponding expense recorded on the Statement of Custodial Activity.

                                                                                                                  Under the terms of the existing trust agreement, the U.S. Government's proceeds will
                                                                                                                  be received when AIG's credit line with the FRBNY is terminated, AIG has redeemed
                                                                                                                  the preferred stock owned by the Department through TARP, and the trustees sell the
                                                                                                                  stock held by the trust. The Department will re-value its beneficial interest in the trust
                                                                                                                  each year until the trust is liquidated. Like any asset, future events may increase or
                                                                                                                  decrease the value of the U.S. Government's interest in the trust.




                                                                                                         - 90 -
                                                                                                                                                                                        11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2010            Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:          27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                                                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with             Inv in U. S. Treas.   Interest Receivable D Other Federal assets (with     Other Federal assets
                                                monetary assets D                  Treasury D         Sec.(net of prem. & disc)                              earmarked funds) D       (with non-earmarked
                                                                                                                             D                                                                   funds) D
13              Exchange              N/A                      70,878                             0                    20,436                            111                    0                        0
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                          12                        859                         6,727                            36                    0                       10
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      70,890                        859                       27,163                            147                    0                       10

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      12,505                    103,930
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       1,415                      9,059
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      13,920                    112,989




                                                                                                         - 91 -
                                                                                                                                                                                         11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                 Fiscal Year: 2010            Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                      Agency Notes:          27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                                                     Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with         Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with     Other Federal assets
                                                monetary assets D                  Treasury D         (net of prem. & disc.) D                                earmarked funds) D       (with non-earmarked
                                                                                                                                                                                                  funds) D
13              Exchange              N/A                      71,662                             0                     19,816                            129                    0                        0
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                          18                        885                         5,919                              0                    0                       12
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      71,680                        885                        25,735                            129                    0                       12

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      13,408                    105,015
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       1,312                      8,146
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      14,720                    113,161




                                                                                                        - 92 -
                                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                    Fiscal Year: 2010           Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                         Agency Notes:       27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year                                                Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           Benefits due and          Other Federal liabilities Other Fed. liabilities (with      Other non-Federal           Total liabilities        Ending net position C
                                                        payable C            (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                     C
13              Exchange              N/A                                0                         0                            0                      60,185                 -60,185                        43,745
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                0                         5                          294                      10,879                 -11,178                        -2,119
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                0                        -5                         -294                    -71,064                  -71,363                      -41,626

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -103,930
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       -9,059
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -112,989




                                                                                                            - 93 -
                                                                                                                                                                                                 11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                    Fiscal Year: 2010           Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                         Agency Notes:       27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Prior Year                                                  Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           Benefits due and          Other Federal liabilities Other Fed. liabilities (with      Other non-Federal           Total liabilities        Ending net position C
                                                        payable C            (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                     C
13              Exchange              N/A                                0                         0                            0                      61,168                 -61,168                        43,847
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                0                         4                          228                       9,908                 -10,140                        -1,994
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                0                        -4                         -228                    -71,076                  -71,308                      -41,853

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -105,015
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       -8,146
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -113,161




                                                                                                            - 94 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2010                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                Agency Notes:      27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current      No Data Flag: YES          Line Attributes: Dollars
                                             Year                                                                            Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue C   Individual income taxes Unemployment and excise       Other taxes and receipts
                                             beginning of period C                            C                             and payroll tax withhold               taxes C                              C
                                                                                                                                                  C
13      I       Exchange              N/A
                Stabilization Fund
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A

Line Status Line Description          NB      Miscellaneous earned            Intragovernmental Program net cost - public        Program net cost -        Non-program expenses       Net position, end of
                                                        revenue C               transfers, net C                        D     Intragovernmental D                             D                   period
13      I       Exchange              N/A
                Stabilization Fund
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A




                                                                                                      - 95 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2010                    Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:          27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Current                                      Line Attributes: Dollars
                                             Year                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB              Net position,       Prior-period adjustment   Investment revenue from      Individual income taxes Unemployment and excise           Other taxes and receipts
                                             beginning of period C                              C     Treasury Securities C      and payroll tax withhold               taxes C                                  C
                                                                                                                                                       C
13              Exchange              N/A                      43,847                          0                           19                             0                           0                        -19
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -1,994                          0                          154                             0                           0                      1,091
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -41,853                          0                         -173                             0                           0                     -1,072

Line Status Line Description          NB        Royalties and other            All other financing Program net cost - public          Program net cost -            Non-program expenses       Net position, end of
                                                special revenue C                     sources C                            D       Intragovernmental D                                 D                   period
13              Exchange              N/A                             0                       18                          101                             19                          0                    -43,745
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                             0                      -97                         1,010                           263                          0                      2,119
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                             0                       79                         1,111                           282                          0                    -41,626




                                                                                                       - 96 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2010                    Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:          27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: G               Section Name: Revenue, Financing, Expenses, and Other - Prior                                        Line Attributes: Dollars
                                             Year                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue from     Individual income taxes Unemployment and excise           Other taxes and receipts
                                             beginning of period C                            C        Treasury Securities C     and payroll tax withhold               taxes C                                  C
                                                                                                                                                       C
13              Exchange              N/A                      39,818                            0                       5,146                            0                           0                          0
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -2,057                            0                        162                             0                           0                          0
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -37,761                            0                   -5,308                               0                           0                          0

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public           Program net cost -            Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D        Intragovernmental D                                 D                   period
13              Exchange              N/A                                                        0                       1,117                             0                          0                    -43,847
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       4,706                           94                       4,463                           436                                                 1,994
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      -4,706                          -94                       5,580                           436                          0                    -41,853




                                                                                                        - 97 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2010                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                Agency Notes:      27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: H               Section Name: Revenue, Financing, Expenses, and Other - Prior        No Data Flag: YES          Line Attributes: Dollars
                                             Year                                                                            Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue C   Individual income taxes Unemployment and excise       Other taxes and receipts
                                             beginning of period C                            C                             and payroll tax withhold               taxes C                              C
                                                                                                                                                  C
13      I       Exchange              N/A
                Stabilization Fund
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A

Line Status Line Description          NB      Miscellaneous earned            Intragovernmental Program net cost - public        Program net cost -        Non-program expenses       Net position, end of
                                                        revenue C               transfers, net C                        D     Intragovernmental D                             D                   period
13      I       Exchange              N/A
                Stabilization Fund
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A




                                                                                                      - 98 -
                                                                                                                                                                         11/19/2010 14:16:04

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 22           Earmarked Funds                                                                                         Fiscal Year: 2010        Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                              Agency Notes:       27

  Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: I            Section Name: Number of Agency Earmarked Funds                                                 Line Attributes: Units


Line Status Line Description        NB      2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd     Line Item Changes
 1              Total number of     N/A                    29.0000                     28.0000                    28.0000                   .0000
                earmarked funds




                                                                                                    - 99 -
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                  Fiscal Year: 2010                Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:      27

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a general description of the individual earmarked funds reported in the Other Notes       Exchange Stabilization Fund (ESF)
                   Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the       ESF
                   fund (SFFAS No. 27, par. 23.1).                                                                   ESF
                                                                                                                     20X4274
                                                                                                                     20X4444
                                                                                                                     ESF Money Market Guaranty Facility
                                                                                                                     Exchange Stabilization Fund

                                                                                                                     D.C. Pensions
                                                                                                                     DCP 20X1713 Federal payment - D.C. Judicial Retirement
                                                                                                                     DCP 20X1714 Federal payment - D.C. Federal Pension Fund
                                                                                                                     DCP 20X5511 D.C. Federal Pension Fund
                                                                                                                     DCP 20X8212 D.C. Judicial Retirement and Survivor's Annuity Fund

                                                                                                                     Public Enterprise Revolving Funds
                                                                                                                     BEP 20X4502 Bureau of Engraving and Printing Fund
                                                                                                                     MNT 20X4159 Public Enterprise Revolving Fund
                                                                                                                     OCC 20X8413 Assessment Funds
                                                                                                                     OTS 20X4108 Public Enterprise Revolving Fund
                                                                                                                     IRS 20X4413 Federal Tax Lien Revolving Fund

                                                                                                                     Other Earmarked Funds
                                                                                                                     BPD 20X5080 Gifts to Reduce Public Debt
                                                                                                                     DO 20X5407 Sallie Mae Assessments
                                                                                                                     DO 20X5590 Financial Research Fund
                                                                                                                     DO 20X5816 Confiscated and Vested Iraqi Property and Assets
                                                                                                                     DO 20X8790 Gifts and Bequests Trust Fund
                                                                                                                     FMD 205445 Debt Collection
                                                                                                                     FMD 20X5081 Presidential Election Campaign
                                                                                                                     FMD 20X8902 Esther Cattell Schmitt Gift Fund
                                                                                                                     FMS 204/55445 Debt Collection Special Fund
                                                                                                                     FMS 205/65445 Debt Collection Special Fund
                                                                                                                     FMS 206/75445 Debt Collection Special Fund
                                                                                                                     FMS 207/85445 Debt Collection Special Fund
                                                                                                                     FMS 208/95445 Debt Collection Special Fund
                                                                                                                     FMS 209/05445 Debt Collection Special Fund
                                                                                                                     FMS 200/15445 Debt Collection Special Fund
                                                                                                                     IRS 20X5510 Private Collection Agency Program
                                                                                                                     IRR 20X5433 Informant Reimbursement
                                                                                                                     TFF 20X5697 Treasury Forfeiture Fund

2                  State the legal authority for the administrative entity of each fund to use the revenues and      P.L. 95-147 and P.L. 94-564
                   other financing sources based on SFFAS No. 27, par. 23.1                                          The Department's four non-appropriated bureaus, Mint, BEP, OCC, and OTS, operate
                                                                                                                     "public enterprise funds" that account for the revenue and expenses related to the
                                                                                                                     production and sale of numismatic products and circulating coinage (Mint), the currency


                                                                                                           - 100 -
                                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                   Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       27

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      printing activities (BEP), and support of oversight functions of banking (OCC) and thrift
                                                                                                                      operations (OTS). 31 USC § 5142 established the revolving fund for BEP to account for
                                                                                                                      revenue and expenses related to the currency printing activities. Public Law 104-52 (31
                                                                                                                      USC §5136) established the Public Enterprise Fund for the Mint to account for all
                                                                                                                      revenue and expenses related to the production and sale of numismatic products and
                                                                                                                      circulating coinage. Revenues and other financing sources at the Mint are mainly from
                                                                                                                      the sale of numismatic and bullion coins, and the sale of circulating coins to the Federal
                                                                                                                      Reserve Bank system. 12 USC § 481 established the Assessment Funds for OCC, and
                                                                                                                      12 U.S.C. § 1467 governs the collection and use of assessments and other funds by
                                                                                                                      OTS. Revenue and financing sources are from the bank examination and assessments
                                                                                                                      for the oversight of the national banks, savings associations, and savings and loan
                                                                                                                      holding companies. These non-appropriated funds do not directly contribute to the
                                                                                                                      inflows of resources to the government. There are minimal transactions with other
                                                                                                                      government agencies.
3                  Explain any change in legislation during or subsequent to the reporting period and before the
                   issuance of the financial statements that significantly change the purpose of the fund or that     N/A
                   redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
4                  Provide the sources of revenue and other financing for amounts reported in columns 3
                   through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).               See 2 above
5                  Provide any other relevant information pertaining to this note, including explanation for prior-   The Department has accounted for revenues and other financing sources for
                   period adjustments, if any. At a minimum, describe briefly the significant accounting policies     earmarked funds separately from other funds. Earmarked funds are financed by
                   pertaining to this note.                                                                           specifically identified revenues, often supplemented by other financing sources, which
                                                                                                                      remain available over time. These specifically identified revenues and other financing
                                                                                                                      sources are required by statute to be used for designated activities or purposes. SFFAS
                                                                                                                      No. 27, Identifying and Reporting Earmarked Funds, defines the following three criteria
                                                                                                                      for determining an earmarked fund: (1) A statute committing the Federal Government to
                                                                                                                      use specifically identified revenues and other financing sources not used in the current
                                                                                                                      period for future use to finance the designated activities, benefits, or purposes; (2)
                                                                                                                      Explicit authority for the earmarked fund to retain revenues and other financing sources
                                                                                                                      not used in the current period for future use to finance the designated activities,
                                                                                                                      benefits, or purposes; and (3) A requirement to account for and report on the receipt,
                                                                                                                      use, and retention of the revenues and other financing sources that distinguished the
                                                                                                                      earmarked fund from the Federal Government's general revenues.




                                                                                                            - 101 -
                                                                                                                                                                     11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 23         Statement of Social Insurance (a Principal Financial Statement)                                           Fiscal Year: 2010      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                               Agency Notes:    N/A

 Status: Complete                       The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                      No Data Flag: YES
Line             Question                                                                                         Answer
7                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                 the significant accounting policies pertaining to this note.




                                                                                                        - 102 -
                                                                                                                                                             11/19/2010 14:16:04

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

 Note: 24          Social Insurance                                                                                   Fiscal Year: 2010      Period: SEPTEMBER
Entity: 2000       Department of the Treasury                                                                         Agency Notes:    N/A

Status: Complete                      The accompanying notes are an integral part of these financial statements.   I = Inactive Line




                                                                                                - 103 -
                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                          Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:     N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-              No Data Flag: YES           Line Attributes: Units
                                            Unaudited
Line Status Line Description         NB      CY Beginning Balance                 CY Acquired                   CY Withdrawn   CY Ending Balance         PY Beginning Balance         PY Acquired

 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn Public     N/A
                Land
 6        I     Mission Land         N/A
 7              Water, Power, and    N/A
                Recreation
 8              Geographic           N/A
                Management Areas
 9              National Fish        N/A
                Hatcheries
10              Conservation         N/A
                Areas
11              National Marine      N/A
                Monuments
12              All other            N/A




                                                                                                      - 104 -
                                                                                                                                                                           11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 25          Stewardship Land                                                                                            Fiscal Year: 2010       Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                  Agency Notes:     N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: A            Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-                  No Data Flag: YES        Line Attributes: Units
                                           Unaudited
Line Status Line Description        NB              PY Withdrawn             PY Ending Balance
 1          Public Land             N/A
 2          National Forest         N/A
            System
 3          National Wildlife       N/A
            Refuge System
 4          National Park           N/A
            System
 5          Withdrawn Public        N/A
            Land
 6     I    Mission Land            N/A
 7          Water, Power, and       N/A
            Recreation
 8          Geographic              N/A
            Management Areas
 9          National Fish           N/A
            Hatcheries
10          Conservation            N/A
            Areas
11          National Marine         N/A
            Monuments
12          All other               N/A
Tab: Text Data                        No Data Flag: YES
 Line               Question                                                                                           Answer
 1                  Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                  Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                    agency (SFFAS No. 29, par. 40a).
 4                  Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                    No. 29, par. 40b).
 5                  Provide any other information relevant information pertaining to this note. At a minimum,
                    describe briefly the significant accounting policies pertaining to this note.




                                                                                                         - 105 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 26              Heritage Assets                                                                                         Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                              Agency Notes:      17

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A              Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES          Line Attributes: Units
                                             25d) - Unaudited
Line Status Line Description           NB     CY Physical units as of     CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                                the beginning of the                                            withdrawn        ending balance            beginning balance
                                                              year
 1                                     N/A
 2                                     N/A
 3                                     N/A
 4                                     N/A
 5                                     N/A

Line Status Line Description           NB          PY Physical units     PY Physical units-ending
                                                       withdrawn                        balance
 1                                     N/A
 2                                     N/A
 3                                     N/A
 4                                     N/A
 5                                     N/A
       Section: B              Section Name: Non-Collection Type Heritage Assets (SFFAS No.                                     Line Attributes: Units
                                             29, par. 25d) - Unaudited
Line Status Line Description           NB         CY Physical units       CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                                beginning balance                                               withdrawn        ending balance            beginning balance
 1              Building               N/A                      5.0000                                                                       5.0000                    3.0000
 2                                     N/A
 3                                     N/A
 4                                     N/A
 5                                     N/A

Line Status Line Description           NB          PY Physical units     PY Physical units-ending
                                                       withdrawn                        balance
 1              Building               N/A                                                 3.0000
 2                                     N/A
 3                                     N/A
 4                                     N/A
 5                                     N/A




                                                                                                       - 106 -
                                                                                                                                                                                              11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                                 Fiscal Year: 2010                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                     Agency Notes:      17

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency
                   (SFFAS No. 29, par. 25a).                                                                        The buildings are multi-use assets and house administrative staff.
2                  Provide a brief description of the agency's stewardship policies for each major category of
                   the heritage assets (SFFAS No. 29, par. 25b).                                                    N/A
3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS
                   29, par. 26).                                                                                    Good
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   The Department owns the Treasury Complex (Main Treasury and Treasury Annex) -- a
                   the significant accounting policies pertaining to this note.                                     multi-use heritage asset. The buildings housing the United States Mint facilities in
                                                                                                                    Denver, San Fransico, and West Point, are also considered multi-use heritage assets.
                                                                                                                    Multi-use heritage assets are assets of historical significance for which the
                                                                                                                    predominant use is general government operations. All acquisition, reconstruction, and
                                                                                                                    betterment costs for the Treasury buildings are capitalized as general PP&E and
                                                                                                                    depreciated over their service life.




                                                                                                          - 107 -
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        30

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                  0                     420                           0                              0                         0                        0
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All other funds      N/A                              98                         39                                                                                   19
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                  0                       0                         420
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All other funds      N/A                                                                                    156
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                                        390
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All other funds      N/A                              15                        175                                                                                                            18
 9                                   N/A
10                                   N/A



                                                                                                          - 108 -
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        30

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                                                                    390
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All other funds      N/A                                                                                    208
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: C            Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                           Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 3              The Department of    N/A
                the Treasury,
                Suspense Funds
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A




                                                                                                          - 109 -
                                                                                                                                                                                                11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27            Fiduciary Activities                                                                                                Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                          Agency Notes:        30

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: C             Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                            Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                     to beneficiaries C
 3              The Department of     N/A
                the Treasury,
                Suspense Funds
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A

       Section: D             Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                            Funds - Prior Year                                                                        Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                  net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                               discs. D                                                                                      D
 3              All Other Funds       N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A

Line Status Line Description           NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                     to beneficiaries C
 3              All Other Funds       N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A




                                                                                                           - 110 -
                                                                                                                                                                       11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27            Fiduciary Activities                                                                                   Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                             Agency Notes:     30

  Status: Complete                              The accompanying notes are an integral part of these financial statements.   I = Inactive Line


       Section: E             Section Name: Number of Agency Fiduciary Activities                                            Line Attributes: Units


Line Status Line Description           NB           CY Total number of            PY Total number of
                                                    fiduciary funds- all   fiduciary funds- all funds
                                                                funds
 1              Number of             N/A                        25.0000                     24.0000
                Treasury Fiduciary
                Activities
 2                                    N/A
 3                                    N/A
 4                                    N/A




                                                                                                          - 111 -
                                                                                                                                                                                               11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 27           Fiduciary Activities                                                                                               Fiscal Year: 2010              Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                         Agency Notes:          30

 Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                             Answer
1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives     Bureau Fund Code Authority Fund Title
                   of the fiduciary activity, and a general description of the beneficial owners or class of owners     BEP 20X6513.013 31 USC 5119 Mutilated Currency Claims Funds
                   of each fiduciary fund (SFFAS No. 31, par. 18(a)).                                                   BPD 20X6008 31 USC 3513 Payment Prin. & Interest Govt. Agencies
                                                                                                                        FMD 20X6045 31 USC 3328 Proceeds, Payments of Unpaid Checks
                                                                                                                        FMD 20X6048 31 USC 3329, 3330 Proceeds of Withheld Foreign Check
                                                                                                                        FMD 2015X6078 50 APP. USC 2012 War Claims FD, FCSC
                                                                                                                        FMD 20X6092 31 USC 1321 Debt Management Operations
                                                                                                                        FMD 20X6104 22 USC 1627 Albanian Claims Fund, Treasury
                                                                                                                        FMD 20X6133 31 USC 1322 Payment of Unclaimed Moneys
                                                                                                                        FMD 20X6309 22 USC 1627(a) Libyan Claims Settlement Fund
                                                                                                                        FMD 20X6310 22 USC 1627(a) Libyan Claims Settlement Fund
                                                                                                                        FMD 20X6311 98 Stat. 1876 Kennedy Center Revenue Bond
                                                                                                                        FMD 20X6312 22 USC 1627 Iranian Claims Settlement Fund
                                                                                                                        FMD 20X6314 22 USC 1644g German Democrat Settlement Fund
                                                                                                                        FMD 20X6315 22 USC 1645h Vietnam Claims Settlement Fund
                                                                                                                        FMD 20X6501.018 31 USC 3513 Small Escrow Amounts
                                                                                                                        FMD 20X6720 31 USC 3513 SM DIF Account for Dep. & Check Adj.
                                                                                                                        FMD 20X6830 104 Stat. 1061 Net Interest Payments to/from State
                                                                                                                        FMD 20X6999 31 USC 3513 Accounts Payable, Check Issue UNDDR
                                                                                                                        IRR 20X6737 90 Stat. 269-270 Internal Revenue Collections for Northern Mariana
                                                                                                                        Island
                                                                                                                        IRR 20X6738 31 USC 3513 Coverover Withholdings-U.S. Virgin Islands
                                                                                                                        IRR 20X6740 31 USC 3515 Coverover Withholdings-Guam
                                                                                                                        IRR 20X6741 31 USC 3513 Coverover Withholdings-American Samoa
                                                                                                                        OAS 20X6317.001 22 USC 2431 Belize Escrow, Debt Reduction
                                                                                                                        OAS 20X6501.018 31 USC 3513 Small Escrow Amounts
                                                                                                                        OTS 20X6501.76 31 USC 3513 Small Escrow Amounts

2                  Provide information on any significant changes in fiduciary net assets from the prior period
                   (SFFAS No. 31, par. 18(c)).                                                                          N/A

3                  Provide the TAS for all funds with fiduciary activities.
                                                                                                                        See 1
4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                   represented by balances on deposit with either the U.S. Treasury or with a commercial                N/A
                   banking institution (SSFAS No. 31, par. 12).
5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                   Assets.                                                                                              Withholding for the U.S. Virgin Island

6                  If separate audited financial statements are issued for an individual fiduciary activity with a
                   fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS         N/A
                   No. 31, par. 18(e)).
7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                   the basis of accounting used and the auditor's opinion on the current or most recent financial       N/A


                                                                                                             - 112 -
                                                                                                                                                                                                   11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                              Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       30

 Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
                   statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                   auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                   22(a)).
8                  If separate audited financial statements are issued for an individual fiduciary activity, provide
                   information on how the reader can obtain a copy of the financial statements and the audit           N/A
                   opinion thereon (SFFAS No. 31, par. 22(b)).
9                  If more than one agency is responsible for administering a fiduciary activity, and the separate
                   portions of the activity can be clearly identified with another responsible agency, identify the    N/A
                   other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      In accordance with SFFAS No.31, Accounting for Fiduciary Activities, fiduciary type
                   the significant accounting policies pertaining to this note.                                        activities and related transactions will no longer be reported by the Department in its
                                                                                                                       proprietary financial statements. Fiduciary activities are the collection or receipt, and
                                                                                                                       the management, protection, accounting, investment, and disposition by the Federal
                                                                                                                       Government of cash or other assets in which non-Federal individuals or entities have
                                                                                                                       an ownership interest that the Federal Government must uphold. Fiduciary cash and
                                                                                                                       other assets are not assets of the Federal Government. While these activities are no
                                                                                                                       longer reported in the proprietary financial statements, they are required to be reported
                                                                                                                       on schedules in the notes to financial statements (Note 30).




                                                                                                            - 113 -
                                                                                                                                                                                                    11/19/2010 14:16:04

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                    Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                           Agency Notes:        1&9

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account       2010 - SEPTEMBER            2009 - SEPTEMBER
                                                                                 Type
Investment in Government sponsored enterprises (GSEs)                     D        A                        109,216                   64,679
                                                                              Variance:                           0                        0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description         CY liquidation pref. val. at CY increase in liquidation        CY net incr. liq. pref. val.   CY valuation (gain/loss)      CY fair val. at reporting   PY liquidation pref. val. at
                                              beg. of year             pref. val. for CY                                                                                         date                 beg. of year
 1          Fannie Mae senior                             25,082                       40,200                            65,282                      -8,791                         56,491                          840
            preferred stock
 2          Freddie Mac senior                           28,251                         12,400                           40,651                      10,514                        51,165                           824
            preferred stock
 3          Fannie Mae warrants                           6,707                               0                           6,707                      -5,700                         1,007                         3,104
            common stock
 4          Freddie Mac warrants                          4,639                               0                           4,639                      -4,086                           553                         2,264
            common stock
 5
 6
 7
 8          All other stock
            Total                                         64,679                        52,600                          117,279                       -8,063                      109,216                          7,032

Line Status Line Description           PY increase in liquidation    PY net incr. liq. pref. val.      PY valuation (gain/loss)      PY fair val. at reporting
 1          Fannie Mae senior                            44,900                         45,740                         -20,658                       25,082
            preferred stock
 2          Freddie Mac senior                           50,700                         51,524                         -23,273                       28,251
            preferred stock
 3          Fannie Mae warrants                               0                          3,104                            3,603                       6,707
            common stock
 4          Freddie Mac warrants                              0                          2,264                            2,375                       4,639
            common stock
 5
 6
 7
 8          All other stock
            Total                                         95,600                       102,632                          -37,953                       64,679

Threshold

 Line Description                                             Question                                                                    Answer




                                                                                                          - 114 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)      Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                             Agency Notes:      1&9

 Status: Complete                        The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                             Question                                                      Answer
Line Item Notes - Fannie Mae senior preferred stock (CY      Please provide explanations for any amounts that have        In performing the calculations for the valuations of the senior preferred stock
liquidation pref. val. at beg. of year)                      changed by 10% or more and or greater than 500,000 between   and warrants for common stock, the Department relied on the GSEs' public
                                                             the current fiscal year and prior fiscal year. (Unaudited)   filings and press releases concerning its financial statements, monthly
                                                                                                                          summaries, quarterly credit supplements, independent research regarding
                                                                                                                          high yield bond and preferred stock trading, independent research regarding
                                                                                                                          the GSEs' common stock trading, and other information pertinent to the
                                                                                                                          valuations.

                                                                                                                          A complicating issue for the valuation of the senior preferred stock is the
                                                                                                                          interaction between liquidity payments and the ongoing liquidation
                                                                                                                          preference of the stock and the amount of dividends associated with that
                                                                                                                          liquidation preference. The projections assume that a hypothetical buyer
                                                                                                                          would acquire the dividend stream related to the existing balance of the
                                                                                                                          liquidation preference on the transaction date, as well as the commitment
                                                                                                                          fee payment that if agreed upon by the Department and FHFA could begin
                                                                                                                          on March 31, 2011. This stream of dividend payments was then discounted
                                                                                                                          to address certain issues unique to the senior preferred stock.

                                                                                                                          The valuation of the warrants are impacted by the nominal exercise price
                                                                                                                          and the large number of potential exercise shares, the market trading of the
                                                                                                                          common stock that underlies the warrants, the principal market, and the
                                                                                                                          market participants. Other discounting factors are the holding period risk
                                                                                                                          related directly to the amount of time that it will take to sell the exercise
                                                                                                                          shares without depressing the market and the other activity under the
                                                                                                                          SPSPA.




                                                                                                    - 115 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)      Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                             Agency Notes:      1&9

 Status: Complete                        The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                             Question                                                      Answer
Line Item Notes - Freddie Mac senior preferred stock (CY     Please provide explanations for any amounts that have        In performing the calculations for the valuations of the senior preferred stock
valuation (gain/loss))                                       changed by 10% or more and or greater than 500,000 between   and warrants for common stock, the Department relied on the GSEs' public
                                                             the current fiscal year and prior fiscal year. (Unaudited)   filings and press releases concerning its financial statements, monthly
                                                                                                                          summaries, quarterly credit supplements, independent research regarding
                                                                                                                          high yield bond and preferred stock trading, independent research regarding
                                                                                                                          the GSEs' common stock trading, and other information pertinent to the
                                                                                                                          valuations.

                                                                                                                          A complicating issue for the valuation of the senior preferred stock is the
                                                                                                                          interaction between liquidity payments and the ongoing liquidation
                                                                                                                          preference of the stock and the amount of dividends associated with that
                                                                                                                          liquidation preference. The projections assume that a hypothetical buyer
                                                                                                                          would acquire the dividend stream related to the existing balance of the
                                                                                                                          liquidation preference on the transaction date, as well as the commitment
                                                                                                                          fee payment that if agreed upon by the Department and FHFA could begin
                                                                                                                          on March 31, 2011. This stream of dividend payments was then discounted
                                                                                                                          to address certain issues unique to the senior preferred stock.

                                                                                                                          The valuation of the warrants are impacted by the nominal exercise price
                                                                                                                          and the large number of potential exercise shares, the market trading of the
                                                                                                                          common stock that underlies the warrants, the principal market, and the
                                                                                                                          market participants. Other discounting factors are the holding period risk
                                                                                                                          related directly to the amount of time that it will take to sell the exercise
                                                                                                                          shares without depressing the market and the other activity under the
                                                                                                                          SPSPA.




                                                                                                    - 116 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)      Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                             Agency Notes:      1&9

 Status: Complete                        The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                             Question                                                      Answer
Line Item Notes - Freddie Mac senior preferred stock (CY     Please provide explanations for any amounts that have        In performing the calculations for the valuations of the senior preferred stock
liquidation pref. val. at beg. of year)                      changed by 10% or more and or greater than 500,000 between   and warrants for common stock, the Department relied on the GSEs' public
                                                             the current fiscal year and prior fiscal year. (Unaudited)   filings and press releases concerning its financial statements, monthly
                                                                                                                          summaries, quarterly credit supplements, independent research regarding
                                                                                                                          high yield bond and preferred stock trading, independent research regarding
                                                                                                                          the GSEs' common stock trading, and other information pertinent to the
                                                                                                                          valuations.

                                                                                                                          A complicating issue for the valuation of the senior preferred stock is the
                                                                                                                          interaction between liquidity payments and the ongoing liquidation
                                                                                                                          preference of the stock and the amount of dividends associated with that
                                                                                                                          liquidation preference. The projections assume that a hypothetical buyer
                                                                                                                          would acquire the dividend stream related to the existing balance of the
                                                                                                                          liquidation preference on the transaction date, as well as the commitment
                                                                                                                          fee payment that if agreed upon by the Department and FHFA could begin
                                                                                                                          on March 31, 2011. This stream of dividend payments was then discounted
                                                                                                                          to address certain issues unique to the senior preferred stock.

                                                                                                                          The valuation of the warrants are impacted by the nominal exercise price
                                                                                                                          and the large number of potential exercise shares, the market trading of the
                                                                                                                          common stock that underlies the warrants, the principal market, and the
                                                                                                                          market participants. Other discounting factors are the holding period risk
                                                                                                                          related directly to the amount of time that it will take to sell the exercise
                                                                                                                          shares without depressing the market and the other activity under the
                                                                                                                          SPSPA.




                                                                                                    - 117 -
                                                                                                                                                                                      11/19/2010 14:16:04

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)      Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                             Agency Notes:      1&9

 Status: Complete                      The accompanying notes are an integral part of these financial statements.        I = Inactive Line



Threshold

Line Description                                            Question                                                      Answer
Line Item Notes - Fannie Mae warrants common stock (CY      Please provide explanations for any amounts that have        In performing the calculations for the valuations of the senior preferred stock
liquidation pref. val. at beg. of year)                     changed by 10% or more and or greater than 500,000 between   and warrants for common stock, the Department relied on the GSEs' public
                                                            the current fiscal year and prior fiscal year. (Unaudited)   filings and press releases concerning its financial statements, monthly
                                                                                                                         summaries, quarterly credit supplements, independent research regarding
                                                                                                                         high yield bond and preferred stock trading, independent research regarding
                                                                                                                         the GSEs' common stock trading, and other information pertinent to the
                                                                                                                         valuations.

                                                                                                                         A complicating issue for the valuation of the senior preferred stock is the
                                                                                                                         interaction between liquidity payments and the ongoing liquidation
                                                                                                                         preference of the stock and the amount of dividends associated with that
                                                                                                                         liquidation preference. The projections assume that a hypothetical buyer
                                                                                                                         would acquire the dividend stream related to the existing balance of the
                                                                                                                         liquidation preference on the transaction date, as well as the commitment
                                                                                                                         fee payment that if agreed upon by the Department and FHFA could begin
                                                                                                                         on March 31, 2011. This stream of dividend payments was then discounted
                                                                                                                         to address certain issues unique to the senior preferred stock.

                                                                                                                         The valuation of the warrants are impacted by the nominal exercise price
                                                                                                                         and the large number of potential exercise shares, the market trading of the
                                                                                                                         common stock that underlies the warrants, the principal market, and the
                                                                                                                         market participants. Other discounting factors are the holding period risk
                                                                                                                         related directly to the amount of time that it will take to sell the exercise
                                                                                                                         shares without depressing the market and the other activity under the
                                                                                                                         SPSPA.




                                                                                                   - 118 -
                                                                                                                                                                                      11/19/2010 14:16:04

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)      Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                             Agency Notes:      1&9

 Status: Complete                      The accompanying notes are an integral part of these financial statements.        I = Inactive Line



Threshold

Line Description                                            Question                                                      Answer
Line Item Notes - Freddie Mac warrants common stock (CY     Please provide explanations for any amounts that have        In performing the calculations for the valuations of the senior preferred stock
liquidation pref. val. at beg. of year)                     changed by 10% or more and or greater than 500,000 between   and warrants for common stock, the Department relied on the GSEs' public
                                                            the current fiscal year and prior fiscal year. (Unaudited)   filings and press releases concerning its financial statements, monthly
                                                                                                                         summaries, quarterly credit supplements, independent research regarding
                                                                                                                         high yield bond and preferred stock trading, independent research regarding
                                                                                                                         the GSEs' common stock trading, and other information pertinent to the
                                                                                                                         valuations.

                                                                                                                         A complicating issue for the valuation of the senior preferred stock is the
                                                                                                                         interaction between liquidity payments and the ongoing liquidation
                                                                                                                         preference of the stock and the amount of dividends associated with that
                                                                                                                         liquidation preference. The projections assume that a hypothetical buyer
                                                                                                                         would acquire the dividend stream related to the existing balance of the
                                                                                                                         liquidation preference on the transaction date, as well as the commitment
                                                                                                                         fee payment that if agreed upon by the Department and FHFA could begin
                                                                                                                         on March 31, 2011. This stream of dividend payments was then discounted
                                                                                                                         to address certain issues unique to the senior preferred stock.

                                                                                                                         The valuation of the warrants are impacted by the nominal exercise price
                                                                                                                         and the large number of potential exercise shares, the market trading of the
                                                                                                                         common stock that underlies the warrants, the principal market, and the
                                                                                                                         market participants. Other discounting factors are the holding period risk
                                                                                                                         related directly to the amount of time that it will take to sell the exercise
                                                                                                                         shares without depressing the market and the other activity under the
                                                                                                                         SPSPA.




                                                                                                   - 119 -
                                                                                                                                                                                            11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)              Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:        1&9

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                                              Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Revenue               Credit                      44,536                      57,647                                               57,647
               recognized from
               acquisition of
               preferred stocks
               and warrants
 2             Revenue               Credit                      12,142                       4,336                                                4,336
               recognized from
               dividends and
               periodic
               commitment fees
 3             The dollar amount     Debit                            0                            0                                                    0
               of liquidation
               preference value
               per share of senior
               preferred stock
Threshold
 Line Description                                                 Question                                                          Answer
 Other Notes Info - Revenue recognized from dividends and         Please provide explanations for any amounts that have             Due to increase in investment in the GSEs.
 periodic commitment fees (2010 - SEPTEMBER)                      changed by 10% or more and or greater than 500,000
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (Unaudited)
 Other Notes Info - Revenue recognized from acquisition of        Please provide explanations for any amounts that have             Change in market conditions impacting valuation estimates and decrease in
 preferred stocks and warrants (2010 - SEPTEMBER)                 changed by 10% or more and or greater than 500,000                liquidity payments to the GSEs.
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (Unaudited)
       Section: B             Section Name: Other Related Information (in Percentages)                                             Line Attributes: Percent


Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Nominal cost           N/A                      79.9000                      79.9000                                             79.9000
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A                      10.0000                      10.0000                                             10.0000




                                                                                                          - 120 -
                                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                   Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                          Agency Notes:       1&9

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                    I = Inactive Line


       Section: C             Section Name: Other Related Information in Shares                                                           Line Attributes: Units


Line Status Line Description          NB      2010 - SEPTEMBER                 2009 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1             Number of non-         N/A               2,000,000.0000                2,000,000.0000                                           2,000,000.0000
               voting senior
               preferred stock -
               shares




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        Investments in Government Sponsored Enterprises (GSEs)
                     the significant accounting policies pertaining to this note.
                                                                                                                           The senior preferred stock liquidity preference (preferred stock) and associated
                                                                                                                           common stock warrant (warrant(s)) in GSEs are presented at their fair value as
                                                                                                                           permitted by OMB Circular No. A-136. This Circular includes language that generally
                                                                                                                           requires agencies to value non-federal investments at acquisition cost, but permits the
                                                                                                                           use of other measurement basis, such as fair value, in certain situations.

                                                                                                                           Increases in the non-entity preferred stock liquidity preference occur when quarterly
                                                                                                                           payments to the GSEs are made pursuant to the preferred stock purchase agreements
                                                                                                                           (i.e., when a GSE's liabilities exceed its assets at the end of any quarter). As funds for
                                                                                                                           these payments are appropriated directly to the Department, these payments are
                                                                                                                           treated as entity expenses and reflected as such on the Statement of Net Cost (SNC)
                                                                                                                           and Cumulative Results of Operations. These payments also result in an increase to
                                                                                                                           the non-entity investment in GSEs preferred stock, with a corresponding increase in
                                                                                                                           Due to the General Fund, as the Department holds the investment on behalf of the U.S.
                                                                                                                           Government General Fund.




                                                                                                            - 121 -
                                                                                                                                                                                         11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)              Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                      Agency Notes:      9

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                     359,900                 91,937
                                                                                 Variance:                        0                      0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER              2009 - SEPTEMBER                  Previously Rptd          Line Item Changes
 1           GSE accrued liability                               0                        15,000                                                  15,000
 2           GSE contingent                                359,900                        76,937                                                  76,937
             liability
 3      I    Keepwell Payable -                                                                                        88,410
             Fannie Mae
 4      I    Keepwell Payable -                                                                                         3,527
             Freddie Mac
 5           Private entities entered
             liability
 6
 7
 8           All other liabilities
             Total                                         359,900                        91,937                        91,937                    91,937
Threshold

 Line Description                                                Question                                                              Answer




                                                                                                          - 122 -
                                                                                                                                                                                       11/19/2010 14:16:04

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)      Fiscal Year: 2010                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                             Agency Notes:      9

 Status: Complete                          The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                               Question                                                      Answer
Line Item Notes - GSE contingent liability (2010 -             Please provide explanations for any amounts that have        The initial agreements, which had no expiration date, provided that the
SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between   Department would disburse funds to the GSEs, if at the end of any quarter
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the Federal Housing Finance Agency (FHFA ) determines that the liabilities
                                                                                                                            of either GSE exceed its assets. The maximum amount available to each
                                                                                                                            GSE under this agreement was originally $100,000 million and in May 2009
                                                                                                                            was raised to $200,000 million. In December 2009, the Department
                                                                                                                            amended the SPSPAs to replace the $200,000 million per GSE funding
                                                                                                                            commitment cap with a formulaic cap that will allow continued draws for
                                                                                                                            three years at amounts that will automatically adjust upwards quarterly by
                                                                                                                            the cumulative amount of any losses realized by either GSE and downward
                                                                                                                            by the cumulative amount of any gains, but not below $200,000 million, and
                                                                                                                            will become fixed at the end of the three years. At the conclusion of the
                                                                                                                            three year period, the remaining commitment will then be fully available to
                                                                                                                            be drawn per the terms of the agreements (referred to hereafter as the
                                                                                                                            "Adjusted Caps"). Draws against the funding commitment of the SPSPAs do
                                                                                                                            not result in the issuance of additional shares of senior preferred stock;
                                                                                                                            instead, the liquidation preference of the initial 1,000,000 shares is
                                                                                                                            increased by the amount of the draw. Actual payments to the GSEs for fiscal
                                                                                                                            years ended September 30, 2010 and September 30, 2009 were $52,600
                                                                                                                            million and $95,600 million, respectively. Additionally, $359,900 million has
                                                                                                                            been accrued as a contingent liability as of September 30, 2010 ($91,937
                                                                                                                            million as of September 30, 2009). The amount accrued is the total
                                                                                                                            estimated contingent liability under the SPSPAs. This accrued contingent
                                                                                                                            liability is based on the projected draws under the SPSPAs. It is
                                                                                                                            undiscounted and does not take into account any of the offsetting dividends
                                                                                                                            which may be received as a result of those draws.




                                                                                                        - 123 -
                                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                   Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:       9

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                                                   Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                             Decimal: Zero
Line Status Line Description         NB       2010 - SEPTEMBER                2009 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1             Actual payment       Debit                       52,600                        95,600                                                   95,600
               made to the GSE
Threshold
 Line Description                                                Question                                                                Answer
 Other Notes Info - Actual payment made to the GSE (2010 -       Please provide explanations for any amounts that have                   Both GSEs reported very low early delinquencies on additions to their credit
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000                      books in 2009 and the first half of 2010. This favorable early delinquency
                                                                 between the current fiscal year and prior fiscal year.                  experience is an improvement compared with the loans originated in 2005
                                                                 (Unaudited)                                                             through 2008.

Tab: Text Data
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly        As part of the valuation exercise, the Department prepared a series of long-range
                    the significant accounting policies pertaining to this note.                                          projections through 2031 to determine what the implied amount of the contingent
                                                                                                                          liability to the GSEs under the SPSPAs would be and as a result has estimated the
                                                                                                                          contingent liability to be $359,900 million as of September 30, 2010. The valuation
                                                                                                                          analysis resulted in total SPSPA estimates ranging from a "baseline" scenario of
                                                                                                                          $508,100 million to an "extreme case" scenario of $610,000 million, as of September
                                                                                                                          30, 2010 ($91,937 million to $206,700 as of September 30, 2009 of which $76,937
                                                                                                                          million was recorded as contingent). As future payments under the SPSPA are deemed
                                                                                                                          to be probable, the baseline scenario was used to record the contingent liability as of
                                                                                                                          September 30, 2010. SFAS 5 provides that when a probable contingent liability is a
                                                                                                                          range of amounts and no amount within the range is a better estimate than any other
                                                                                                                          amount, the estimated contingent liability should be based on the minimum value in the
                                                                                                                          range, as was done for FY 2009. The recorded contingent liability is the total estimated
                                                                                                                          payments for the life of the agreements under the Adjusted Caps, minus actual
                                                                                                                          payments made through the end of the fiscal year. Such accruals are adjusted as new
                                                                                                                          information develops or circumstances change.




                                                                                                           - 124 -
                                                                                                                                                                                  11/19/2010 14:16:04

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 29A         Derivative Assets                                                                                          Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                 Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB     Account    2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                 Type

                                                                              Variance:                                                       Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd        Line Item Changes
 1          Interest rate contracts
 2          Foreign exchange
            contracts
 3          Equity contracts
 4          Commodity contracts
 5          Credit contracts
 6          All other contracts
            Total




                                                                                                     - 125 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                         Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Assets                                  No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis D       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              D                                                                              D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative contracts
       Section: B             Section Name: Non-Hedge Derivative Assets                              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis D       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              D                                                                              D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total non-hedge        N/A
               derivative contracts




                                                                                                       - 126 -
                                                                                                                                                                             11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                           Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                  Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total reclassified     N/A
               derivative gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as          No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total recognized       N/A
               derivative gain/loss




                                                                                                        - 127 -
                                                                                                                                                                       11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29A         Derivative Assets                                                                                         Fiscal Year: 2010      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                               Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                         Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed
                   to
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC
                   815-
                   10-50-1A).
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both
                   assets and
                   liabilities, respectively) on the Balance Sheet (FASB ASC 815-10-50-4A).
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC
                   815-
                   10-50-4A)
5                  Provide a description of the transactions of derivative instruments classified as cashflow
                   hedges
                   that will result in them being reclassified into earnings during the current period (FASB ASC
                   815-
                   10-50-4C).
6                  Provide a description of the nature of trading activities for non-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks (FASB ASC
                   815-10-
                   50-4F).
7                  Provide a description on the existence and nature of credit-risk related contingent features
                   and the
                   circumstances in which the features could be triggered in derivative instruments that are in a
                   net
                   liability position at the end of the reporting period (FASB ASC 815-10-50-4H)
8                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the
                   significant accounting policies pertaining to this note.




                                                                                                          - 128 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B           Derivative Liablities                                                                                       Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                  Agency Notes:      N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                   Type
Derivative Liabilities                                                      C        L                           0                  0
                                                                                Variance:                        0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER           2009 - SEPTEMBER                Previously Rptd         Line Item Changes
 1            Interest rate contracts
 2            Foreign exchange
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts
 6            All other contracts
              Total




                                                                                                       - 129 -
                                                                                                                                                                                     11/19/2010 14:16:04

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B           Derivative Liablities                                                                                     Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Liabilities                             No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB          CY Cost Basis C      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis C       PY Fair Value Adjustment          PY Fair Value
                                                                                              C                                                                              C
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative amounts
       Section: B             Section Name: Non-Hedge Derivative Liabilities                         No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB          CY Cost Basis C      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis C       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              C                                                                              C
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total non-hedge        N/A
               derivative amounts




                                                                                                       - 130 -
                                                                                                                                                                              11/19/2010 14:16:04

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B           Derivative Liablities                                                                                        Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:    N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Liabilities Designated as          No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All Other contracts    Credit
 7             Total reclassified      N/A
               derivativ gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Liabilities Not Designated as      No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All other contracts    Credit
 7             Total recognized        N/A
               derivative gain/loss




                                                                                                         - 131 -
                                                                                                                                                                       11/19/2010 14:16:04

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29B         Derivative Liablities                                                                                     Fiscal Year: 2010      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                               Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                         Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed
                   to
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC
                   815-
                   10-50-1A).
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both
                   assets and
                   liabilities, respectively) on the Balance Sheet (FASB ASC Topic 815-10-50-4A).
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC
                   Topic
                   815-10-50-4A).
5                  Provide a description of the transactions of derivative instruments classified as cashflow
                   hedges
                   that will result in them being reclassified into earnings during the current period (FASB ASC
                   Topic 815-10-50-4C).
6                  Provide a description of the nature of trading activities for non-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks (FASB ASC
                   815-10-
                   50-4F).
7                  Provide a description on the existence and nature of credit-risk related contingent features
                   and the
                   circumstances in which the features could be triggered in derivative instruments that are in a
                   net
                   liability position at the end of the reporting period (FASB ASC 815-10-50-4H).
8                  Provide any other revlevant information pertaining to this note. At a minimum, describe
                   briefly the significant accounting policies pertaining to this note.




                                                                                                          - 132 -
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010


Note 30- Summary of Significant Accounting Policies and Other Disclosures

A – Part 1. Basis of Presentation

The Government Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the
Secretary of the Treasury to prepare and submit annual audited financial statements of the executive
branch, amended the Budget and Accounting Procedures Act of 1950, which allows the Secretary of the
Treasury to stipulate the format and requirements of executive agencies to furnish financial and
operational information to the President and Congress,. The Secretary of the Treasury developed guidance
in the U.S Department of Treasury’s Treasury Financial Manual (TFM) Volume 1, Part 2, Chapter 4700
to provide agencies with instructions to meet the requirements of GMRA. The TFM Chapter 4700
requires agencies to:
    1. Reclassify all items and amounts on the audited consolidated, department-level balance sheet,
       statements of net cost, changes in net position/income statement, and statement or note on
       custodial activity, if applicable, to the special-purpose financial statements.
    2. Disclose special-purpose financial statement line item amounts identified as Federal by trading
       partner and amount (amounts should be net of intra-bureau and intra-departmental eliminations).
    3. Disclose notes required by the special-purpose financial statement line items and other notes
       required in the Financial Report of the U.S. Government (FR); and
    4. Disclose other data not contained in the primary FR financial statements and notes required to
       meet requirements of U.S. generally accepted accounting principles
The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Report System to input
the above information. For purposes of the Special-purpose financial statements, the Closing Package is
comprised of the following GFRS Modules:
    1. Closing Package Financial Statement Report (GF003F)
    2. Trading Partner Summary Note Report (GF004F)
    3. Closing Package Line Reclassification Summary Report (GF003G)
    4. FR Notes Report (GF006)
    5. Other Data Report (GF007)

The generic format for the special-purpose financial statements is based on the U.S. Standard General
Ledger (USSGL) crosswalk to the FR financial statements and notes. In June 2010 and August 2010,
Treasury issued TFM Transmittal Letter No. 658 and Transmittal Letter No. S2 10-02, respectively,
effective for fiscal year 2010, that revised the mapping of certain USSGL accounts to the special-purpose
financial statements and resulted in agencies reclassifying the accompanying fiscal year 2009 special-
purpose financial statements to conform with the fiscal year 2010 presentation. Therefore, certain
amounts in the fiscal year 2009 columns on the accompanying special-purpose financial statements differ
from the amounts in the columns labeled “previously reported.”
A - Part 2. Reporting Entity
The accompanying financial statements include the operations of the U.S. Department of the Treasury
(Department), one of 24 CFO Act agencies of the Executive Branch of the United States Government, and


                               These notes are an integral part of the financial statements.
                                                                   1
                                        U.S. Department of the Treasury
                                  Government-wide Financial Reporting System
                           Additional Notes to the Special Purpose Financial Statements
                                                September 30, 2010

certain custodial activities managed on behalf of the entire U.S. Government. The following paragraphs
describe the activities of the reporting entity.

The Department was created by Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected the
development of the Department, delegating new duties to its charge and establishing the numerous
bureaus and divisions that now comprise the Department. As a major policy advisor to the President, the
Secretary has primary responsibility for formulating and managing the domestic and international tax and
financial policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and
international economic and fiscal policy; governing the fiscal operations of the government; maintaining
foreign assets control; managing the federal debt; collecting income and excise taxes; representing the
United States on international monetary, trade, and investment issues; overseeing Departmental overseas
operations; and directing the manufacturing of coins, currency, and other products for customer agencies
and the public.

The Department includes the Departmental Offices (DO) and nine operating bureaus. For financial
reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of Inspector
General (OIG), the Special Office of Inspector General for the Troubled Asset Relief Program
(SIGTARP), Treasury Forfeiture Fund (TFF), Exchange Stabilization Fund (ESF), Community
Development Financial Institutions Fund (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector
General for Tax Administration (TIGTA), Federal Financing Bank (FFB), Office of Financial Stability
(OFS), Government Sponsored Enterprise Program (GSEs) and the DO policy offices.

The nine operating bureaus are: Bureau of Engraving and Printing (BEP); Bureau of the Public Debt
(BPD); Financial Crimes Enforcement Network (FinCEN); Financial Management Service (FMS);
Internal Revenue Service (IRS); United States Mint (Mint); Office of the Comptroller of the Currency
(OCC); Office of Thrift Supervision1 (OTS); and the Alcohol and Tobacco Tax and Trade Bureau (TTB).

The Department’s financial statements reflect the reporting of its own entity activities, which include
appropriations it receives to conduct its operations and revenue generated from those operations. They
also reflect the reporting of certain non-entity (custodial) functions it performs on behalf of the U.S.
Government and others. Non-entity activities include collecting federal revenue, servicing the federal
debt, disbursing certain federal funds, and maintaining certain assets and liabilities for the U.S.
Government, as well as for other federal entities. The Department’s reporting entity does not include the
“General Fund” of the U.S. Government, which maintains receipt, disbursement, and appropriation
accounts for all federal agencies.

Transactions and balances among the Department’s entities have been eliminated from the Consolidated
Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in
Net Position.

1
    On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection Act, which includes the
    Enhancing Financial Institution Safety and Soundness Act of 2010 (the “Act”). Under the Act, OTS will be abolished and some of its
    functions will be transferred to the OCC on July 21, 2011 (the “transfer date”).




                                          These notes are an integral part of the financial statements.
                                                                              2
                                       U.S. Department of the Treasury
                                 Government-wide Financial Reporting System
                          Additional Notes to the Special Purpose Financial Statements
                                               September 30, 2010

Following Generally Accepted Accounting Principles (GAAP) for federal entities, the Department has not
consolidated into its financial statements the assets, liabilities, or results of operations of any financial
organization or commercial entity in which it holds either a direct, indirect or beneficial majority equity
investment. Even though some of the equity investments are significant, these entities meet the criteria of
“bailed out” entities under paragraph 50 of the Statement of Federal Financial Accounting Concepts
(SFFAC) No. 2, which directs that such “bailout” investments should not be consolidated into the
financial reports of the Federal Government, either in part or as a whole.

In addition, the Department has made loans and investments in certain Special Purpose Vehicles 2 (SPV).
SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria such as ownership and control over an
SPV to carry out government powers and missions, as criteria in the determination about whether the SPV
should be classified as a federal entity. The Department has concluded that the lack of control over the
SPVs is the primary basis for determining that none of the SPVs meet the criteria to be classified as a
federal entity. As a result, the assets, liabilities and results of operations of the SPVs are not included in
the Department financial statements. The Department has recorded the loans and investments in private
entities and investments in SPVs in accordance with Credit Reform Accounting, as discussed below.
B. Basis of Accounting and Presentation
The financial statements have been prepared from the accounting records of the Department in conformity
with accounting principles generally accepted in the United States for federal entities, and the Office of
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, as amended.
Accounting principles generally accepted for federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American Institute of
Certified Public Accountants as the official accounting standards-setting body of the U.S. Government.

These financial statements are provided to meet the requirements of the Government Management Reform
Act of 1994. They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost,
the Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary
Resources, and the Statements of Custodial Activity. The statements and the related notes are prepared in
a comparative form to present both fiscal year 2010 and fiscal year 2009 information.

While these financial statements have been prepared from the books and records of the Department in
accordance with the formats prescribed by OMB, these financial statements are in addition to the financial
reports used to monitor and control budgetary resources which are prepared from the same books and
records.

Intra-governmental assets and liabilities are those due from or to other federal entities. Intra-governmental
earned revenues are collections or accruals of revenue from other federal entities, and intra-governmental
costs are payments or accruals of expenditures to other federal entities.

The financial statements should be read with the realization that they are for a component of a sovereign
2
    The Department invested in SPV’s under the Consumer and Business Lending Initiative, the Automotive Industry Financing Program and the
    Public-Private Investment Program.




                                         These notes are an integral part of the financial statements.
                                                                             3
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

entity, that liabilities not covered by budgetary resources cannot be liquidated without the enactment of an
appropriation, and that the payment of all liabilities other than for contracts can be abrogated by the
sovereign entity. Liabilities represent the probable and measurable future outflow or other sacrifice of
resources as a result of past transactions or events. Since the Department is a component of the U.S.
Government, a sovereign entity, the Department’s liabilities cannot be liquidated without legislation that
provides resources or an appropriation. Liabilities covered by budgetary resources are those liabilities for
which Congress has appropriated funds or funding is otherwise available to pay amounts due. Liabilities
not covered by budgetary or other resources represent amounts owed in excess of available,
congressionally appropriated funds or other amounts, and there is no certainty that the appropriations will
be enacted. The U.S. Government, acting in its sovereign capacity, can abrogate liabilities of the
Department arising from non-contractual activities.
C. Investments
Investments in Troubled Asset Relief Program (TARP)
Troubled Asset Relief Program (TARP) equity investments, including investments in preferred and common
stock and warrants of public companies, are accounted for pursuant to the provisions of the Federal Credit
Reform Act (FCRA) and the associated FASAB accounting standard SFFAS No. 2, Accounting for Direct
Loans and Loan Guarantees, as amended. As additional consideration for investments made, the Department
received common stock warrants, additional preferred shares (referred to as warrant preferred shares) or
additional notes. The Department considered market risk in its calculation and determination of the estimated
net present value of its direct loans, equity investments and asset guarantee program for budgetary purposes.
Similarly, market risk is considered in the valuations for financial reporting purposes. The Department
concluded that GAAP accounting for such investments using the concepts embedded in SFFAS No. 2 was
appropriate analogous accounting guidance based on the similarity between the equity investments made by
the Department and direct loans. Consequently, TARP equity investments, including investments in preferred
and common stock and warrants of public companies, are accounted for by the Department using credit
reform accounting in accordance with SFFAS No. 2, and reported in accordance with FCRA in these financial
statements. In addition, the inclusion of market risk required by the Emergency Economic Stabilization Act
(EESA) in the valuation calculation results in accounting for these investments at estimated fair value, which
is consistent with the accounting for other equity investments held by the Department (i.e. investments in
GSEs).

The Department recognizes dividend revenue associated with equity investments when declared by the
entity in which the Department has invested and when received in relation to any repurchases and
restructuring. The Department reflects changes in the fair value of direct loans, equity investments, and
asset guarantees in the subsidy cost on the Statement of Net Cost annually, as required by FCRA.

Investments in Government Sponsored Enterprises (GSEs)
The senior preferred stock liquidity preference (preferred stock) and associated common stock warrant
(warrant(s)) in GSEs are presented at their fair value as permitted by OMB Circular No. A-136. This Circular
includes language that generally requires agencies to value non-federal investments at acquisition cost, but
permits the use of other measurement basis, such as fair value, in certain situations.

Increases in the non-entity preferred stock liquidity preference occur when quarterly payments to the

                                These notes are an integral part of the financial statements.
                                                                    4
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

GSEs are made pursuant to the preferred stock purchase agreements (i.e., when a GSE’s liabilities exceed
its assets at the end of any quarter). As funds for these payments are appropriated directly to the
Department, these payments are treated as entity expenses and reflected as such on the Statement of Net
Cost (SNC) and Cumulative Results of Operations. These payments also result in an increase to the non-
entity investment in GSEs preferred stock, with a corresponding increase in Due to the General Fund, as
the Department holds the investment on behalf of the U.S. Government General Fund.

Investments in International Financial Institutions
The Department invests in Multilateral Development Banks (MDB) to support poverty reduction, private
sector development, and transition to market economies and sustainable economic growth and
development, thereby advancing the United States’ economic, political, and commercial interests abroad.
These investments are non-marketable equity investments valued at cost.

Other Investments and Related Interest
The ESF holds most of the Department’s other investments. “Other Foreign Currency Denominated
Assets” and “Investment Securities” are considered “available for sale” securities and recorded at fair
value as permitted by OMB Circular No. A-136 beginning in fiscal year 2009. These holdings are
normally invested in interest bearing securities issued or held through foreign governments or monetary
authorities.
D. Tax and Other Non-Entity Receivables
Federal taxes receivable, net, and the corresponding liability, due to the Department are not accrued until
related tax returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the
court. Additionally, the prepayments are netted against liabilities. Accruals are made to reflect penalties
and interest on taxes receivable through the balance sheet date.

Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from
taxpayers. The existence of a receivable is supported by a taxpayer agreement, such as filing of a tax
return without sufficient payment, or a court ruling in favor of the IRS. The allowance reflects an estimate
of the portion of total taxes receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the
taxpayer owes to the Federal Government. Examples include assessments resulting from an IRS audit or
examination in which the taxpayer does not agree with the results. Write-offs consist of unpaid
assessments for which the IRS does not expect further collections due to factors such as taxpayers’
bankruptcy, insolvency, or death. Compliance assessments and write-offs are not reported on the balance
sheet. Statutory provisions require the accounts to be maintained until the statute for collection expires.
E. Inventory and Related Property
Inventory and related property include inventory, operating materials and supplies, and forfeited property.
The Treasury values inventories at either standard cost, or lower of cost or latest acquisition cost, except
for finished goods inventories, which are valued at weighted-average unit cost. These inventories were
categorized based on the Department’s major activities and the services the Department provides to the
Federal Government and the public. All operating materials and supplies are recorded as an expense when


                                These notes are an integral part of the financial statements.
                                                                    5
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

consumed in operations.

Forfeited property is recorded at estimated fair market value as deferred revenue, and may be adjusted to
reflect the current fair market value at the end of the fiscal year. Property forfeited in satisfaction of a
taxpayer’s assessed liability is recorded when title to the property passes to the U.S. Government and a
corresponding credit is made to the related taxes receivable. Direct and indirect holding costs are not
capitalized for individual forfeited assets.

Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction of
deferred revenue from forfeited assets when the asset is forfeited. The allowance includes mortgages and
claims on forfeited property held for sale and a minimal amount of claims on forfeited property previously
sold. Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local, or federal agency. Revenue is not recognized if the forfeited property is ultimately destroyed or
cannot be legally sold.
F. Loans and Interest Receivable, Intra-governmental—Entity and Non-Entity
Intra-governmental entity Loans and Interest Receivable from other federal agencies represent loans and
interest receivable held by the Department. No credit reform subsidy costs were recorded for loans
purchased from federal agencies or for guaranteed loans made to non-federal borrowers, because of
outstanding balances guaranteed (interest and principal) by those agencies.

Intra-governmental non-entity Loans and Interest Receivable from other federal agencies represent loans
issued by the Department to federal agencies on behalf of the U.S. Government. The Department acts as an
intermediary issuing these loans, because the agencies receiving these loans will lend these funds to others to
carry out various programs of the Federal Government. Because of the Department’s intermediary role in
issuing these loans, the Department does not record an allowance related to these intra-governmental loans.
Instead, loan loss allowances and subsidy costs are recognized by the ultimate lender, the federal agency that
issued the loans to the public.
G. Advances to the Unemployment Trust Fund
Advances have been issued to the Department of Labor’s Unemployment Trust Fund from the General Fund
of the U.S. Government to states for unemployment benefits. The Bureau of the Public Debt accounts for the
advances on behalf of the General Fund. As outlined in 42 USC §1323, these repayable advances bear an
interest rate that is computed as the average interest rate, as of the end of the calendar month preceding the
issuance date of the advance, for all interest bearing obligations of the United States then forming the public
debt, to the nearest lower one-eighth of one percent. Interest on the repayable advances is due on September
30th of each year. Advances will be repaid by transfers from the Unemployment Trust Fund to the General
Fund when the Secretary of the Treasury, in consultation with the Secretary of Labor, has determined that the
balance in the Unemployment Trust Fund is adequate to allow repayment.
H. Receivable on Deposit of Earnings, Federal Reserve System
Reserve Banks are required by the Board of Governors of the Federal Reserve System to transfer to the
U.S. Treasury excess earnings, after providing for the cost of operations, payment of dividends, and
reservation of an amount necessary to equate surplus with capital paid in. In the event of losses, or a


                                 These notes are an integral part of the financial statements.
                                                                     6
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

substantial increase in capital, a Reserve Bank will suspend its payments to the U.S. Treasury until such
losses or increases in capital are recovered through subsequent earnings. Weekly payments to the U.S.
Treasury may vary significantly. The Receivable on Deposit of Earnings, Federal Reserve System,
represents the earnings due to the U.S. Treasury as of September 30, but not collected by the U.S.
Treasury until after the end of the month.
I. Property, Plant, and Equipment
General
Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services.
It also includes assets acquired through capital leases, which are initially recorded at the amount
recognized as a liability for the capital lease at its inception. PP&E is stated at full cost, including costs
related to acquisition, delivery, and installation, less accumulated depreciation. Major alterations and
renovations including leasehold and land improvements are capitalized, while maintenance and repair
costs are charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding significant
new functionality and long-term benefits. Costs for developing internal use software are accumulated in
work in development until a project is placed into service, and testing and final acceptance are successfully
completed. Once completed, the costs are transferred to depreciable property.

Costs for construction projects are recorded as construction-in-progress until completed, and are valued at
actual (direct) cost, plus applied overhead and other indirect costs.

The Department leases land and buildings from the General Services Administration (GSA) to conduct
most of its operations. GSA charges a standard level users fee which approximates commercial rental
rates for similar properties. Therefore, GSA-owned properties are not included in the Department’s
PP&E.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the
Department’s capitalization policy provides minimum capitalization thresholds which range from $25,000
to $50,000. The Department also uses a capitalization threshold range for bulk purchases: $250,000 to
$500,000 for non manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus
determine the individual items that comprise bulk purchases based on Departmental guidance. In addition,
the Department’s bureaus may expense bulk purchases if they conclude that total period costs would not
be materially distorted and the cost of capitalization is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the
exception of leasehold improvements and capital leases. Leasehold improvements are depreciated over
the term of the lease or the useful life of the improvement, whichever is shorter. Capital leases are
depreciated over the estimated life of the asset or term of the lease, depending on the conditions met for
capitalization. Service life ranges (2-50 years) are high due to the Department’s diversity of PP&E.
Construction in progress and internal use software in development are not depreciated.
Heritage Assets
The Department owns the Treasury Complex (Main Treasury and Treasury Annex)— a multi-use heritage

                                These notes are an integral part of the financial statements.
                                                                    7
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

asset. The buildings housing the United States Mint facilities in Denver, San Francisco, and West Point,
are also considered multi-use heritage assets. Multi-use heritage assets are assets of historical significance
for which the predominant use is general government operations. All acquisition, reconstruction, and
betterment costs for the Treasury buildings are capitalized as general PP&E and depreciated over their
service life.
J. Non-Entity Government-Wide Cash
Non-entity government-wide cash is held in depositary institutions and Federal Reserve accounts.
Agencies can deposit funds that are submitted to them directly into either a Federal Reserve Treasury
General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are transferred
to the Federal Reserve Bank of New York (FRBNY)’s TGA at the end of each day.

Operating Cash of the U.S. Government represents balances from tax collections, customs duties, other
revenue, federal debt receipts, and other various receipts net of cash outflows for budget outlays and other
payments held in the Federal Reserve Banks, foreign and domestic financial institutions, and in U.S.
Treasury Tax and loan accounts. Outstanding checks are netted against operating cash until they are
cleared by the Federal Reserve System.

The TGA is maintained at the FRBNY and functions as the government’s checking account for deposits
and disbursements of public funds. The Treasury Tax and Loan (TT&L) program includes about 9,000
depositories that accept tax payments and remit them the day after receipt to FRBNY’s TGA. Certain
TT&L depositories also hold Non-entity Government-wide Cash in interest bearing accounts. Cash in the
TGA and the TT&L program is restricted for Government-wide operations.

U.S. Treasury Tax and Loan Accounts include funds invested through the Term Investment Option
program and the Repo program. Under the Term Investment Option program Treasury auctions funds for
a set term, usually in the range of one day to three weeks. Under the Repo program, the Department
invests funds through overnight reverse repurchase agreements. However, under both programs, the
Department reserves the right to call the funds prior to maturity under special circumstances. These
investments programs where suspended in fiscal year 2010.

The Supplementary Financing Program (SFP) Account is maintained at FRBNY. SFP is a temporary
program announced by the Department and the Federal Reserve on September 17, 2008, to provide
emergency cash for Federal Reserve initiatives aimed at addressing the ongoing crisis in financial
markets. The program consists of a series of Treasury bills, apart from the Department’s current
borrowing program.
K. Federal Debt
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as
expenses when incurred, instead of when paid. Certain Treasury securities are issued at a discount or
premium. These discounts and premiums are amortized over the term of the security using an interest
method for all long- term securities and the straight-line method for short-term securities. The Department
also issues Treasury Inflation-Protected Securities (TIPS). The principal for TIPS is adjusted daily over
the life of the security based on the Consumer Price Index for all Urban Consumers.



                                These notes are an integral part of the financial statements.
                                                                    8
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

L. Loan Commitments
The FFB recognizes loan commitments when the FFB and the other parties fully execute the promissory
notes and reduces loan commitments when the FFB issues loans or when the commitments expire. Most
obligations of the FFB give a borrower the contractual right to a loan or loans immediately or at some
point in the future. The FFB limits the time available for a loan under an obligation, where applicable.
M. Pension Costs, Other Retirement Benefits, and Other Post-Employment Benefits
The Department recognizes the full costs of its employees’ pension benefits. However, the liabilities
associated with these costs are recognized by the Office of Personnel Management (OPM) rather than the
Treasury.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service
Retirement System (CSRS), to which the Department contributes a fixed percentage of pay.

On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect pursuant to
Public Law 99-335. Employees hired after December 31, 1983, are automatically covered by FERS and
Social Security. A primary feature of FERS is that it offers a savings plan to which the Department
automatically contributes 1 percent of base pay and matches any employee contributions up to an
additional 4 percent of base pay. For most employees hired after December 31, 1983, the Department also
contributes the employer’s matching share for Social Security. For the FERS basic benefit, the
Department contributes 11.2 percent for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Treasury, reports the liability for future
payments to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and Federal Employees Group Life Insurance (FEGLI) Program. The Department reports the
full cost of providing other retirement benefits (ORB). The Department also recognizes an expense and
liability for other post-employment benefits (OPEB), which includes all types of benefits provided to
former or inactive (but not retired) employees, their beneficiaries, and covered dependents. Additionally,
the Department’s bureaus, OCC and OTS, separately sponsor certain benefit plans for their employees.
OCC sponsors a defined life insurance benefit plan for current and retired employees. Additionally, OTS
provides the Financial Institution Retirement Fund (FIRF) private defined retirement benefit plan to
certain employees as well as certain health and life insurance benefits for all retired employees that meet
eligibility requirements. Effective January 1, 1993, OTS adopted SFAS No. 106 to account for its share of
the cost of life insurance.
N. Special Drawing Rights (SDRs)
The ESF was established for use by the Secretary of the Treasury to account for the purchase or sale of
foreign currencies, to hold Special Drawing Rights (SDRs) holdings, and to provide financing to foreign
governments. SDRs transactions of the ESF require the explicit authorization of the Secretary of the
Treasury.

The International Monetary Fund (IMF) has authority to cancel, in part or in whole, SDRs created under
previous allocations. Decisions of the IMF to cancel SDRs are adopted by the IMF’s Board of Governors
on a basis of proposal by the IMF Managing Director, with concurrence by the IMF Executive Board. The


                               These notes are an integral part of the financial statements.
                                                                   9
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

same majority requirements as those for allocations apply to the Executive Board’s concurrence and to
the Board of Governor’s decision on an SDRs cancellation proposal.

Allocations and Holdings
Allocations of SDRs are recorded as assets and liabilities. The liabilities represent the amount that is
payable in the event of liquidation of, or U.S. withdrawal from, the SDRs department of the IMF, or
cancellation of the SDRs.

SDRs holdings represent transactions resulting from ESF SDRs activities. These activities are primarily
the result of IMF allocations. Other transactions reported in this account are recorded as incurred. They
include SDRs acquisitions and sales, interest received on SDRs holdings, interest charges on SDRs
allocations, and valuation adjustments. The U.S. Government receives remuneration in SDRs from the
IMF. This is based on claims on the IMF, represented by the U.S. Reserve Position. The allocations and
holdings are revalued monthly based on the SDRs valuation rate calculated by the IMF.

Certificates
The SDRs Act of 1968 authorized the Secretary of the Treasury to issue certificates, not to exceed the
value of SDRs holdings, to the Federal Reserve Banks in return for interest-free dollar amounts equal to
the face value of certificates issued. The certificates may be issued to finance the acquisition of SDRs
from other countries or to provide resources for financing other ESF operations. Certificates issued are to
be redeemed by the Treasury at such times and in such amounts as the Secretary may determine.
Certificates issued to Federal Reserve Banks are reported at their face value. It is not practical to estimate
the fair value of certificates issued to Federal Reserve Banks, since these certificates contain no specific
terms of repayment.
O. Federal Employee Benefits Payable—FECA Actuarial Liability
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered federal civilian employees injured on the job, and employees who have incurred a work-related
injury or occupational disease. The FECA program is administered by the U.S. Department of Labor
(DOL), which pays valid claims and subsequently seeks reimbursements from the Treasury for these paid
claims. Generally, the Department reimburses DOL within two to three years once funds are appropriated.
These future workers’ compensation estimates are generated by applying actuarial procedures developed
to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
P. Annual, Sick, and Other Leave
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as
an accrued liability. The accrued balance is adjusted annually to current pay rates. Any portion of the
accrued leave, for which funding is not available, is recorded as an unfunded liability. Sick and other
leave are expensed as taken.
Q. Revenue and Financing Sources
The Department’s activities are financed either through exchange revenue it receives from others or
through non-exchange revenue and financing sources (such as appropriations provided by the Congress


                                These notes are an integral part of the financial statements.
                                                                    10
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

and penalties, fines, and certain user fees collected). User fees primarily include IRS reimbursable costs to
process installment agreements and accompanying photocopy and reproduction charges. Exchange
revenues are recognized when earned; i.e., goods have been delivered or services have been rendered.
Non-exchange revenues are recognized when received by the respective Treasury collecting bureau.
Appropriations used are recognized as financing sources when related expenses are incurred or assets are
purchased. Revenue from reimbursable agreements is recognized when the services are provided. The
Department also incurs certain costs that are paid in total or in part by other federal entities, such as
pension costs. These subsidized costs are recognized on the Consolidated Statement of Net Cost, and the
imputed financing for these costs is recognized on the Consolidated Statement of Changes in Net
Position. As a result, there is no effect on net position. Other non-exchange financing sources such as
donations and transfers of assets without reimbursements also are recognized for the period in which they
occurred on the Consolidated Statement of Changes in Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange
revenue on the Consolidated Statement of Changes in Net Position. The costs related to the Forfeiture
Fund program are reported on the Consolidated Statement of Net Cost.

In accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial
Cost Accounting Standards and Concepts, the material imputed inter-departmental financing sources
currently recognized by the Department include the actual cost of future benefits for the federal pension
plans that are paid by other federal entities, the Federal Employees Health Benefits Program (FEHBP),
and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the Department.
R. Custodial Revenues and Collections
Non-entity revenue reported on the Department’s Statement of Custodial Activity includes cash collected
by the Department, primarily from taxes. It does not include revenue collected by other federal agencies,
such as user fees and other receipts, which are remitted for general operating purposes of the U.S.
Government or are earmarked for certain trust funds. The Statement of Custodial Activity is presented on
the “modified accrual basis.” Revenues are recognized as cash is collected. The “accrual adjustment” is
the net increase or decrease, during the reporting period, in net revenue related-assets and liabilities,
mainly taxes receivable. The Balance Sheets include an estimated amount for taxes receivable and
payable to the General Fund of the U.S. Government at September 30, 2010 and September 30, 2009.
S. Tax Assessments, Abatements, and Refunds Payable
Under Internal Revenue Code Section 6201, the Department is authorized and required to make inquiries,
determinations, and assessments of all taxes which have not been duly paid (including interest, additions
to the tax, and assessable penalties) under the law. Unpaid assessments result from taxpayers filing
returns without sufficient payment, as well as from tax compliance programs such as examination, under-
reporter, substitute for return, and combined annual wage reporting. The Department also has authority to
abate the paid or unpaid portion of an assessed tax, interest, and penalty. Abatements occur for a number
of reasons and are a normal part of the tax administration process. Abatements may result in claims for
refunds or a reduction of the unpaid assessed amount.

Refunds payable arise in the normal course of tax administration when it is determined that taxpayers


                                These notes are an integral part of the financial statements.
                                                                    11
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

have paid more than the actual taxes that they owe. Amounts that the Department has concluded to be
valid refunds owed to taxpayers are recorded as a liability (Refunds Payable on the Balance Sheet), with a
corresponding receivable from the General Fund. This receivable is included on the Balance Sheet in the
line entitled “Due from the General Fund.”
T. Permanent and Indefinite Appropriations
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax
credits. These appropriations are not subject to budgetary ceilings established by Congress. Therefore,
refunds payable at year end are not subject to funding restrictions. Refund payment funding is recognized
as appropriations are used. Permanent indefinite authority for refund activity is not stated as a specific
amount and is available for an indefinite period of time. Although funded through appropriations, refund
activity, in most instances, is reported as a custodial activity of the Department, since refunds are, in
substance, a custodial revenue-related activity resulting from taxpayer overpayments of their tax
liabilities.

The Department also receives two permanent and indefinite appropriations related to debt activity. One is
used to pay interest on the public debt securities; the other is used to redeem securities that have matured,
been called, or are eligible for early redemption. These accounts are not annual appropriations and do not
have refunds. Debt activity appropriations are related to the Department’s liability and are reported on the
Department’s Balance Sheet. Permanent indefinite authority for debt activity is available for an indefinite
period of time.

The Department receives permanent indefinite appropriations annually to fund increases in the projected
subsidy costs of credit programs as determined by the reestimation process required by the FCRA.

Additionally, the Department receives other permanent and indefinite appropriations to make certain
payments on behalf of the U.S. Government. These appropriations are provided to make payments to the
Federal Reserve Banks for fiscal services provided and to the financial institutions for services provided
as Financial Agents of the U.S. Government. They also include appropriations provided to make other
disbursements on behalf of the U.S. Government, including payments made to various parties as the result
of certain claims and judgments rendered against the United States.
U. Income Taxes
As an agency of the Federal Government, the Department is exempt from all income taxes imposed by
any governing body, whether it is a federal, state, commonwealth, local, or foreign government.
V. Use Of Estimates
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities,
revenues, expenses, and the disclosure of contingent liabilities to prepare these financial statements.
Actual results could differ from these estimates. Significant transactions subject to estimates include loan
receivables; investments in non-federal securities and related impairment; tax receivables; loan
guarantees; depreciation; liability for liquidity commitment to GSEs; imputed costs; actuarial liabilities;
cost and earned revenue allocations; contingent legal liabilities; and credit reform subsidy costs.

The loan receivables mentioned above include mortgage-backed securities (MBS) issued by the GSEs and


                                These notes are an integral part of the financial statements.
                                                                    12
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

GSE obligations obtained under the programs of the Housing Finance Agency (HFA) Initiative, which
include securities issued under the New Issue Bond Program (NIBP), and participation interests in
liquidity facilities obtained under the Temporary Credit and Liquidity Program (TCLP). Other loan
receivables exist as part of TARP. Investments in non-federal securities have been made in the GSEs and
other domestic public entities.

The Department recognizes the sensitivity of credit reform modeling to slight changes in some model
assumptions and uses regular review of model factors, statistical modeling, and annual re-estimates to
reflect the most accurate cost of the credit programs to the U.S. Government. The Department currently
accounts for the GSE MBS purchase program and the two programs of the HFA Initiative (the NIBP and
TCLP) under the provisions of credit reform and the use of estimates is dictated by the Federal Credit
Reform Act. Additionally, all TARP credit activity, including investments in common and preferred stock
and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities, are
also subject to credit reform subsidy cost estimates.

The forecasted cash flows used to determine these amounts as of September 30, 2010, are sensitive to
slight changes in model assumptions, such as general economic conditions, specific stock price volatility
of the entities in which the Department has an equity interest, estimates of expected default, and
prepayment rates. Forecasts of financial results have inherent uncertainty. The TARP Direct Loans and
Equity Investments, Net, and Asset Guarantee Program line items as of September 30, 2010, are reflective
of relatively illiquid, troubled assets whose values are particularly sensitive to future economic conditions
and other assumptions. Additional discussion related to sensitivity analysis can be found in the
Management’s Discussion and Analysis section of this Performance and Accountability Report.

The GSE Preferred Stock Purchase Agreements (PSPAs) provide that the Department will increase its
investment in the GSEs’ senior preferred stock if at the end of any quarter the Federal Housing Finance
Agency (FHFA), acting as the conservator, determines that the liabilities of either GSE, individually,
exceed its respective assets. Based on U.S. GAAP, these contingent liquidity commitments, predicated on
the future occurrence of any shareholders’ deficits of the GSEs at the end of any reporting quarter, are
potential liabilities of the Department. The Department performs annual valuations, as of September 30th,
of the preferred stock and warrants to attempt to provide a “sufficiently reliable” estimate of the
outstanding commitments in order for the Department to record the remaining liability in accordance with
SFFAS 5.

The valuations incorporated various forecasts, projections and cash flow analyses to develop an estimate
of potential liability. Any changes in valuation, including impairment, are recorded and disclosed in
accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources. Since the
valuation is an annual process, the change in valuation of the preferred stock and warrants are deemed
usual and recurring. Accordingly, since the costs of preferred stock and warrants are exchange
transactions, any changes in valuation are recorded as a non-entity exchange transaction that is either an
expense or revenue. Dividends are also recorded as non-entity exchange transactions and are accrued
when declared; therefore, no accrual is made for future dividends. The GSEs contingent liability is
assessed annually and recorded at the gross estimated amount, without considering the increase in
preferred stock liquidity preference, future dividend payments, or future commitment fees, due to the
uncertainties involved. Estimation of such complex and long duration contingencies is subject to

                                These notes are an integral part of the financial statements.
                                                                    13
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

uncertainty, and it is possible that new developments adversely impact ultimate amounts required to be
funded by Treasury under the Senior Preferred Stock Purchase Agreement. Specifically, the occurrence
of future shareholder deficits, which ultimately determines our GSE Contingent Liability, are most
sensitive to future changes in the housing price index.

It is possible that the results of operations, cash flows or financial position of Treasury, could be
materially affected in future periods by adverse changes in the outlook for the key assumptions
underlying management’s estimates.
W. Credit Risk
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or
counterparty to perform in accordance with underlying contractual obligations. The Department takes on
possible credit risk when it makes direct loans or credits to foreign entities or becomes exposed to
institutions which engage in financial transactions with foreign countries. Given the history of the
Department with respect to such exposure and the financial policies in place in the U.S. Government and
other institutions in which the United States participates, the Department expectation of credit losses is
nominal.

The Department also takes on credit risk related to committed but undisbursed direct loans, its liquidity
commitment to the GSEs, its MBS portfolio; its GSE obligations obtained under the HFA Initiative (the
NIBP and TCLP); investments, loans, and asset guarantees of the TARP, and its Terrorism Risk
Insurance Program. Except for the Terrorism Risk Insurance Program, these activities focus on the
underlying problems in the credit markets, and the ongoing instability in those markets exposes the
Department to potential costs and losses. The extent of the risk assumed by the Department is described in
more detail in the notes to the financial statements, and, where applicable, is factored into credit reform
models and reflected in fair value measurements.

In addition, for EESA programs, the statute requires that the budgetary costs of the troubled assets and
guarantees of troubled assets be calculated by adjusting the discount rate for market risks. Within the
TARP programs, the Department has invested in many assets that would traditionally be held by private
investors and their valuation would inherently include market risk. Thus, for all TARP direct loan, asset
guarantee, and equity purchase programs, the Department calculates a Market Risk Adjusted Discount
Rate (MRADR). Therefore, the Department’s cost estimates for the TARP programs are adjusted for
unexpected loss and the estimated risk of expected cash flows. Under SFFAS No. 2, including market risk
in the cash flow estimates is consistent with the type of assets being valued. The inclusion of the MRADR
is the mechanism for providing the fair value of the assets.
X. Earmarked Funds
The Department has accounted for revenues and other financing sources for earmarked funds separately
from other funds. Earmarked funds are financed by specifically identified revenues, often supplemented
by other financing sources, which remain available over time. These specifically identified revenues and
other financing sources are required by statute to be used for designated activities or purposes. SFFAS
No. 27, Identifying and Reporting Earmarked Funds, defines the following three criteria for determining
an earmarked fund: (1) A statute committing the Federal Government to use specifically identified


                               These notes are an integral part of the financial statements.
                                                                   14
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

revenues and other financing sources not used in the current period for future use to finance the
designated activities, benefits, or purposes; (2) Explicit authority for the earmarked fund to retain
revenues and other financing sources not used in the current period for future use to finance the
designated activities, benefits, or purposes; and (3) A requirement to account for and report on the receipt,
use, and retention of the revenues and other financing sources that distinguished the earmarked fund from
the Federal Government’s general revenues.
Y. Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent)
entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its
authority to obligate budget authority and outlay funds to another department. A separate fund account
(allocation account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and subsequent
obligations and outlays incurred by the child entity are charged to this allocation account as they execute
the delegated activity on behalf of the parent. Beginning in fiscal year 2007, parent federal agencies report
both the proprietary and budgetary activity and the child agency does not report any financial activity
related to budget authority allocated from the parent federal agency to the child federal agency.

The Department allocates funds, as the parent, to the Department of Energy. OMB allows certain
exceptions to allocation reporting for certain funds. Accordingly, the Department has reported certain
funds for which the Department is the child in the allocation transfer, but in compliance with OMB
guidance (A-136, III.4.2, section 5, for three exceptions), will report all activities relative to these
allocation transfers in the Department’s financial statements. Also, the Department receives allocation
transfers, as the child, from the Agency for International Development, General Services Administration,
and Department of Transportation. The Department had no significant allocation transfers to report in
fiscal years 2010 and 2009.
Z. Credit Reform Accounting
The authoritative guidance for the credit reform portion of these statements is contained primarily in
SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19,
Technical Amendments to Accounting Standards for Direct Loans and Loan Guarantees. This guidance
was promulgated as a result of the Federal Credit Reform Act of 1990 (FCRA).

The FCRA requires that the ultimate costs of a credit program be calculated, and the budgetary resources
obtained, before the direct loan obligations are incurred. The cost of loan guarantee programs is the net
present value of the estimated future cash flows from payments (for claims and interest rate subsidies).
The primary purpose of the FCRA, which became effective on October 1, 1991, is to more accurately
measure the cost of federal credit programs and to place the cost of such credit programs on a basis
equivalent with other federal spending.

SFFAS No. 2, which generally mirrors the requirements of the FCRA, established guidance for estimating
the cost of direct and guaranteed loan programs, asset guarantees, as well as for recording direct loans
and liabilities for loan guarantees for financial reporting purposes. SFFAS No. 2 states that the actual and


                                These notes are an integral part of the financial statements.
                                                                    15
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2010

expected costs of federal credit programs should be fully recognized in both budgetary and financial
reporting. To accomplish this, agencies first predict or estimate the future performance of direct and
guaranteed loans when preparing their annual budgets. The data used for these budgetary estimates are
reestimated after the fiscal year-end to reflect changes in actual loan performance and actual interest rates
in effect when the loans were issued. The data used for these estimates were reestimated at the fiscal year-
end to reflect adjustments for market risks, asset performance and other key variables and economic
factors. The reestimated data are then used to report the cost of the loans disbursed under the direct or
guaranteed loan program as a “Program Cost” in the agencies’ Statement of Net Cost.

The FCRA establishes budgetary and financing control for each credit program through the use of the
program, financing and subsidy receipt accounts for direct loans obligated after September 30, 1991.
These accounts are classified as either budgetary or non-budgetary in the Combined Statements of
Budgetary Resources. The budgetary accounts include the program accounts and receipt accounts. The
non-budgetary accounts consist of the credit reform financing accounts.

The program account is a budget account that receives and obligates appropriations to cover the subsidy
cost of a direct loan or guarantee and disburses the subsidy cost to the financing account. The program
account also receives appropriations for administrative expenses. The financing account is a non-
budgetary account that records all of the cash flows resulting from Credit Reform direct loans, loan
guarantees, or asset guarantees. It disburses loans, collects repayments and fees, makes claim payments,
holds balances, borrows from BPD, earns or pays interest, and receives the subsidy cost payment from the
program account.

The General Fund receipt account is a budget account used for the receipt of amounts paid from the
financing account when there is a negative subsidy or negative modification from the original estimate or
a downward reestimate. They are available for appropriations only in the sense that all General Fund
receipts are available for appropriations. Any assets in this account are non-entity assets and are offset by
Intra-governmental liabilities. At the end of the fiscal year, the fund balance transferred to the U.S.
Treasury through the General Fund receipt account is no longer included in the Department’s fund
balance reporting.

The Department accounts for the following programs in accordance with FCRA and the provisions under
the FASAB accounting standard SFFAS No. 2, as amended:

TARP Direct Loans, Equity Investments and Asset Guarantee Program
The FCRA provided for the use of program, financing, and general fund receipt accounts to separately
account for activity related to loans and guarantees. These accounts are classified as either budgetary or
non-budgetary in the Statement of Budgetary Resources. The budgetary accounts include the program and
general fund receipt accounts, and the non-budgetary accounts consist of the credit reform financing
accounts.

As discussed previously, the Department accounts for the cost of purchases of troubled assets and
guarantees of troubled assets, and any cash flows associated with authorized activities in accordance with
Section 123(a) of the EESA and the FCRA for budgetary accounting and SFFAS No. 2 for financial
reporting, except for the Treasury Housing Programs Under TARP.


                                These notes are an integral part of the financial statements.
                                                                    16
                                        U.S. Department of the Treasury
                                  Government-wide Financial Reporting System
                           Additional Notes to the Special Purpose Financial Statements
                                                September 30, 2010

The authoritative guidance for financial reporting is primarily contained in the SFFAS No. 2, as amended
by the SFFAS No. 18, Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and
the SFFAS No. 19, Technical Amendments to Accounting Standards for Direct Loans and Loan
Guarantees.

In accordance with SFFAS No. 2, the Department maintains program accounts which receive
appropriations and obligate funds to cover the subsidy cost of direct loans, equity investments and asset
guarantees, and disburses the subsidy cost to the Department financing accounts. The financing accounts
are non-budgetary accounts that are used to record all of the cash flows resulting from the Department
direct loans, equity investments and asset guarantees. 3 Cash flows include disbursements, repayments,
repurchases, fees, recoveries, interest, dividends, proceeds from the sale of stock and warrants,
borrowings from Treasury, negative subsidy and the subsidy cost received from the program accounts.

The financing arrangements specifically for the TARP activities are provided for in the EESA as follows:
(1) Borrowing for program funds under Section 118 that constitute appropriations when obligated or
spent, which are reported as “appropriations” in these financial statements; (2) borrowing by financing
accounts for non-subsidy cost under the FCRA and Section 123; and (3) the Troubled Assets Insurance
Financing Fund (TAIFF) under Section 102(d).

The Department uses general fund receipt accounts to record the receipt of amounts paid from the
financing accounts when there is a negative subsidy or negative modification (a reduction in subsidy cost
due to changes in program policy or terms that change estimated future cash flows) from the original
estimate or a downward reestimate. Amounts in the general fund receipt accounts are available for
appropriations only in the sense that all general fund receipts are available for appropriations. Any assets
in these accounts are non-entity assets and are offset by intra-governmental liabilities. At the end of the
fiscal year, the fund balance transferred to the U.S. Treasury through the general fund receipt account is
closed and therefore no longer included in the Department’s fund balance reporting.

The SFFAS No. 2 requires that the actual and expected costs of federal credit programs be fully
recognized in financial reporting. The Department calculated and recorded an initial estimate of the future
performance of direct loans, equity investments, and asset guarantees. The data used for these estimates
were reestimated at the fiscal year-end to reflect adjustments for market risk, asset performance, and other
key variables and economic factors. The reestimate data was then used to estimate and report the
“Subsidy Cost” in the Statement of Net Cost.

GSE MBS Purchase Program
The Department purchases mortgage-backed pass-through securities through the Government Sponsored
Enterprise Mortgage-Backed Securities (GSE MBS) Purchase Program. The purchase authority under this
Program expired December 31, 2009. Consistent with the FCRA, these securities are treated as direct
loans, and the value of the Department’s position and the associated credit subsidy requirements are

3
    For the Asset Guarantee Program, the Department has established the Troubled Assets Insurance Financing Fund, which is the program’s
    financing account under the FCRA, as required by Section 102(d) of the EESA.




                                         These notes are an integral part of the financial statements.
                                                                             17
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

determined based on the net present value of the securities’ forecasted future cash flows. The Department
estimates nominal future cash flows using a financial model that incorporates each security’s payment
characteristics together with assumptions about the future prepayment, default, and loss severity
performance of underlying loan collateral and the GSEs’ ability to uphold their guarantee. Nominal cash
flow forecasts are discounted at interest rates of Treasury securities with comparable maturities using the
Office of Management and Budget’s Credit Subsidy Calculator. Cash flows are estimated under the
assumption that all securities will be held to maturity.

Security-level data used as the basis for cash flow model forecasts are obtained directly from Treasury’s
program custodian. Assumptions about security and program performance are drawn from widely
available market sources as well as information published by the GSEs. Key inputs to the cash flow
forecast include:
  Security characteristics such as unpaid principal balance, pass-through coupon rate, weighted-average
    loan age, and weighted-average maturity
  Forecast prepayment rates and default rates

State and Local Housing Finance Agency Initiative
Under the Housing and Economic Recovery Act of 2008 (HERA), the Department, together with the
Federal Housing Finance Agency (FHFA), Fannie Mae, Freddie Mac, and the Department of Housing and
Urban Development announced in October 2009 an initiative to provide support to state and local housing
finance agencies (HFAs). HFAs have historically played a central role in providing a safe, sustainable
path to homeownership for working families in all 50 states and many localities across the country. This
initiative is designed to support low mortgage rates and expand resources for low and middle income
borrowers to purchase or rent homes, making them more affordable over the long term. In December
2009, several transactions closed as part of the HFA Initiative’s two separate HFA programs: (1) the New
Issue Bond Program (NIBP) and (2) the Temporary Credit and Liquidity Program (TCLP).

Security-level data used as the basis for the NIBP cash flow model forecasts are obtained directly from
the Department’s program custodian. Assumptions about security and program performance are drawn
from information published in the fiscal year 2009 FHA Actuarial Review of the Mutual Mortgage
Insurance Fund and default and recovery reports published by Moody’s and S&P. Key inputs to the NIBP
cash flow forecast include:
  Security characteristics such as issued bond balance, coupon rate, credit rating, maturity date, and
    principal and interest payment schedules
  Forecast prepayment, and loss rates
  Expected escrow conversion & return rates

No TCLP disbursements have occurred as of September 30, 2010. In accordance with OMB Circular A-
11, the Department did not perform a fiscal year 2010 subsidy reestimate for TCLP since there was no
disbursement as of September 30, 2010.
AA. Fiduciary Activities
In accordance with SFFAS No. 31, Accounting for Fiduciary Activities, fiduciary type activities and


                               These notes are an integral part of the financial statements.
                                                                   18
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

related transactions will no longer be reported by the Department in its proprietary financial statements.
Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment,
and disposition by the Federal Government of cash or other assets in which non-Federal individuals or
entities have an ownership interest that the Federal Government must uphold. Fiduciary cash and other
assets are not assets of the Federal Government. While these activities are no longer reported in the
proprietary financial statements, they are required to be reported on schedules in the notes to general-
purpose financial statements.
AB. Related Parties
The primary “related parties” with whom the Department conducts business are other federal agencies,
mainly through the normal lending activities of the BPD and the Federal Financing Bank. These activities
are disclosed in these financial statements. The Department utilizes the services of the Federal Reserve to
execute a variety of transactions on behalf of the BPD and the Exchange Stabilization Fund. The Federal
Reserve is serving as the Department’s fiscal agent in executing these transactions and receives fees for
its services. The Department also consults with the Federal Reserve on matters affecting the economy,
such as the structuring of bailout financing for American International Group and other companies
affected by the current economic situation. However, these actions do not involve transactions between
the Department and the Federal Reserve.

Finally, the Secretary of the Treasury serves on the FHFA Oversight Board, and consults with the
Director of FHFA in matters involving Fannie Mae and Freddie Mac. This provides the Department a
voice in the FHFA’s actions as the conservator for Fannie Mae and Freddie Mac, and thus some influence
over major decisions involving Fannie Mae and Freddie Mac. The Department has no transactions with
FHFA; transactions and balances arising from transactions with Fannie Mae and Freddie Mac are
accounted for and disclosed in these financial statements.
AC. Reclassifications
Certain fiscal year 2009 balances on the Balance Sheet and notes to the financial statements have been
reclassified to conform to fiscal year 2010 presentations. In fiscal year 2010, certain Balance Sheet
amounts were aggregated and reclassified, whereas in fiscal year 2009 they were reported disaggregated.
Amounts related to the TARP program were disaggregated in fiscal year 2009. The changes to aggregate
and reclassify amounts were made to conform to how TARP is presented on the OFS stand-alone and
Financial Report of the U.S. Government levels. In fiscal year 2010, the CDFI direct loans began to be
disclosed in the credit reform footnote.
AD. D.C. Pensions and Judicial Retirement Actuarial Liability

Pursuant to Title XI of the Balanced Budget Act of 1997, as amended (the Act), on October 1, 1997, the
Department became responsible for certain District of Columbia retirement plans. The Act was intended
to relieve the District of Columbia government of the burden of unfunded pension liabilities transferred to
the District by the U.S. Government in 1979. To fulfill its responsibility, the Department manages two
funds—the D.C. Teachers’, Police Officers’, and Firefighters’ Federal Pension Fund (the D.C. Federal
Pension Fund) and the District of Columbia Judicial Retirement and Survivors’ Annuity Fund (the
Judicial Retirement Fund). The Department is required to make annual amortized payments from the


                               These notes are an integral part of the financial statements.
                                                                   19
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

General Fund of the U.S. Government to the D.C. Federal Pension Fund and the Judicial Retirement
Fund. The D.C. Federal Pension Fund benefit payments and administrative expenses are related to
benefits earned based upon service on or before June 30, 1997. The actuarial cost method used to
determine costs for the retirement plans is the Aggregate Entry Age Normal Actuarial Cost Method. The
actuarial liability is based upon long term assumptions selected by the Department. The Department is
also responsible for other smaller pension plans administered by the Office of Thrift Supervision and
Office of the Comptroller of the Currency. The pension benefit costs incurred by the plans are included on
the Consolidated Statements of Net Cost.

Effective in fiscal year 2010 FASAB issued SFFAS 33, Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and Selecting
Discount Rates and Valuation Dates, which requires disclosure of the components of the expense
associated with federal employee pension, ORB, and OPEB liabilities in the notes to the financial
statement. SFFAS 33 also provides a standard for selecting the discount rate assumption for present value
estimates of federal employee pension, ORB, and OPEB liabilities.

AE. American International Group, Inc. Investment Program (AIG)

On September 30, 2010, the Department, Federal Reserve Bank of New York and AIG announced plans
for a restructuring of the Federal Government’s investments in AIG. The restructuring plan provides for,
among other items, the conversion of currently outstanding Series E & F preferred stock to 1,092 million
shares of AIG common stock. Under the plan the current undrawn portion of Series F will be available to
AIG for the repayment of certain amounts owed to the Federal Reserve Bank of New York and for
general corporate liquidity. The plan is still subject to a number of conditions which must be met in order
to close. The Department’s management believes that implementation of this plan would not result in
additional losses on the AIG investment. See additional discussion regarding the proposed restructuring
plan within the Management’s Discussion and Analysis section of the Performance and Accountability
Report.
AF. Changes in 2009 Numbers

In 2009, $4,336 was reported in FR Note Report No. 28A Line "Revenue Recognized From Acquisition
of Preferred Stocks and Warrants". This amount should have been $57,647. Therefore, the amount for
FY 2009 has been changed in the FY 2010 Special Purpose Financial Statement to $57,647 (the amount
for FY 2010 is $44,536). This amount is the net of the revenue recognized on the FY09 increase in
liquidation preference of the senior preferred stock, and the valuation loss on the total liquidation
preference as of September 30, 2009.

AG. New Arrangements to Borrow (NAB)
Public Law 111-32, Supplemental Appropriations Act of 2009, provided the authorization and
appropriations for an increase in the United States participation in the NAB by the dollar equivalent of
Special Drawing Rights (SDR) 75,000 million which at the SDR/dollar exchange rate applicable on
September 30, 2010 is equivalent to $116,714 million. However, this increase in the United States
participation in the NAB is not effective as of September 30, 2010 and will not come into effect until all


                               These notes are an integral part of the financial statements.
                                                                   20
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2010

IMF member countries participating in the NAB submit notification of their consent to modifications to
the decision governing the NAB and to their new SDR commitments to the NAB. Although $119,000
million was appropriated under Public Law 111-32, the United States publicly stated that it would limit its
commitment to $100,000 million and agreed to a final commitment – which has not yet come into effect -
of SDR 69,074.27 million (from SDR 6,639.83 million) on May 10, 2010 pursuant to IMF Executive
Board Decision No. 14577-(10/35) adopted April 12, 2010. As with the quota increase, the new portion of
the NAB will be subject to the FCRA and treated as a direct loan. Similarly, this will not affect the
treatment of the reserve position in the IMF, only the budget presentation.




                               These notes are an integral part of the financial statements.
                                                                   21
                                                             U.S.Department of the Treasury                              11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2010-SEPTEMBER        2009-SEPTEMBER
 BS              Accounts Receivable                              A                   D                        361                   298
                                                                                 Variance:                          0                     0

Trading          Name                           Status 2010-SEPTEMBER      2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     12                         9                    9                     0
 1300 Department of Commerce                                         1                         1                    1                     0
 1400 Department of the Interior                                    18                        18                   18                     0
 2800 Social Security Administration                                 7                        10                   10                     0
 3600 DEPARTMENT OF VETERANS                                         8                        20                   20                     0
        AFFAIRS
 4700 General Services Administration                              128                       102                  102                     0
 4900 National Science Foundation                                    1                         1                    1                     0
 6800 Environmental Protection Agency                                0                         4                    4                     0
 7000 Department of Homeland Security                                1                         1                    1                     0
 7500 Department of Health and Human                                52                        50                   50                     0
        Services
 9500 Independent and Other Agencies                                 1                         0                    0                     0
 DE00 Department of Defense                                        132                        82                   82                     0
                                  Total                            361                       298                  298                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                             11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB          2010-SEPTEMBER        2009-SEPTEMBER
 BS              Advances to Others and Prepayments               A                   D                        3                     5
                                                                                 Variance:                         0                     0

Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER         Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                     0                       1                     1                     0
 1800 United States Postal Service                                   1                       1                     1                     0
 4700 General Services Administration                                0                       1                     1                     0
 9500 Independent and Other Agencies                                 1                       1                     1                     0
 DE00 Department of Defense                                          1                       1                     1                     0
                                  Total                              3                       5                     5                     0

Agency FS Status CP Line Description                              Account Type        NB          2010-SEPTEMBER        2009-SEPTEMBER
 BS              Federal Investments                              A                   D                       815                    0
                                                                                 Variance:                         0                     0

Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER         Previously Reported    Line item Changes
Partner
 5100 Federal Deposit Insurance Corporation                        815                       0                     0                     0
                                  Total                            815                       0                     0                     0




                                                                          -2-
                                                             U.S.Department of the Treasury                              11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2010-SEPTEMBER        2009-SEPTEMBER
 BS              Interest Receivable                              A                   D                        413                   677
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     53                        54                   54                     0
 1400 Department of the Interior                                   183                       328                  328                     0
 1601 Department of Labor                                            0                        32                   32                     0
 1800 United States Postal Service                                  41                        37                   37                     0
 2500 National Credit Union Administration                          15                        23                   23                     0
 4700 General Services Administration                               34                        36                   36                     0
 6000 Railroad Retirement Board                                     54                        58                   58                     0
 8600 Department of Housing and Urban                                0                        71                   71                     0
        Development
 8900 Department of Energy                                          25                        18                   18                     0
 9100 Department of Education                                        4                        14                   14                     0
 9500 Independent and Other Agencies                                 4                         6                    6                     0
                                  Total                            413                       677                  677                     0




                                                                          -3-
                                                           U.S.Department of the Treasury                                  11-16-2010 12:40:04
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                         Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type        NB              2010-SEPTEMBER        2009-SEPTEMBER
 BS              Loans Receivable                                A                   D                         586,551               417,895
                                                                                Variance:                              0                    0

Trading          Name                         Status 2010-SEPTEMBER       2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                87,862                       84,065                84,065                    0
 1300 Department of Commerce                                      518                          487                   487                    0
 1400 Department of the Interior                                  308                          316                   316                    0
 1601 Department of Labor                                      40,401                       14,321                14,321                    0
 1800 United States Postal Service                             12,000                       10,200                10,200                    0
 1900 Department of State                                           3                            2                     2                    0
 2500 National Credit Union Administration                     10,101                       19,384                19,384                    0
 2700 Federal Communications Commission                            88                           47                    47                    0
 3600 DEPARTMENT OF VETERANS                                    1,655                        1,550                 1,550                    0
        AFFAIRS
 4700 General Services Administration                           1,973                        2,037                 2,037                    0
 6000 Railroad Retirement Board                                 3,481                        3,359                 3,359                    0
 6800 Environmental Protection Agency                               5                           10                    10                    0
 6900 Department of Transportation                              3,078                        2,478                 2,478                    0
 7000 Department of Homeland Security                          18,504                       19,004                19,004                    0
 7200 Agency for International Development                        478                          477                   477                    0
 7300 Small Business Administration                            11,754                       10,878                10,878                    0
 7500 Department of Health and Human                                1                            2                     2                    0
        Services
 8300 Export-Import Bank of the United States                   7,254                       3,805                  3,805                    0
 8600 Department of Housing and Urban                           4,774                       5,012                  5,012                    0
        Development

                                                                         -4-
                                                             U.S.Department of the Treasury                               11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 8900 Department of Energy                                       5,532                     3,038                 3,038                     0
 9100 Department of Education                                  374,331                   235,371               235,371                     0
 9500 Independent and Other Agencies                             1,932                     1,660                 1,660                     0
 DE00 Department of Defense                                        518                       392                   392                     0
                                  Total                        586,551                   417,895               417,895                     0


Agency FS Status CP Line Description                               Account Type        NB           2010-SEPTEMBER        2009-SEPTEMBER
 BS              Other Assets (without reciprocals)                A                   D                    13,655,637            11,992,719
                                                                                  Variance:                           0                    0

Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                  13,655,637                11,992,719            11,992,719                    0
                                  Total                      13,655,637                11,992,719            11,992,719                    0




                                                                           -5-
                                                             U.S.Department of the Treasury                               11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB            2010-SEPTEMBER        2009-SEPTEMBER
 BS              Accounts Payable                                 L                   C                         108                    98
                                                                                 Variance:                           0                     0

Trading          Name                           Status 2010-SEPTEMBER      2009-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     20                       23                     23                     0
 1400 Department of the Interior                                     5                        1                      1                     0
 1500 Department of Justice                                          5                        3                      3                     0
 1601 Department of Labor                                           14                       15                     15                     0
 1800 United States Postal Service                                  19                        7                      7                     0
 2400 Office of Personnel Management                                 6                        0                      0                     0
 3600 DEPARTMENT OF VETERANS                                         3                        1                      1                     0
        AFFAIRS
 4700 General Services Administration                                9                       12                     12                     0
 6900 Department of Transportation                                   1                        0                      0                     0
 7000 Department of Homeland Security                                1                       13                     13                     0
 7300 Small Business Administration                                  1                        1                      1                     0
 7500 Department of Health and Human                                10                       11                     11                     0
        Services
 8900 Department of Energy                                           1                         0                     0                     0
 9100 Department of Education                                        2                         2                     2                     0
 9500 Independent and Other Agencies                                 4                         7                     7                     0
 9999 Unidentified                                                   3                         0                     0                     0
 DE00 Department of Defense                                          4                         2                     2                     0
                                  Total                           (108)                      (98)                  (98)                    0



                                                                          -6-
                                                             U.S.Department of the Treasury                                11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB             2010-SEPTEMBER        2009-SEPTEMBER
 BS              Advances from Others and Deferred Credits        L                   C                           34                    40
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1500 Department of Justice                                          3                          5                     5                     0
 1900 Department of State                                            8                          8                     8                     0
 7000 Department of Homeland Security                                8                         12                    12                     0
 7200 Agency for International Development                          11                          7                     7                     0
 8600 Department of Housing and Urban                                1                          1                     1                     0
        Development
 8900 Department of Energy                                           3                          0                     0                     0
 9500 Independent and Other Agencies                                 0                          6                     6                     0
 DE00 Department of Defense                                          0                          1                     1                     0
                                  Total                            (34)                       (40)                  (40)                    0

Agency FS Status CP Line Description                              Account Type        NB             2010-SEPTEMBER        2009-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                          226                   215
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          123                       122                    122                     0
 2400 Office of Personnel Management                                78                        71                     71                     0
 9900 Treasury General Fund                                         25                        22                     22                     0
                                  Total                           (226)                      (215)                 (215)                    0


                                                                          -7-
                                                             U.S.Department of the Treasury                                 11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2010                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading           Name                          Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner




Agency FS Status CP Line Description                              Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 BS              Federal Debt                                     L                    C                       4,549,495             4,365,592
                                                                                 Variance:                             0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    151                          164                   164                    0
 1400 Department of the Interior                                 7,257                        7,066                 7,066                    0
 1500 Department of Justice                                      2,668                        2,406                 2,406                    0
 1601 Department of Labor                                       19,117                       19,957                19,957                    0
 1602 PENSION BENEFIT GUARANTY                                  20,956                       17,495                17,495                    0
        CORPORATION
 1800 United States Postal Service                                1,391                    4,249                    4,249                    0
 1900 Department of State                                        15,901                   15,372                   15,372                    0
 2400 Office of Personnel Management                            876,665                  840,828                  840,828                    0
 2500 National Credit Union Administration                       11,904                    9,789                    9,789                    0
 2700 Federal Communications Commission                           6,083                    6,014                    6,014                    0
 2800 Social Security Administration                          2,586,332                2,504,248                2,504,248                    0

                                                                           -8-
                                                             U.S.Department of the Treasury                                 11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2010                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2010-SEPTEMBER      2009-SEPTEMBER            Previously Reported     Line item Changes
Partner
 3600 DEPARTMENT OF VETERANS                                    10,569                    11,173                  11,173                     0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                     46,989                    26,438                 26,438                      0
 6000 Railroad Retirement Board                                  2,375                     2,306                  2,306                      0
 6400 Tennessee Valley Authority                                   225                        25                     25                      0
 6800 Environmental Protection Agency                            7,218                     6,837                  6,837                      0
 6900 Department of Transportation                              33,008                    20,627                 20,627                      0
 7000 Department of Homeland Security                            3,472                     3,417                  3,417                      0
 7500 Department of Health and Human                           355,803                   376,719                376,719                      0
        Services
 7802 Farm Credit System Insurance                                3,113                     2,935                  2,935                     0
        Corporation
 8000 National Aeronautics and Space                                 17                        17                     17                     0
        Administration
 8600 Department of Housing and Urban                             7,678                   19,786                  19,786                     0
        Development
 8900 Department of Energy                                      31,215                    29,241                 29,241                      0
 9500 Independent and Other Agencies                             7,197                     8,083                  8,083                      0
 DE00 Department of Defense                                    492,191                   430,400                430,400                      0
                                  Total                      (4,549,495)               (4,365,592)            (4,365,592)                    0




                                                                           -9-
                                                             U.S.Department of the Treasury                                  11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB              2010-SEPTEMBER        2009-SEPTEMBER
 BS              Interest Payable                                 L                    C                         48,665                49,545
                                                                                  Variance:                             0                     0

Trading          Name                           Status 2010-SEPTEMBER      2009-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      1                            1                     1                     0
 1400 Department of the Interior                                    22                           22                    22                     0
 1601 Department of Labor                                          165                          218                   218                     0
 1602 PENSION BENEFIT GUARANTY                                     179                          189                   189                     0
        CORPORATION
 1900 Department of State                                          186                           190                   190                    0
 2400 Office of Personnel Management                             9,646                         9,874                 9,874                    0
 2500 National Credit Union Administration                          68                            64                    64                    0
 2700 Federal Communications Commission                              5                             3                     3                    0
 2800 Social Security Administration                            28,894                        29,382                29,382                    0
 3600 DEPARTMENT OF VETERANS                                       142                           156                   156                    0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                         16                          121                    121                    0
 6000 Railroad Retirement Board                                      7                            5                      5                    0
 6800 Environmental Protection Agency                               25                           42                     42                    0
 6900 Department of Transportation                                  43                           58                     58                    0
 7000 Department of Homeland Security                                9                           19                     19                    0
 7500 Department of Health and Human                             4,078                        4,396                  4,396                    0
        Services
 7802 Farm Credit System Insurance                                  17                           19                    19                     0
        Corporation
 8600 Department of Housing and Urban                               43                          126                   126                     0
        Development

                                                                         - 10 -
                                                                 U.S.Department of the Treasury                                       11-16-2010 12:40:04
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2010                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                              Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2010-SEPTEMBER              2009-SEPTEMBER              Previously Reported     Line item Changes
Partner
 8900 Department of Energy                                                 122                          122                    122                     0
 9100 Department of Education                                                0                           (3)                    (3)                    0
 9500 Independent and Other Agencies                                        51                           57                     57                     0
 DE00 Department of Defense                                              4,946                        4,484                  4,484                     0
                                  Total                              (48,665)                     (49,545)                 (49,545)                    0


Agency FS Status CP Line Description                                      Account Type         NB              2010-SEPTEMBER         2009-SEPTEMBER
 BS              Liability to the General Fund for custodial and other    L                    C                        1,414,252              1,263,128
                 non-entity assets
                                                                                          Variance:                              0                     0

Trading                                                  2010-SEPTEMBER            2009-SEPTEMBER              Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                        1,414,252                    1,263,128                        0              1,263,128
                                  Total                           (1,414,252)                  (1,263,128)                       0              1,263,128




                                                                                 - 11 -
                                                                  U.S.Department of the Treasury                                  11-16-2010 12:40:04
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                               Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                           Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                   Account Type          NB            2010-SEPTEMBER         2009-SEPTEMBER
 BS              Other Liabilities (without reciprocals)               L                     C                          (2)                    75
                                                                                        Variance:                            0                      0

Trading         Name                            Status 2010-SEPTEMBER           2009-SEPTEMBER             Previously Reported     Line item Changes
Partner
 4700 General Services Administration                                    (2)                        (3)                      0                     (3)
 9900 Treasury General Fund                                               0                          0               1,263,203             (1,263,203)
 9999 Unidentified                                                        0                         78                       0                     78
                                  Total                                   2                         (75)            (1,263,203)            (1,263,128)




                                                                               - 12 -
                                                             U.S.Department of the Treasury                                  11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Borrowing and Other Interest Revenue (Exchange)   ER                   C                        24,181                16,630
                                                                                   Variance:                            0                     0

Trading         Name                          Status 2010-SEPTEMBER         2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 4,141                          4,081                 4,081                    0
 1300 Department of Commerce                                       27                             24                    24                    0
 1400 Department of the Interior                                    4                              4                     4                    0
 1601 Department of Labor                                       1,255                            262                   262                    0
 1800 United States Postal Service                                157                             80                    80                    0
 2500 National Credit Union Administration                         73                             71                    71                    0
 2700 Federal Communications Commission                             7                             12                    12                    0
 3600 DEPARTMENT OF VETERANS                                      111                            159                   159                    0
        AFFAIRS
 4700 General Services Administration                             134                           138                   138                     0
 6000 Railroad Retirement Board                                   137                           160                   160                     0
 6800 Environmental Protection Agency                               1                             1                     1                     0
 6900 Department of Transportation                                142                           106                   106                     0
 7000 Department of Homeland Security                             115                           299                   299                     0
 7200 Agency for International Development                         25                            25                    25                     0
 7300 Small Business Administration                               547                           536                   536                     0
 8300 Export-Import Bank of the United States                     424                           255                   255                     0
 8600 Department of Housing and Urban                             316                           362                   362                     0
        Development
 8900 Department of Energy                                        197                             38                    38                    0
 9100 Department of Education                                  16,221                          9,886                 9,886                    0


                                                                          - 13 -
                                                             U.S.Department of the Treasury                                     11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                               122                           112                    112                      0
 DE00 Department of Defense                                         25                            19                     19                      0
                                  Total                        (24,181)                    (16,630)                  (16,630)                    0




Agency FS Status CP Line Description                              Account Type          NB               2010-SEPTEMBER         2009-SEPTEMBER
 NCS             Borrowings Gains                                 ER                    C                            160                   2,497
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER                Previously Reported     Line item Changes
Partner
 1601 Department of Labor                                            0                         2,496                   2,496                     0
 2500 National Credit Union Administration                           2                             0                       0                     0
 7000 Department of Homeland Security                                3                             0                       0                     0
 8600 Department of Housing and Urban                              154                             0                       0                     0
        Development
 9100 Department of Education                                        1                              0                      0                     0
 DE00 Department of Defense                                          0                              1                      1                     0
                                  Total                           (160)                        (2,497)                (2,497)                    0




                                                                          - 14 -
                                                             U.S.Department of the Treasury                               11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Buy/Sell Revenue                                 ER                   C                        219                  1,371
                                                                                  Variance:                          0                     0

Trading          Name                           Status 2010-SEPTEMBER      2009-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     10                          8                    8                     0
 1300 Department of Commerce                                         2                          2                    2                     0
 1500 Department of Justice                                         10                         10                   10                     0
 1601 Department of Labor                                            2                        150                  150                     0
 1900 Department of State                                            6                          6                    6                     0
 2400 Office of Personnel Management                                 1                          1                    1                     0
 2800 Social Security Administration                               106                        926                  926                     0
 3600 DEPARTMENT OF VETERANS                                        10                          9                    9                     0
        AFFAIRS
 4700 General Services Administration                                1                          1                    1                     0
 4900 National Science Foundation                                    1                          1                    1                     0
 6000 Railroad Retirement Board                                      1                          1                    1                     0
 6900 Department of Transportation                                   0                          4                    4                     0
 7000 Department of Homeland Security                               15                         18                   18                     0
 7200 Agency for International Development                           2                          3                    3                     0
 7500 Department of Health and Human                                 4                        187                  187                     0
        Services
 8000 National Aeronautics and Space                                 1                          0                    0                     0
        Administration
 8600 Department of Housing and Urban                                6                          9                    9                     0
        Development
 8900 Department of Energy                                           2                          0                    0                     0


                                                                         - 15 -
                                                              U.S.Department of the Treasury                                     11-16-2010 12:40:04
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2010                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9100 Department of Education                                         3                              2                      2                     0
 9500 Independent and Other Agencies                                 32                             25                     25                     0
 DE00 Department of Defense                                           4                              8                      8                     0
                                  Total                            (219)                        (1,371)                (1,371)                    0



Agency FS Status CP Line Description                               Account Type          NB               2010-SEPTEMBER         2009-SEPTEMBER
 NCS             Other Revenue (without reciprocals)               ER                    C                             0                   (1,149)
                                                                                    Variance:                               0                     0

Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9900 Treasury General Fund                                           0                         (1,149)                (1,149)                    0
                                  Total                               0                         1,149                   1,149                     0




                                                                           - 16 -
                                                             U.S.Department of the Treasury                                 11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Benefit Program Costs                            GC                   D                         2,119                 1,960
                                                                                  Variance:                             0                    0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          101                           91                    91                    0
 2400 Office of Personnel Management                             1,523                        1,412                 1,412                    0
 6900 Department of Transportation                                   2                            1                     1                    0
 9900 Treasury General Fund                                        493                          456                   456                    0
                                  Total                          2,119                        1,960                 1,960                    0

Agency FS Status CP Line Description                              Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Borrowing and Other Interest Expense             GC                   D                         8,192                 6,534
                                                                                  Variance:                             0                    0

Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    671                         599                   599                     0
 1300 Department of Commerce                                         2                           1                     1                     0
 1400 Department of the Interior                                     4                           2                     2                     0
 1900 Department of State                                            0                           1                     1                     0
 2700 Federal Communications Commission                              1                           5                     5                     0
 3600 DEPARTMENT OF VETERANS                                       141                         206                   206                     0
        AFFAIRS
 6900 Department of Transportation                                  34                          21                    21                     0
 7200 Agency for International Development                         132                          87                    87                     0


                                                                         - 17 -
                                                             U.S.Department of the Treasury                                 11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2010-SEPTEMBER        2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 7300 Small Business Administration                               247                          186                   186                     0
 7500 Department of Health and Human                                3                            4                     4                     0
        Services
 8300 Export-Import Bank of the United States                     249                           105                   105                    0
 8600 Department of Housing and Urban                           1,680                         1,453                 1,453                    0
        Development
 8900 Department of Energy                                         94                            10                    10                    0
 9100 Department of Education                                   4,881                         3,816                 3,816                    0
 9500 Independent and Other Agencies                               51                            37                    37                    0
 DE00 Department of Defense                                         2                             1                     1                    0
                                  Total                          8,192                        6,534                 6,534                    0

Agency FS Status CP Line Description                              Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Buy/Sell Costs                                   GC                   D                         1,642                 1,635
                                                                                  Variance:                             0                    0

Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     46                          46                    46                     0
 1300 Department of Commerce                                         2                           2                     2                     0
 1400 Department of the Interior                                    19                          18                    18                     0
 1500 Department of Justice                                         17                           9                     9                     0
 1601 Department of Labor                                            6                          33                    33                     0
 1800 United States Postal Service                                 286                         279                   279                     0


                                                                         - 18 -
                                                              U.S.Department of the Treasury                                 11-16-2010 12:40:04
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2010-SEPTEMBER         2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1900 Department of State                                         15                             18                    18                     0
 2400 Office of Personnel Management                              34                             38                    38                     0
 4700 General Services Administration                            827                            808                   808                     0
 6800 Environmental Protection Agency                              2                             13                    13                     0
 6900 Department of Transportation                                31                             26                    26                     0
 7000 Department of Homeland Security                            151                            145                   145                     0
 7200 Agency for International Development                        13                             30                    30                     0
 7500 Department of Health and Human                              46                             30                    30                     0
        Services
 8300 Export-Import Bank of the United States                      0                              6                     6                     0
 8900 Department of Energy                                        10                              2                     2                     0
 9500 Independent and Other Agencies                             126                            119                   119                     0
 DE00 Department of Defense                                       11                             13                    13                     0
                                   Total                          1,642                        1,635                 1,635                    0

Agency FS Status CP Line Description                               Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Federal Securities Interest Expense               GC                   D                        198,597               191,997
                                                                                   Variance:                             0                    0

Trading       Name                              Status 2010-SEPTEMBER       2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                       5                           4                     4                     0
 1400 Department of the Interior                                    125                         149                   149                     0
 1500 Department of Justice                                           5                          12                    12                     0


                                                                          - 19 -
                                                             U.S.Department of the Treasury                             11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2010-SEPTEMBER     2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          778                  2,062                   2,062                    0
 1602 PENSION BENEFIT GUARANTY                                   1,520                    965                     965                    0
        CORPORATION
 1900 Department of State                                          762                    779                    779                     0
 2400 Office of Personnel Management                            39,489                 40,254                 40,254                     0
 2500 National Credit Union Administration                         221                    319                    319                     0
 2700 Federal Communications Commission                             18                     53                     53                     0
 2800 Social Security Administration                           118,014                118,221                118,221                     0
 3600 DEPARTMENT OF VETERANS                                       598                    651                    651                     0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                        254                  2,609                   2,609                    0
 6000 Railroad Retirement Board                                     59                     56                      56                    0
 6400 Tennessee Valley Authority                                     0                      1                       1                    0
 6800 Environmental Protection Agency                              130                    176                     176                    0
 6900 Department of Transportation                                 235                    322                     322                    0
 7000 Department of Homeland Security                               40                     70                      70                    0
 7500 Department of Health and Human                            17,355                 18,688                  18,688                    0
        Services
 7802 Farm Credit System Insurance                                  65                     51                     51                     0
        Corporation
 8000 National Aeronautics and Space                                 1                      1                       1                    0
        Administration
 8600 Department of Housing and Urban                            1,358                    812                    812                     0
        Development
 8900 Department of Energy                                       1,372                  1,262                   1,262                    0
 9500 Independent and Other Agencies                               226                    263                     263                    0

                                                                         - 20 -
                                                             U.S.Department of the Treasury                                 11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading       Name                              Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 DE00 Department of Defense                                     15,967                        4,217                 4,217                    0
                                  Total                        198,597                   191,997                 191,997                     0




Agency FS Status CP Line Description                              Account Type         NB             2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Imputed Costs                                    GC                   D                         1,008                  794
                                                                                  Variance:                             0                    0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                             1,008                         794                   794                     0
                                  Total                          1,008                         794                   794                     0




                                                                         - 21 -
                                                               U.S.Department of the Treasury                             11-16-2010 12:40:04
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2010                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type         NB         2010-SEPTEMBER        2009-SEPTEMBER
 NCS             Other Expenses (without reciprocals)               GC                   D                       0                     1
                                                                                    Variance:                        0                     0

Trading        Name                             Status 2010-SEPTEMBER        2009-SEPTEMBER         Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                           0                         1                    1                     0
                                  Total                               0                         1                    1                     0




                                                                           - 22 -
                                                                 U.S.Department of the Treasury                                11-16-2010 12:40:04
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                         Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type             NB          2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Accrual for Non-entity Amounts to be Collected and CF                       D                     93,265                   0
                 Transferred to the General Fund
                                                                                        Variance:                         0                     0

Trading                                                  2010-SEPTEMBER          2009-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                           93,265                         0                    0                     0
                                  Total                               93,265                         0                    0                     0


Agency FS Status CP Line Description                                    Account Type         NB          2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Appropriation of unavailable special or trust fund     CF                   D                        14                    26
                 receipts Transfers-out
                                                                                        Variance:                         0                     0

Trading                                                  2010-SEPTEMBER          2009-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                              14                         26                   26                     0
                                  Total                                  14                         26                   26                     0




                                                                               - 23 -
                                                                U.S.Department of the Treasury                                11-16-2010 12:40:04
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2010                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB           2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Nonexpenditure Transfers-out of unexpended          CF                    D                         0                     5
                 appropriations and financing sources
                                                                                      Variance:                          0                     0

Trading                                                  2010-SEPTEMBER       2009-SEPTEMBER            Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                             0                          5                     5                     0
                                  Total                                 0                          5                     5                     0


Agency FS Status CP Line Description                                 Account Type          NB           2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Transfers-out Without Reimbursement                 CF                    D                         41                    31
                                                                                      Variance:                          0                     0

Trading        Name                             Status 2010-SEPTEMBER         2009-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                            1                          1                     1                     0
 1500 Department of Justice                                             4                          3                     3                     0
 1601 Department of Labor                                              (1)                        (3)                   (3)                    0
 4700 General Services Administration                                   0                         (2)                   (2)                    0
 7000 Department of Homeland Security                                  37                         32                    32                     0
                                  Total                                41                         31                    31                     0




                                                                             - 24 -
                                                                U.S.Department of the Treasury                                  11-16-2010 12:40:04
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2010                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Expenditure transfers-in of financing sources       F                     C                           0                     10
                                                                                      Variance:                            0                     0

Trading        Name                             Status 2010-SEPTEMBER         2009-SEPTEMBER              Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                             0                           10                    10                     0
                                  Total                                 0                          (10)                  (10)                    0


Agency FS Status CP Line Description                                 Account Type          NB             2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Imputed Financing Source                            F                     C                         1,008                  793
                                                                                      Variance:                            0                     0

Trading         Name                            Status 2010-SEPTEMBER         2009-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                               1,008                          793                    793                     0
                                  Total                            (1,008)                        (793)                 (793)                    0




                                                                             - 25 -
                                                                U.S.Department of the Treasury                                  11-16-2010 12:40:04
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2010                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Nonexpenditure transfers-in of unexpended           F                     C                           92                    11
                 appropriations and financing sources
                                                                                      Variance:                            0                     0

Trading                                                  2010-SEPTEMBER       2009-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 1900 Department of State                                               4                            5                     5                     0
 7200 Agency for International Development                             88                            6                     6                     0
                                  Total                               (92)                         (11)                  (11)                    0

Agency FS Status CP Line Description                                 Account Type          NB             2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Other budgetary financing sources                   F                     C                        (24,671)              (24,120)
                                                                                      Variance:                            0                     0

Trading        Name                             Status 2010-SEPTEMBER         2009-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                         1                            3                     3                     0
 1300 Department of Commerce                                            0                            2                     2                     0
 1400 Department of the Interior                                     (361)                        (444)                 (444)                    0
 1500 Department of Justice                                             3                            3                     3                     0
 1601 Department of Labor                                               4                          (30)                  (30)                    0
 1900 Department of State                                               1                            7                     7                     0
 2500 National Credit Union Administration                              0                            6                     6                     0
 3600 DEPARTMENT OF VETERANS                                            7                            7                     7                     0
        AFFAIRS
 4700 General Services Administration                                  27                           27                    27                     0
 6900 Department of Transportation                                    208                            0                     0                     0


                                                                             - 26 -
                                                             U.S.Department of the Treasury                                    11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                    Fiscal Year: 2010                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2010-SEPTEMBER        2009-SEPTEMBER               Previously Reported     Line item Changes
Partner
 7000 Department of Homeland Security                                1                             1                      1                     0
 7500 Department of Health and Human                               157                             1                      1                     0
        Services
 8000 National Aeronautics and Space                                 2                             0                      0                     0
        Administration
 8300 Export-Import Bank of the United States                        1                           0                        0                     0
 8900 Department of Energy                                           7                           0                        0                     0
 9500 Independent and Other Agencies                                 3                           0                        0                     0
 9900 Treasury General Fund                                    (24,895)                    (23,798)                 (23,798)                    0
 DE00 Department of Defense                                        163                          95                       95                     0
                                  Total                         24,671                         24,120                24,120                     0

Agency FS Status CP Line Description                              Account Type          NB              2010-SEPTEMBER         2009-SEPTEMBER
 SCNP            Other non-budgetary financing sources            F                     C                            0                  (187,992)
                                                                                   Variance:                              0                     0

Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER               Previously Reported     Line item Changes
Partner
 9900 Treasury General Fund                                          0                    (187,992)                (187,992)                    0
                                  Total                              0                    187,992                  187,992                      0




                                                                          - 27 -
                                                               U.S.Department of the Treasury                                11-16-2010 12:40:04
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                     Fiscal Year: 2010                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type          NB            2010-SEPTEMBER        2009-SEPTEMBER
 SCNP            Transfers-in Without Reimbursement                F                     C                          (1)                   (5)
                                                                                    Variance:                           0                     0

Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                            (1)                          0                     0                     0
 1602 PENSION BENEFIT GUARANTY                                        0                          (3)                   (3)                    0
        CORPORATION
 4700 General Services Administration                                 0                          (2)                   (2)                    0
                                  Total                               1                           5                     5                     0

Agency FS Status CP Line Description                               Account Type          NB            2010-SEPTEMBER        2009-SEPTEMBER
 CUST            Expenditure Transfers-out of financing sources    CF                    D                          74                   (61)
                                                                                    Variance:                           0                     0

Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                          74                         (61)                  (61)                    0
                                  Total                              74                         (61)                  (61)                    0




                                                                           - 28 -
                                                                U.S.Department of the Treasury                                    11-16-2010 12:40:04
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                        Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                           Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                   Account Type          NB            2010-SEPTEMBER         2009-SEPTEMBER
 CUST            Non-Entity Collections Transferred to the General     CF                    D                      1,972,885                  0
                 Fund
                                                                                        Variance:                            0                     0

Trading                                                  2010-SEPTEMBER         2009-SEPTEMBER             Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                      1,972,885                            0                      0                     0
                                  Total                          1,972,885                            0                      0                     0


Agency FS Status CP Line Description                                   Account Type          NB            2010-SEPTEMBER         2009-SEPTEMBER
 CUST            Other budgetary financing sources                     F                     C                        1,044               (1,986,761)
                                                                                        Variance:                            0                     0

Trading         Name                            Status 2010-SEPTEMBER           2009-SEPTEMBER             Previously Reported     Line item Changes
Partner
 1400 Department of the Interior                                         0                         (453)                  (453)                    0
 2800 Social Security Administration                                   663                            0                      0                     0
 6900 Department of Transportation                                     381                            0                      0                     0
 9900 Treasury General Fund                                              0                   (1,986,308)            (1,986,308)                    0
                                  Total                              (1,044)                  1,986,761              1,986,761                     0




                                                                               - 29 -
                                                             U.S.Department of the Treasury                              11-16-2010 12:40:04
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB         2010-SEPTEMBER        2009-SEPTEMBER
 CUST            Other taxes and receipts                         F                     C                       12                    0
                                                                                   Variance:                        0                     0

Trading        Name                             Status 2010-SEPTEMBER      2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                     1                         0                    0                     0
 9900 Treasury General Fund                                         11                         0                    0                     0
                                   Total                           (12)                        0                    0                     0




                                                                          - 30 -
                                                                                                                                                                                             11/16/2010 10:58:10

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 01                Statement of Operations and Changes in Net Position                                                         Fiscal Year: 2010                 Period: SEPTEMBER
        Entity: 2000          Department of the Treasury                                                                                       Agency Notes:        N/A
        Status: Complete                                                                               I = Inactive Line


  Tab: Other Data Info.
      Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not              No Data: YES             Line Attributes: Dollars
                                               made as a result of using the modified cash basis of                                     Rounding Method: User-Defined                 Decimal: User-Defined
                                               accounting.


Line Status     Line Description         NB            CY - Low Range               CY - High Range                 PY - Low Range            PY - High Range
 1                                      Debit
 2                                      Debit
 3                                      Debit
 4                                      Debit
 5                                      Debit



     Tab: Other Text Data

        Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not
                                                 made as a result of using the modified cash basis of
                                                 accounting.

 Line         Question                                                                                                      Answer
 1            Provide the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS             For IRS, this is referring to the difference between cash and accrual accounting. We use a
              No. 7, par.64)                                                                                               modified cash basis for the Custodial Financial Statements, because of the limitations in the
                                                                                                                           assessment process regarding the delay in the time when there is a legally enforceable
                                                                                                                           claim. Accrual accounting provides more accurate and complete information about
                                                                                                                           receivables and refunds legally receivable and collectible concerning the components of the
                                                                                                                           Government¿s revenue stream, and is the reason we compute the allowance for doubtful
                                                                                                                           accounts (ADA). Since cash basis tax revenue still needs to be accounted for in conjunction
                                                                                                                           with ADA, forming the basis of our accounting methodology.

                                                                                                                           TTB records a year-end accrual for the known amount of tax revenue to be collected. This
                                                                                                                           information is obtained from tax forms that are submitted to the National Revenue Center,
                                                                                                                           but have not been individually processed and recorded in the accounting system. TTB is not
                                                                                                                           able to obtain the information necessary to record the majority of the earned custodial
                                                                                                                           revenue due to the fact that this amount is unknown until the taxpayer files a return.




                                                                                                            - 1 -
                                                                                                                                                                       11/16/2010 10:58:10

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                         Fiscal Year: 2010                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                        Agency Notes:        Appendix A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                                                Line Attributes: Dollars
                                                                                                                        Rounding Method: Millions                Decimal: Zero
Line Status   Line Description        NB      2010 - SEPTEMBER         2009 - SEPTEMBER              Previously Rptd       Line Item Changes
 1            Estimated realized      Debit                 93,000                 75,000                      75,000                          0
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit                 27,587                 11,000                      11,000                          0
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit                 99,000                105,000                     105,000                          0
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 2 -
                                                                                                                                                                                                       11/16/2010 10:58:10

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                             Fiscal Year: 2010                    Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                             Agency Notes:        Appendix A
        Status: Complete                                                                                    I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Provide the following amount if a range is estimable               No Data: YES                  Line Attributes: Dollars
                                               and not included in Sec. A (SFFAS No. 7 par 67)                                                Rounding Method: User-Defined                    Decimal: User-Defined


Line Status     Line Description          NB                      CY Low                          CY High                       PY Low                        PY High
 1              Realizable value of      Debit
                pre-assessment
                work-in-progress
 2              Changes in line 1     Debit
                above
 3              Management's best     Debit
                estimate of
                unasserted claims for
                refunds
 4              Changes in line 3     Debit
                above

     Tab: Other Text Data

        Section: A                 Section Name: Taxes (SSFAS No.7, par. 67-69)

 Line         Question                                                                                                           Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.                                 Reducing the tax gap is at the heart of IRS' enforcement programs. The tax gap is the
                                                                                                                                difference between what taxpayers should pay and what they actually pay due to not filing
                                                                                                                                tax returns, not paying their reported tax liability on time, or failing to report their correct tax
                                                                                                                                liability. The tax gap, about $345 billion based on updated fiscal year 2001 estimates,
                                                                                                                                represnts the amount of noncompliance with the tax laws. Underreporting tax liability
                                                                                                                                accounts for 82 percent of the gap, with the remainder almost evenly divided between non-
                                                                                                                                filing (8 percent) and underpaying (10 percent). The IRS remains committed to finding ways
                                                                                                                                to increase compliance and reduce the tax gap, while minimizing the burden on the vast
                                                                                                                                majority of taxpayers who pay their taxes accurately and on time.
                                                                                                                                The tax gap is the aggregate amount of tax (i.e., excluding interest and penalties) that is
                                                                                                                                imposed by the tax laws for any given tax year but is not paid voluntarily and timely. The tax
                                                                                                                                gap arises from the three types of noncompliance; not filing required tax returns on time or at
                                                                                                                                all ( the non-filing gap), underreporting the correct amount of tax on timely filed returns ( the
                                                                                                                                underreporting gap), and not paying on time the full amount reported on timely filed returns
                                                                                                                                (the underpayment gap). Of these three components only the underpayment gap is
                                                                                                                                observed; the non-filing gap and the underreporting gap must be estimated. Each instance
                                                                                                                                of noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS detects it
                                                                                                                                and whether or not the taxpayer is even aware of the noncompliance. Obviously, some of the
                                                                                                                                tax gap arises from intentional (willful) noncompliance, and some of it arises from
                                                                                                                                unintentioanl mistakes.
                                                                                                                                The collection gap is the cumulative amount of tax, penalties, and interest that has been
                                                                                                                                assessed over many years, but has not been paid by a certain point in time, and which the



                                                                                                                 - 3 -
                                                                                                                                                                                                   11/16/2010 10:58:10

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

Other Data: 02               Taxes                                                                                                            Fiscal Year: 2010                   Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                            Agency Notes:        Appendix A
       Status: Complete                                                                                  I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)

Line        Question                                                                                                          Answer
                                                                                                                             IRS expects to remain uncollectible. In essence, it represents the difference between the
                                                                                                                             total balance of unpaid assements and the net taxes receivable reported on the IRS' balance
                                                                                                                             sheet. The tax gap and the collection gap are related and overlapping concepts, but they
                                                                                                                             have significant differences. The collection gap is a cumulative balance sheet concept for a
                                                                                                                             particular point in time, while the tax gap is like an income statement item for a single year.
                                                                                                                             Moreover, the tax gap estimates include all noncompliance, while the collection gap includes
                                                                                                                             only amounts that have been assessed (a small portion of all noncompliance).
2           Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax           The Internal Revenue Service developed the concept of the tax gap as a way to gauge
            gap.                                                                                                             taxpayer¿s compliance with their federal tax obligations. The tax gap measures the extent of
                                                                                                                             which taxpayers do not file their tax returns and pay the correct tax on time.
                                                                                                                             Previous estimates of the tax gap relied on detailed research that was conducted for tax
                                                                                                                             years 1988 and earlier. To update this research and reflect a changing economy, revisions
                                                                                                                             to the tax code and more subtle shifts in individual behavior, the IRS launched the National
                                                                                                                             Research Program (NRP) in 2001.
                                                                                                                             The current estimates based on the NRP are preliminary, so they are shown as ranges. As
                                                                                                                             refinements are made to the tax gap analysis, some of these estimates may change. It is
                                                                                                                             unlikely, but possible, that the final estimates of the tax gap will fall outside of the established
                                                                                                                             range.

3           Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
            and importers.                                                                                                   N/A
4           Provide the estimates of the annual tax gap (amounts should specifically define whether it                       The tax gap figure does not include taxes that should have been paid on income from the
            includes or excludes estimates of tax due on illegally earned revenue).                                          illegal sector of the economy.

5           Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
            requirements of law, if reasonable estimable.                                                                    N/A




                                                                                                               - 4 -
                                                                                                                                                        11/16/2010 10:58:10

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 03           Annual Revenues and Expenditures                                                         Fiscal Year: 2010         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                  Agency Notes:    N/A
     Status: Complete                                                                  I = Inactive Line


  Tab: Other Data Info.
    Section: A              Section Name: Revenues from the Public                           No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




    Section: B              Section Name: Expenditures to the Public                         No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




                                                                                            - 5 -
                                                                                                                                                                 11/16/2010 10:58:10

                                                                          U.S. Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System
                                                                             GF007 - Other Data Report

 Other Data: 03           Annual Revenues and Expenditures                                                             Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                       Agency Notes:    N/A
      Status: Complete                                                                   I = Inactive Line


  Tab: Other Data Info.
     Section: C             Section Name: Revenue from Other Government Accounts               No Data: YES            Line Attributes:


Line Status   Line Description     NB                        HI                    SMI                       OASDI




     Section: D             Section Name: Net Result (Trust Fund)                              No Data: YES            Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description     NB                        HI                    SMI                       OASDI
 2                                Debit




                                                                                              - 6 -
                                                                                                                                                                       11/16/2010 10:58:10

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    NA
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2010                   FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2010                   FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 7 -
                                                                                                                                                                       11/16/2010 10:58:10

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    NA
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2010                    FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2010                    FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 8 -
                                                                                                                                                                                11/16/2010 10:58:10

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 09               Stewardship Investments                                                                                 Fiscal Year: 2010             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                  Agency Notes:    NA
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: E                Section Name: Research and Development: Investment in Applied               No Data: YES              Line Attributes: Dollars
                                              Research (SFFAS No. 8, par 100)                                                       Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                   FY 2010                      FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS          No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                    Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal property.
              (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                     No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line          Question                                                                                                   Answer
 1            Provide a description of the major programs of Federal investments in development. (SFFAS No.
              8, par. 100)
 2            Provide a description of the progress of major development projects including the results with
              respect to projects completed or otherwise terminated during the year and the status of projects
              that will continue (SFFAS No. 8, par. 99)
     Tab: Other Text Data

        Section: C                  Section Name: Investment in Human Capital (SFFAS No. 8, par 100)          No Data: YES

 Line          Question                                                                                                   Answer
 1            Provide a description of the major education and training programs considered Federal
              investments in human capital. (SFFAS No.8, par. 94)


                                                                                                            - 9 -
                                                                                                                                                                   11/16/2010 10:58:10

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                            Fiscal Year: 2010        Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:    NA
       Status: Complete                                                                          I = Inactive Line



    Tab: Other Text Data

       Section: D              Section Name: Research and Development: Investment in Basic                   No Data: YES
                                             Research (SFFAS No. 8, par.99 & 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in basic research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E              Section Name: Research and Development: Investment in Applied                 No Data: YES
                                             Research (SFFAS No. 8, par 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in applied research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                      - 10 -
                                                                                                                                                                   11/16/2010 10:58:10

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                       Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                     Agency Notes:       N/A
      Status: Complete                                                                I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                                No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB                CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                                 D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                          - 11 -
                                                                                                                                                                      11/16/2010 10:58:10

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                Fiscal Year: 2010                Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:        OIA - Appendix A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxable Returnes-Individual Income Tax Returns for                      Line Attributes: Units
                                            Tax Year 2008 for the following AGI levels


Line Status   Line Description       NB                       AGI
 1            Under $15,000          N/A                37,970.0000
 2            $15,000 under          N/A                29,687.0000
              $30,000
 3            $30,000 under          N/A                25,641.0000
              $50,000
 4            $50,000 under          N/A                30,926.0000
              $100,000
 5            $100,000 under         N/A                13,851.0000
              $200,000
 6            $200,000 under         N/A                 3,477.0000
              $500,000
 7            $500,000 or more       N/A                   899.0000
     Section: B               Section Name: Individual AGI and Income Tax information -                             Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2008                       Rounding Method: Millions                     Decimal: Zero


Line Status   Line Description       NB                       AGI          Total Income Tax
 1            Under $15,000         Debit                   104,025                      2,227
 2            $15,000 under         Debit                   655,035                     18,958
              $30,000
 3            $30,000 under         Debit                 1,002,998                     56,953
              $50,000
 4            $50,000 under         Debit                 2,193,691                    184,554
              $100,000
 5            $100,000 under        Debit                 1,845,103                    232,270
              $200,000
 6            $200,000 under        Debit                   993,427                    193,700
              $500,000
 7            $500,000 or more       N/A                  1,468,581                    342,919




                                                                                                  - 12 -
                                                                                                                                                                   11/16/2010 10:58:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                Fiscal Year: 2010              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:     OIA - Appendix A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: C               Section Name: Individual AGI and Income Tax Information-Individual                    Line Attributes: Dollars
                                            Income Tax Returns for Tax Year 2008                                  Rounding Method: Whole-Dollars             Decimal: Zero


Line Status   Line Description       NB      Avg. AGI per return       D     Avg. Income Tax per
                                                                                      return  D
 1            Under $15,000          N/A                       2,740                         59
 2            $15,000 under          N/A                      22,065                        639
              $30,000
 3            $30,000 under          N/A                      39,117                      2,221
              $50,000
 4            $50,000 under          N/A                      70,934                      5,968
              $100,000
 5            $100,000 under         N/A                    133,211                      16,769
              $200,000
 6            $200,000 under         N/A                    285,714                      55,709
              $500,000
 7            $500,000 or more       N/A                   1,663,572                    381,445
     Section: D               Section Name: Income Tax as a Percentage of AGI-Indvidual Income                      Line Attributes: Percent
                                            Tax Returns for Tax Year 2008


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A                      2.1000
 2            $15,000 under          N/A                      2.9000
              $30,000
 3            $30,000 under          N/A                      5.7000
              $50,000
 4            $50,000 under          N/A                      8.4000
              $100,000
 5            $100,000 under         N/A                    12.6000
              $200,000
 6            $200,000 under         N/A                    19.5000
              $500,000
 7            $500,000 or more       N/A                    23.4000




                                                                                                   - 13 -
                                                                                                                                                                       11/16/2010 10:58:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12              Tax Burden                                                                                Fiscal Year: 2010              Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                    Agency Notes:      OIA - Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: E               Section Name: Income Subject to Tax & Total Income Tax After                            Line Attributes: Dollars
                                             Credits:Corp. Income for Tax Year 2007                                  Rounding Method: Millions                   Decimal: Zero


Line Status    Line Description       NB     Income Subject to Tax         Total Income Tax After
                                                                                      Credits
 1             Zero Assets           Debit                    26,280                      8,593
 2             $1 under $500         Debit                     8,205                      1,582
 3             $500 under $1,000     Debit                     4,292                      1,017
 4             $1,000 under $5,000   Debit                    15,577                      4,628
 5             $5,000 under          Debit                    10,008                      3,299
               $10,000
 6             $10,000 under         Debit                    16,650                      5,547
               $25,000
 7             $25,000 under         Debit                    13,139                      4,347
               $50,000
 8             $50,000 under         Debit                    16,621                      5,392
               $100,000
 9             $100,000 under        Debit                    27,977                      9,100
               $250,000
 10            $250,000 under        Debit                    35,046                     10,876
               $500,000
 11            $500,000 under         N/A                    145,944                     44,586
               $2,500,000
 12            $2,500,000 or more     N/A                    928,546                    232,408
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                         Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2007


Line Status    Line Description       NB     Income Subject to Tax
 1             Zero Assets            N/A                    32.7000
 2             $1 under $500          N/A                    19.3000
 3             $500 under $1,000      N/A                    23.7000
 4             $1,000 under $5,000    N/A                    29.7000
 5             $5,000 under           N/A                    33.0000
               $10,000
 6             $10,000 under          N/A                    33.3000
               $25,000



                                                                                                     - 14 -
                                                                                                                                                              11/16/2010 10:58:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12            Tax Burden                                                                                Fiscal Year: 2010             Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                   Agency Notes:      OIA - Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                       Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2007


Line Status    Line Description       NB     Income Subject to Tax
 7             $25,000 under          N/A                    33.1000
               $50,000
 8             $50,000 under          N/A                    32.4000
               $100,000
 9             $100,000 under         N/A                    32.5000
               $250,000
 10            $250,000 under         N/A                    31.0000
               $500,000
 11            $500,000 under         N/A                    30.6000
               $2,500,000
 12            $2,500,000 or more     N/A                    25.0000




                                                                                                     - 15 -
                                                                                                                                                                              11/16/2010 10:58:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 13             Other information                                                                                 Fiscal Year: 2010                   Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:        RSI data
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Estimated amounts that may be paid out as other                                   Line Attributes: Dollars
                                            claims for tax refunds                                                          Rounding Method: Millions                   Decimal: Zero


Line Status   Line Description         NB       2010 - SEPTEMBER          2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Estimated payout         Debit                  19,603                     5,000                      5,000                          0
              (including principal
              and interest) for
              claims pending
              judicial review by the
              Federal Courts
 2            Claims under appeal      Debit                   7,984                     6,000                      6,000                          0



     Section: B               Section Name: Other information related to taxes                                                Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                   Decimal: Zero
Line Status   Line Description         NB       2010 - SEPTEMBER          2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Payroll taxes paid by    Debit                       0                    17,346                     17,346                          0
              Federal agencies
              included in individual
              and FICA taxes
 2            Refundable portion       Debit                  22,659                    24,284                     24,284                          0
              of child care tax
              credits issued
 3            Amount of EITC           Debit                  54,712                    42,418                     42,418                          0
              refunds
 4            Amount of EITC           Debit                       0                     7,028                      7,028                          0
              refunds applied to
              reduce taxpayer
              liability




                                                                                                  - 16 -
                                                                                                                                                                              11/16/2010 10:58:10

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)             Fiscal Year: 2010             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                Agency Notes:    N/A
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                 No Data: YES             Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined         Decimal: User-Defined
Line Status      Line Description        NB       2010 - SEPTEMBER            2009 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1               Present value of       Debit
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed                                              No Data: YES

 Line          Question                                                                                                 Answer
 1            Provide the indicators of the range of uncertainty around insurance related estimates and
              sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
              losses (SFFAS No. 5. par. 114)




                                                                                                        - 17 -
                                                                                                                                                                            11/16/2010 10:58:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                              Fiscal Year: 2010                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                           Agency Notes:       N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Fiscal 2010 Operating Revenues Not Reported in the                               Line Attributes: Dollars
                                            Budget Receipts                                                                Rounding Method: Millions                  Decimal: Zero


Line Status   Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes         CY-Excise taxes         CY-Estate and gift taxes   CY-Customs duties
                                                and tax withholdings                    taxes
 1            Undistributed           Credit                  -97,500                   -9,686                   -38,275                     6,345                         -59
              Offsetting receipts
              (offset against
              outlays)
 2            Proprietary receipts    Credit
              from the public
              (offset against
              outlays)
 3            Rents and royalties     Credit
              on the outer
              continental shelf
              lands (offset against
              outlays)
 4            Offsetting              Credit
              governmental
              receipts (offset
              against outlays)
 5            Intrabudgetary          Credit
              transactions (offset
              against outlays)
 6                                    Credit
 7                                    Credit
 8                                    Credit

Line Status   Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                           receipts                 revenue
 1            Undistributed           Credit                     2,364
              Offsetting receipts
              (offset against
              outlays)
 2            Proprietary receipts    Credit
              from the public
              (offset against
              outlays)
 3            Rents and royalties     Credit
              on the outer


                                                                                                  - 18 -
                                                                                                                                                                         11/16/2010 10:58:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                                Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                             Agency Notes:      N/A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Fiscal 2010 Operating Revenues Not Reported in the                                 Line Attributes: Dollars
                                            Budget Receipts                                                                  Rounding Method: Millions             Decimal: Zero


Line Status   Line Description        NB           CY-Other taxes and CY-Miscellaneous earned
                                                          receipts                 revenue
              continental shelf
              lands (offset against
              outlays)
 4            Offsetting              Credit
              governmental
              receipts (offset
              against outlays)
 5            Intrabudgetary          Credit
              transactions (offset
              against outlays)
 6                                    Credit
 7                                    Credit
 8                                    Credit
     Section: B               Section Name: Fiscal 2010 Budget Receipts Not Reported in the         No Data: YES               Line Attributes: Dollars
                                            Operating Revenue                                                                Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description        NB         CY-Individual income    CY-Corporation income         CY-Employment and           CY-Unemployment CY-Other retirement    C        CY-Excise taxes   C
                                                            taxes   C                taxes   C       general retirement C             insurance  C
 1            Earned (exchange)       N/A
              revenue reported in
              the Statement of Net
              Cost
 2                                    N/A
 3                                    N/A
 4                                    N/A

Line Status   Line Description        NB       CY-Estate and gift taxes CY-Customs duties      C          CY-Miscellaneous
                                                                      C                                       receipts   C
 1            Earned (exchange)        N/A
              revenue reported in
              the Statement of Net
              Cost
 2                                     N/A



                                                                                                   - 19 -
                                                                                                                                                                                               11/16/2010 10:58:10

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                           Fiscal Year: 2010                 Period: SEPTEMBER
         Entity: 2000          Department of the Treasury                                                                                        Agency Notes:        N/A
        Status: Complete                                                                                 I = Inactive Line


     Tab: Other Data Info.
      Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                    No Data: YES              Line Attributes: Dollars
                                               Operating Revenue                                                                          Rounding Method: User-Defined                 Decimal: User-Defined


Line Status      Line Description         NB       CY-Estate and gift taxes CY-Customs duties                C        CY-Miscellaneous
                                                                          C                                               receipts   C
 3                                        N/A
 4                                        N/A




     Tab: Other Text Data

        Section: A                 Section Name: Fiscal 2010 Operating Revenues Not Reported in the
                                                 Budget Receipts

 Line         Question                                                                                                        Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).                   IRS final refunds. The difference is due to certain outlay amounts included within refunds on
                                                                                                                             the financial statements but classified as outlays in the MTS Table 5.

                                                                                                                             MTS is including Deposits by States. Per FMS the Treasury Account Symbol is 16X8042.3
                                                                                                                             (Department of Labor); however, it is a Treasury Managed Trust Fund. Not on Treasury's
                                                                                                                             financial statement - check to see if on Labor's.

                                                                                                                             Other Receipts includes Railroad Retirement of $4,648; Beneficial Interest in Trust of (2,666)
                                                                                                                             Not on MTS change in valuation no cash; and Donation and Forfeiture of Property 318 not on
                                                                                                                             MTS; 64 unknown
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).                N/A
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).                    N/A
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).                          N/A
 5            Provide a detailed description of the agency entered description reconciling item(s).                          N/A
     Tab: Other Text Data

        Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                   No Data: YES
                                                 Operating Revenue

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the earned revenue reconciling item(s).



                                                                                                                 - 20 -
                                                                                                                                                                      11/16/2010 10:58:10

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

Other Data: 16               Analysis of FR Operating Revenue to Budget Receipts                                                 Fiscal Year: 2010         Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                             Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



 Tab: Other Text Data

       Section: B               Section Name: Fiscal 2010 Budget Receipts Not Reported in the               No Data: YES
                                              Operating Revenue

Line        Question                                                                                                    Answer
2           Provide a detailed description of the agency entered description reconciling item(s).




                                                                                                        - 21 -
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 3   Fund Balance                                                                      A      D       F                  437,026                 504,582
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Fund Balance with Treasury                              F                437,026                504,582                   504,582                     0
Total:                                                                   437,026                504,582                   504,582                     0

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 4   Loans and Interest Receivable                                                     A      D       F                  552,853                 410,591
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                     F                    413                    646                       646                     0
Loans Receivable                                        F                552,440                409,945                   409,945                     0
Total:                                                                   552,853                410,591                   410,591                     0
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 5   Troubled Asset Relief Program - Asset Guarantee Program                           A      D       F                      815                          0
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Federal Investments                                     F                  815                     0                            0                     0
Total:                                                                     815                     0                            0                     0




                                                                              -1-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2010                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 6   Advances to the Unemployment Trust Fund                                            A      D      F                    34,111                  7,981
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Interest Receivable                                     F                     0                      31                        31                     0
Loans Receivable                                        F                34,111                   7,950                     7,950                     0
Total:                                                                   34,111                   7,981                     7,981                     0
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 7   Due From the General Fund                                                          A      D      F                13,655,637             11,992,719
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets (without reciprocals)                      F              13,655,637              11,992,719              11,992,719                     0
Total:                                                                 13,655,637              11,992,719              11,992,719                     0

Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 8   Accounts Receivable and Related Interest                                           A      D      F                      361                     298
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Receivable                                     F                  361                     298                       298                      0
Total:                                                                     361                     298                       298                      0




                                                                               -2-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 9   Other Intra-governmental Assets                                                   A      D       F                        3                          5
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Advances to Others and Prepayments                      F                   3                      5                            5                     0
Total:                                                                      3                      5                            5                     0

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 12 Cash, Foreign Currency & Other Monetary Assets                                     A      D       N                  375,282                 341,308
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                375,250                341,284                   341,284                     0
Accounts and Taxes Receivable                           N                     32                     24                        24                     0
Total:                                                                   375,282                341,308                   341,308                     0
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 13 Gold and Silver Reserves                                                           A      D       N                    11,062                 11,062
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                11,062                 11,062                     11,062                     0
Total:                                                                   11,062                 11,062                     11,062                     0




                                                                              -3-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 14 Asset Guarantee                                                             I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                   0                      0                        1,765                 (1,765)
Total:                                                                      0                      0                        1,765                 (1,765)

Line Agency Line Description                                                   Status Account NB     F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                       Type
 15 Troubled Asset Relief Program Direct Loans and Equity Investments, Net and           A      D     N                  144,692                 239,657
    Asset Guarantee Program
                                                                                      Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
TARP Direct Loans and Equity Investments                N                144,692                239,657                         0                239,657
Total:                                                                   144,692                239,657                         0                239,657
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 16 Investment - Credit Reform                                                  I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                   0                      0                      203,141               (203,141)
securities
Total:                                                                         0                          0              203,141                (203,141)




                                                                              -4-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 17 Investments in Government Sponsored Enterprises                                    A      D       N                  109,216                  64,679
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Investment in Government sponsored                      N                109,216                64,679                     64,679                     0
enterprises (GSEs)
Total:                                                                   109,216                  64,679                  64,679                          0
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 18 Investments in International Financial Institutions                                A      D       N                     5,580                  5,575
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                 5,580                  5,575                      5,575                     0
Total:                                                                    5,580                  5,575                      5,575                     0

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 19 Other Investments and Related Interest                                             A      D       N                    12,639                 13,565
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                12,639                 13,565                     13,565                     0
Total:                                                                   12,639                 13,565                     13,565                     0




                                                                              -5-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 20 Credit Program Receivables and Direct Loans, Net                                   A      D       N                  186,396                 184,460
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                186,396                184,460                   219,170                (34,710)
securities
Total:                                                                   186,396                  184,460                219,170                 (34,710)
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 21 Loans and Interest Receivable                                                      A      D       N                      124                     127
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                  124                    127                        168                    (41)
securities
Total:                                                                       124                      127                    168                     (41)
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 22 Reserve Position in International Monetary Fund                                    A      D       N                    12,938                 13,469
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                12,938                 13,469                     13,469                     0
Total:                                                                   12,938                 13,469                     13,469                     0




                                                                              -6-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 23 Tax, Other and Related Interest Receivables, Net                                   A      D       N                    36,976                 30,408
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                           N                36,976                 30,408                     30,408                     0
Total:                                                                   36,976                 30,408                     30,408                     0

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 24 Beneficial Interest in Trust                                                I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                   0                      0                       23,472                (23,472)
Total:                                                                      0                      0                       23,472                (23,472)

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 25 Inventory and Related Property, Net                                                A      D       N                      697                     598
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Inventory and Related Property                          N                  697                    598                        598                      0
Total:                                                                     697                    598                        598                      0




                                                                              -7-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 26 Property, Plant and Equipment, Net                                                 A      D       N                     2,031                  2,036
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                           N                 2,031                  2,036                      2,036                     0
Total:                                                                    2,031                  2,036                      2,036                     0

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 27 Beneficial Interest in Trust                                                       A      D       N                    20,805                 23,472
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Beneficial Interest in Trust                            N                20,805                 23,472                          0                 23,472
Total:                                                                   20,805                 23,472                          0                 23,472

Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 28 Other Assets                                                                       A      D       N                       13                          9
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                   13                     9                            9                     0
Total:                                                                      13                     9                            9                     0




                                                                              -8-
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 33 Federal Debt and Interest Payable                                                   L      C      F                 4,587,802                4,403,080
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                  48,546                  49,409                  49,409                      0
Federal Debt                                            F               4,539,256               4,353,671               4,353,671                      0
Total:                                                                 (4,587,802)             (4,403,080)             (4,403,080)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 34 Other Debt and Interest Payable                                                     L      C      F                    10,358                   12,060
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                    119                     139                      139                      0
Federal Debt                                            F                 10,239                  11,921                   11,921                      0
Total:                                                                   (10,358)                (12,060)                 (12,060)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 35 Due to the General Fund                                                             L      C      F                 1,414,252                1,263,128
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities (without reciprocals)                 F                       0                       0               1,263,128               (1,263,128)
Liability to the General Fund for custodial and         F               1,414,252               1,263,128                       0                1,263,128
other non-entity assets
Total:                                                                 (1,414,252)             (1,263,128)             (1,263,128)                         0

                                                                               -9-
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB    F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                        Type
 35 Due to the General Fund                                                               L    C      F                 1,414,252               1,263,128




Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 36 Other Intra-governmental Liabilities                                               L      C       F                      366                     425
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported      Line Item Changes
Accounts Payable                                        F                  108                       98                       98                      0
Interest Payable                                        F                    0                       (3)                      (3)                     0
Benefit Program Contributions Payable                   F                  226                      215                      215                      0
Advances from Others and Deferred Credits               F                   34                       40                       40                      0
Other Liabilities (without reciprocals)                 F                   (2)                      75                       75                      0
Total:                                                                    (366)                    (425)                    (425)                     0




                                                                              - 10 -
                                                                 U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                       Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 38 Federal Debt and Interest Payable                                                    L      C      N                 9,035,929                7,559,305
                                                                                      Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported       Line Item Changes
Federal Debt Securities Held by the Public               N               9,035,929                7,559,305              7,559,305                      0
Total:                                                                  (9,035,929)              (7,559,305)            (7,559,305)                     0

Line Agency Line Description                                                   Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 39 Certificates Issued to the Federal Reserve                                           L      C      N                     5,200                   5,200
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                        N                 5,200                    5,200                    5,200                      0
Total:                                                                    (5,200)                  (5,200)                  (5,200)                     0

Line Agency Line Description                                                   Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 40 Allocation of Special Drawing Rights                                                 L      C      N                    54,958                  55,953
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                        N                 54,958                   55,953                  55,953                      0
Total:                                                                    (54,958)                 (55,953)                (55,953)                     0




                                                                                - 11 -
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 41 Gold Certificates Issued to Federal Reserve                                         L      C      N                    11,037                  11,037
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 11,037                  11,037                   11,037                      0
Total:                                                                   (11,037)                (11,037)                 (11,037)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 42 Refunds Payables                                                                    L      C      N                     4,146                   4,040
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                 4,146                   4,040                     4,040                      0
Total:                                                                   (4,146)                 (4,040)                   (4,040)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 43 D.C. Pension and Judicial Retirement Actuarial Liability                            L      C      N                     9,743                   9,049
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 9,743                   9,049                     9,049                      0
Total:                                                                   (9,743)                 (9,049)                   (9,049)                     0




                                                                              - 12 -
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 44 Liabilities to Government Sponsored Enterprises                                    L      C       N                  359,900                  91,937
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Liabilities to Government Sponsored                     N                359,900                 91,937                    91,937                     0
Enterprises
Total:                                                                  (359,900)                 (91,937)               (91,937)                         0
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 45 Other Liabilities                                                                  L      C       N                     4,470                  3,331
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                        N                 1,213                    638                       638                      0
Federal Employee and Veteran Benefits                   N                   601                    576                       576                      0
Payable
Other Liabilities                                      N                   2,631                    2,095                  2,095                          0
Insurance and Guarantee Program Liabilities            N                      25                       22                     22                          0
Total:                                                                    (4,470)                  (3,331)                (3,331)                         0




                                                                              - 13 -
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 49 Unexpended Appropriations - Earmarked Funds                                         E      C      B                       200                     200
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                  200                     200                       200                       0
Total:                                                                    (200)                   (200)                     (200)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 50 Unexpended Appropriations - All Other Funds                                         E      C      B                   400,357                 454,944
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                400,357                 454,944                  454,944                      0
Total:                                                                  (400,357)               (454,944)                (454,944)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 51 Cumulative Results of Operations - Earmarked Funds                                  E      C      B                    41,426                  41,653
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                 41,426                  41,653                   41,653                      0
Total:                                                                   (41,426)                (41,653)                 (41,653)                     0




                                                                              - 14 -
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 52 Cumulative Results of Operations - All Other Funds                                  E      C      B                  (340,887)                (68,741)
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B               (340,887)                (68,741)                 (68,741)                     0
Total:                                                                   340,887                  68,741                   68,741                      0




                                                                              - 15 -
                                                                U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                             Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 41 Total Gross Costs                                                                 GC      D       B                  757,352                 619,347
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Interest on Debt Held by the Public                     N                214,796                 189,148                  189,148                     0
Imputed Costs                                           F                  1,008                     794                      794                     0
Buy/Sell Costs                                          F                  1,642                   1,635                    1,635                     0
Benefit Program Costs                                   F                  2,119                   1,960                    1,960                     0
Federal Securities Interest Expense                     F                198,597                 191,997                  191,997                     0
Borrowing and Other Interest Expense                    F                  8,192                   6,534                    6,534                     0
Non-Federal Gross Cost                                  N                330,178                 227,278                  227,278                     0
Other Expenses (without reciprocals)                    F                      0                       1                        1                     0
Gain/Loss from changes in actuarial                     N                    820                       0                        0                     0
assumptions
Total:                                                                   757,352                  619,347                619,347                          0
Line Agency Line Description                                                 Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                     Type
 42 Total Earned Revenues                                                             ER      C       B                    98,511                 96,415
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported      Line Item Changes
Buy/Sell Revenue                                        F                   219                   1,371                     1,371                     0
Borrowings Gains                                        F                   160                   2,497                     2,497                     0
Borrowing and Other Interest Revenue                    F                24,181                  16,630                    16,630                     0
(Exchange)
Non-Federal Earned Revenue                             N                  73,951                   77,066                 77,066                          0
Other Revenue (without reciprocals)                    F                       0                   (1,149)                (1,149)                         0


                                                                              - 16 -
                                                             U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                           Fiscal Year: 2010                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                         Account NB     F/N       2010-SEPTEMBER       2009-SEPTEMBER
                                                                                      Type
 42 Total Earned Revenues                                                              ER    C        B                 98,511                 96,415
Total:                                                                 (98,511)                   (96,415)            (96,415)                      0




                                                                            - 17 -
                                                             U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                           Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                             Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                   Type
 2   Beginning Balance                                                              BN      C      B                   (27,088)                 37,743
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                (27,088)                 37,743                   37,743                      0
Total:                                                                 27,088                 (37,743)                 (37,743)                     0

Line Agency Line Description                                               Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                   Type
 4   Appropriations Used                                                             F      C      B                   502,439                 668,153
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                    F                502,439                 668,153                  668,153                      0
Total:                                                               (502,439)               (668,153)                (668,153)                     0

Line Agency Line Description                                               Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                   Type
 5   Non-exchange Revenue                                                            F      C      B                       281                     493
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                             N                   57                     493                       493                       0
Other budgetary financing sources                    F                  224                       0                          0                      0
Total:                                                                 (281)                   (493)                     (493)                      0




                                                                           - 18 -
                                                                  U.S. Department of the Treasury                                   11/16/2010 12:39:45
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                                Fiscal Year: 2010                                 Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                       Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N    2010-SEPTEMBER          2009-SEPTEMBER
                                                                                       Type
  6   Donations and Forfeitures of Cash and Cash Equivalents                             F      C       N                    324                     257
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2010-SEPTEMBER          2009-SEPTEMBER       Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                    324                     257                     257                      0
Total:                                                                      (324)                   (257)                   (257)                     0

Line Agency Line Description                                                   Status Account NB       F/N    2010-SEPTEMBER          2009-SEPTEMBER
                                                                                       Type
  7   Transfers In/Out without Reimbursement                                             F      C       F                    (14)                    (21)
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2010-SEPTEMBER          2009-SEPTEMBER       Previously Reported      Line Item Changes
Expenditure transfers-in of financing sources           F                     0                       10                      10                      0
Nonexpenditure Transfers-out of unexpended              F                     0                        5                        5                     0
appropriations and financing sources
Appropriation of unavailable special or trust          F                       14                       26                    26                          0
fund receipts Transfers-out
Total:                                                                          14                      21                    21                          0




                                                                                - 19 -
                                                              U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 8   Other Budgetary Financing Sources                                                F      C      B                        12                      12
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                     F                   12                      12                        12                       0
Total:                                                                   (12)                    (12)                      (12)                      0

Line Agency Line Description                                                Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 10 Donations and Forfeitures of Property                                             F      C      N                       319                     127
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                  319                     127                       127                       0
Total:                                                                  (319)                   (127)                     (127)                      0

Line Agency Line Description                                                Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 11 Accrued Interest & Discount on the Debt                                           F      C      F                    11,086                   6,027
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                     F                 11,086                  6,027                     6,027                      0
Total:                                                                 (11,086)                (6,027)                   (6,027)                     0




                                                                            - 20 -
                                                              U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 12 Transfers In/Out without Reimbursement                                            F      C      F                       (42)                    (36)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Transfers-in Without Reimbursement                    F                   (1)                     (5)                       (5)                      0
Transfers-out Without Reimbursement                   F                   41                      31                        31                       0
Total:                                                                    42                      36                        36                       0
Line Agency Line Description                                                Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 13 Imputed Financing Sources                                                         F      C      F                     1,008                     793
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Imputed Financing Source                              F                 1,008                    793                       793                       0
Total:                                                                 (1,008)                  (793)                     (793)                      0

Line Agency Line Description                                                Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 14 Transfers to the General Fund and Other                                           F      C      B                  (128,945)               (217,704)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                    313                     447                      447                      0
Other non-budgetary financing sources                 F                      0                (187,992)                (187,992)                     0
Other budgetary financing sources                     F                (35,993)                (30,159)                 (30,159)                     0
Accrual for Non-entity Amounts to be                  F                 93,265                       0                        0                      0


                                                                            - 21 -
                                                                 U.S. Department of the Treasury                                        11/16/2010 12:39:45
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2010                                      Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                            Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                            Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                         Type
 14 Transfers to the General Fund and Other                                                F    C        B                  (128,945)               (217,704)
Collected and Transferred to the General Fund
Total:                                                                    128,945                    217,704                217,704                           0




Line Agency Line Description                                                   Status Account NB        F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 21 Beginning Balance                                                                   BN      C        B                   455,144                 271,968
                                                                                      Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N      2010-SEPTEMBER           2009-SEPTEMBER          Previously Reported       Line Item Changes
Beginning Net Position                                  B                 455,144                  271,968                   271,968                      0
Total:                                                                   (455,144)                (271,968)                 (271,968)                     0

Line Agency Line Description                                                   Status Account NB        F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 23 Appropriations Received                                                              F      C        B                   456,970                 855,762
                                                                                      Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER           2009-SEPTEMBER          Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                456,970                  855,762                   855,762                      0
and other adjustments)
Total:                                                                   (456,970)                   (855,762)              (855,762)                         0




                                                                               - 22 -
                                                                 U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 24 Appropriations Transferred In/Out                                                    F      C      B                       92                       11
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2010-SEPTEMBER          2009-SEPTEMBER        Previously Reported       Line Item Changes
Nonexpenditure transfers-in of unexpended              F                     92                      11                       11                       0
appropriations and financing sources
Total:                                                                        (92)                     (11)                   (11)                         0
Line Agency Line Description                                                   Status Account NB      F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 25 Other Adjustments                                                                    F      C      B                   (9,210)                  (4,444)
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER          2009-SEPTEMBER        Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                (9,210)                 (4,444)                  (4,444)                     0
and other adjustments)
Total:                                                                      9,210                     4,444                 4,444                          0
Line Agency Line Description                                                   Status Account NB      F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 26 Appropriations Used                                                                  F      C      B                 (502,439)               (668,153)
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2010-SEPTEMBER          2009-SEPTEMBER        Previously Reported       Line Item Changes
Other budgetary financing sources                      F                 (502,439)               (668,153)               (668,153)                     0
Total:                                                                    502,439                 668,153                 668,153                      0




                                                                               - 23 -
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 3   Individual Income and FICA Taxes                                                   F      C      N                 1,988,760                2,036,557
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               1,988,760                2,036,557              2,036,557                      0
Total:                                                                 (1,988,760)              (2,036,557)            (2,036,557)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 4   Corporate Income Taxes                                                             F      C      N                   277,937                 225,482
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported       Line Item Changes
Corporation Income Taxes                                N                277,937                  225,482                 225,482                      0
Total:                                                                  (277,937)                (225,482)               (225,482)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 5   Estate and Gift Taxes                                                              F      C      N                    19,751                  24,677
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER           2009-SEPTEMBER        Previously Reported       Line Item Changes
Estate and Gift Taxes                                   N                 19,751                   24,677                  24,677                      0
Total:                                                                   (19,751)                 (24,677)                (24,677)                     0




                                                                               - 24 -
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 6   Excise Taxes                                                                       F      C      N                    70,946                  67,248
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                 70,946                  67,248                   67,248                      0
Total:                                                                   (70,946)                (67,248)                 (67,248)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 7   Railroad Retirement Taxes                                                          F      C      N                     4,648                   4,711
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 4,648                   4,711                     4,711                      0
Total:                                                                   (4,648)                 (4,711)                   (4,711)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 8   Unemployment Taxes                                                                 F      C      N                     6,543                   6,765
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Unemployment Taxes                                      N                 6,543                   6,765                     6,765                      0
Total:                                                                   (6,543)                 (6,765)                   (6,765)                     0




                                                                              - 25 -
                                                                 U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 9   Deposit of Earnings, Federal Reserve System                                         F      C      N                    75,845                  34,318
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                 N                 75,845                  34,318                   34,318                      0
Total:                                                                    (75,845)                (34,318)                 (34,318)                     0

Line Agency Line Description                                                   Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 10 Fines, Penalties, Interest & Other Revenue                                           F      C      B                     1,880                   1,929
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                 N                   463                   1,929                     1,929                      0
Other taxes and receipts                                 F                    12                       0                         0                      0
Other budgetary financing sources                        F                 1,405                       0                         0                      0
Total:                                                                    (1,880)                 (1,929)                   (1,929)                     0
Line Agency Line Description                                                   Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 13 Less Refunds                                                                         F      C      N                  (469,937)               (437,972)
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings                N               (371,306)               (339,629)                (339,629)                     0
Other Taxes and Receipts                                 N                     (1)                     (3)                      (3)                     0
Corporation Income Taxes                                 N                (96,186)                (95,200)                 (95,200)                     0


                                                                               - 26 -
                                                                U.S. Department of the Treasury                                       11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2010                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB     F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                        Type
 13 Less Refunds                                                                          F    C        N                 (469,937)               (437,972)
Excise Taxes                                           N                  (1,426)                    (1,783)                (1,783)                      0
Estate and Gift Taxes                                  N                    (925)                    (1,248)                (1,248)                      0
Unemployment Taxes                                     N                     (93)                      (109)                  (109)                      0
Total:                                                                   469,937                    437,972               437,972                        0




Line Agency Line Description                                                 Status Account NB        F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                     Type
 18 Beneficial Interest in Trust                                                       F      C        N                    (2,666)                 23,472
                                                                                    Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER           2009-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                (2,666)                        0                        0                      0
Miscellaneous Earned Revenue                            N                     0                    23,472                   23,472                      0
Total:                                                                    2,666                   (23,472)                 (23,472)                     0
Line Agency Line Description                                                 Status Account NB        F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                     Type
 19 Accrual Adjustment                                                                 F      C        N                     6,539                   (1,097)
                                                                                    Variance:                                    0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER           2009-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                     0                   (1,000)                   (1,000)                     0
Other Taxes and Receipts                                N                     0                      (97)                      (97)                     0
Excise Taxes                                            N                    71                        0                         0                      0
Accrual for Non-entity Amounts to be                    F                (6,468)                       0                         0                      0


                                                                              - 27 -
                                                                U.S. Department of the Treasury                                       11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                            Account NB     F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                         Type
 19 Accrual Adjustment                                                                     F    C      N                     6,539                   (1,097)
Collected and Transferred to the General Fund
Total:                                                                     (6,539)                    1,097                  1,097                          0




Line Agency Line Description                                                   Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 25 Amounts Provided to Fund Non Federal Entities                                       CF      D      B                       387                     487
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER            2009-SEPTEMBER        Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 (387)                        0                         0                      0
Excise Taxes                                            N                    0                      (487)                    (487)                      0
Total:                                                                     387                       487                      487                       0
Line Agency Line Description                                                   Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 26 Amounts Provided to Fund the Federal Government                                     CF      D      B                 1,975,986                1,963,228
                                                                                      Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2010-SEPTEMBER            2009-SEPTEMBER        Previously Reported       Line Item Changes
Expenditure Transfers-out of financing sources         F                       74                       (61)                   (61)                     0
Other budgetary financing sources                      F                     (361)               (1,963,289)            (1,963,289)                     0
Non-Entity Collections Transferred to the              F                1,975,551                         0                      0                      0
General Fund


                                                                               - 28 -
                                                                U.S. Department of the Treasury                                      11/16/2010 12:39:45
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB     F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                        Type
 26 Amounts Provided to Fund the Federal Government                                      CF    D       B                1,975,986                1,963,228
Total:                                                                  1,975,986                1,963,228              1,963,228                        0




Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 29 Non-cash revenue - Beneficial Interest in Trust                                    CF      D       B                   (2,666)                 23,472
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER            2009-SEPTEMBER       Previously Reported       Line Item Changes
Other budgetary financing sources                       F                     0                    (23,472)               (23,472)                     0
Non-Entity Collections Transferred to the               F                (2,666)                         0                      0                      0
General Fund
Total:                                                                    (2,666)                   23,472                 23,472                          0
Line Agency Line Description                                                  Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 30 Accrual Adjustment                                                                 CF      D       B                    6,539                   (1,097)
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER            2009-SEPTEMBER       Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                    0                      1,000                   1,000                      0
Other Taxes and Receipts                                N                    0                         97                      97                      0
Excise Taxes                                            N                  (71)                         0                       0                      0


                                                                              - 29 -
                                                             U.S. Department of the Treasury                                     11/16/2010 12:39:45
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                              Fiscal Year: 2010                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                         Account NB    F/N        2010-SEPTEMBER       2009-SEPTEMBER
                                                                                      Type
 30 Accrual Adjustment                                                                 CF    D      B                   6,539                   (1,097)
Accrual for Non-entity Amounts to be                  F                  6,468                          0                   0                        0
Collected and Transferred to the General Fund
Total:                                                                   6,539                    (1,097)              (1,097)                         0




                                                                            - 30 -
